<html>
<title> - SUSTAINABLE WASTEWATER INFRASTRUCTURE: MEASURES TO PROMOTE RESILIENCY AND CLIMATE ADAPTATION AND MITIGATION</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                     SUSTAINABLE WASTEWATER INFRASTRUCTURE: 
                      MEASURES TO PROMOTE RESILIENCY AND CLI-
                      MATE ADAPTATION AND MITIGATION

=======================================================================

                                (117-13)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-096 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy

            Subcommittee on Water Resources and Environment

 GRACE F. NAPOLITANO, California, 
               Chair
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
DANIEL WEBSTER, Florida              EDDIE BERNICE JOHNSON, Texas
JOHN KATKO, New York                 JOHN GARAMENDI, California
BRIAN BABIN, Texas                   ALAN S. LOWENTHAL, California
GARRET GRAVES, Louisiana             TOM MALINOWSKI, New Jersey
MIKE BOST, Illinois                  ANTONIO DELGADO, New York
RANDY K. WEBER, Sr., Texas           CHRIS PAPPAS, New Hampshire
DOUG LaMALFA, California             CAROLYN BOURDEAUX, Georgia,
BRUCE WESTERMAN, Arkansas              Vice Chair
BRIAN J. MAST, Florida               FREDERICA S. WILSON, Florida
JENNIFFER GONZALEZ-COLON,            SALUD O. CARBAJAL, California
  Puerto Rico                        GREG STANTON, Arizona
NANCY MACE, South Carolina           ELEANOR HOLMES NORTON,
SAM GRAVES, Missouri (Ex Officio)      District of Columbia
                                     STEVE COHEN, Tennessee
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Water Resources 
  and Environment, opening statement.............................     1
    Prepared statement...........................................     3
Hon. David Rouzer, a Representative in Congress from the State of 
  North Carolina, and Ranking Member, Subcommittee on Water 
  Resources and Environment, opening statement...................     4
    Prepared statement...........................................     6
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure, opening statement..............................     6
    Prepared statement...........................................     8
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    75
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    75

                               WITNESSES

Howard M. Neukrug, P.E., Executive Director, The Water Center at 
  the University of Pennsylvania, oral statement.................    15
    Prepared statement...........................................    17
Kishia L. Powell, P.E., Chief Operating Officer and Executive 
  Vice President, DC Water, oral statement.......................    20
    Prepared statement...........................................    22
Robert C. Ferrante, Chief Engineer and General Manager, Los 
  Angeles County Sanitation Districts, oral statement............    24
    Prepared statement...........................................    26
Kim H. Colson, Director, Division of Water Infrastructure, North 
  Carolina Department of Environmental Quality, testifying on 
  behalf of the Council of Infrastructure Financing Authorities, 
  oral statement.................................................    28
    Prepared statement...........................................    30
Kevin Robert Perry, FASLA, Fellow, American Society of Landscape 
  Architects, oral statement.....................................    34
    Prepared statement...........................................    36
Rebecca Hammer, Deputy Director of Federal Water Policy, Natural 
  Resources Defense Council, oral statement......................    38
    Prepared statement...........................................    39

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Grace F. Napolitano:
    Statement of Gary Belan, Senior Director, Clean Water Supply 
      Program, American Rivers...................................     9
    Statement of Patricia Sinicropi, Executive Director, 
      WateReuse Association......................................    76
Submissions for the Record by Hon. Peter A. DeFazio:
    Letter of May 19, 2021, from Jeffrey Soth, Legislative and 
      Political Director, International Union of Operating 
      Engineers..................................................    77
    Letter of May 20, 2021, from Sean McGarvey, President, North 
      America's Building Trades Unions...........................    80

                                APPENDIX

Questions from Hon. David Rouzer to Deirdre Finn, Executive 
  Director, Council of Infrastructure Financing Authorities......    83
Questions from Hon. Peter A. DeFazio to Rebecca Hammer, Deputy 
  Director of Federal Water Policy, Natural Resources Defense 
  Council........................................................    90

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             April 16, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Water Resources and 
Environment
    FROM:  LStaff, Subcommittee on Water Resources and 
Environment
    RE:      LSubcommittee Hearing on ``Sustainable Wastewater 
Infrastructure: Measures to Promote Resiliency and Climate 
Adaptation and Mitigation''
_______________________________________________________________________


                                PURPOSE

    On Wednesday, April 21, 2021, at 11:00 a.m. EDT, the 
Subcommittee on Water Resources and Environment will hold a 
hearing in the Rayburn House Office Building, Room 2167, and 
via Zoom, on sustainable wastewater infrastructure. The purpose 
of this hearing is to provide Members with additional 
information on policies and practices to encourage greater 
resiliency and sustainability of wastewater utilities in 
meeting the requirements of the Federal Water Pollution Control 
Act, more commonly known as the Clean Water Act. Witnesses will 
include representatives of academia, wastewater utilities, and 
other wastewater stakeholders who will testify on the benefits, 
capabilities, and considerations on the adoption of sustainable 
wastewater infrastructure practices.

                               BACKGROUND

    America's wastewater infrastructure is in significant need 
of increased financial investment, as detailed in the Summary 
of Subject Matter for the February 23, 2021, hearing of the 
Subcommittee, entitled ``Building Back Better: The Urgent Need 
for Investment in America's Wastewater Infrastructure.''
    As a brief recap and update, according to the American 
Society of Civil Engineers (ASCE) 2021 Report Card for 
America's Infrastructure, the grade for wastewater treatment 
infrastructure has remained at a D+ since the 2017 report, and 
the new category of stormwater infrastructure has received a 
grade of D.\1\ In addition, according to the most recent needs 
survey from the U.S. Environmental Protection Agency (EPA) 
(2012), communities have documented at least $271 billion of 
investment over the next 20 years to bring their systems to a 
state of good repair; yet, as this assessment is almost a 
decade old, the current need may be higher.\2\ However, the 
country's urgent wastewater infrastructure needs also present a 
major opportunity to upgrade, modernize, and increase the 
efficacy and sustainability of the nation's water-related 
infrastructure.
---------------------------------------------------------------------------
    \1\ https://infrastructurereportcard.org/infrastructure-
categories/.
    \2\ https://www.epa.gov/cwns/clean-watersheds-needs-survey-cwns-
2012-report-and-data.
---------------------------------------------------------------------------

SUSTAINABLE WASTEWATER INFRASTRUCTURE

    In 2011, the EPA approved a Clean Water and Drinking Water 
Sustainability Policy that called for ``increasing the 
sustainability of water infrastructure in the U.S. and the 
communities it serves.'' \3\ This statement of policy 
establishes that ``Federal investments, policies, and actions 
should support water infrastructure in more efficient and 
sustainable locations to best support existing communities, 
enhance economic opportunities, and promote affordable 
neighborhoods,'' and highlights the importance of cost-
effective, life-cycle planning, the efficient use of resources, 
the utilization of natural or green infrastructure systems, and 
addressing potential climate change impacts in achieving 
utility sustainability.\4\
---------------------------------------------------------------------------
    \3\ https://www.epa.gov/sites/production/files/2016-01/documents/
clean-water-and-drinking-water-infrastructure-sustability-policy.pdf.
    \4\ See id.
---------------------------------------------------------------------------
    In furtherance of its sustainability policy, the EPA has 
highlighted four factors for the ``Path to Sustainable Water 
Infrastructure'': (1) water and energy efficiency, (2) asset 
management, (3) wastewater treatment clearinghouse, and (4) 
alternative technologies and assessment.\5\
---------------------------------------------------------------------------
    \5\ https://www.epa.gov/sustainable-water-infrastructure/building-
sustainable-water-infrastructure.
---------------------------------------------------------------------------

WATER AND ENERGY EFFICIENCY

    Energy use can account for as much as 10 percent of a local 
government's annual operating budget.\6\ A significant amount 
of this municipal energy use occurs at water and wastewater 
treatment facilities. With pumps, motors, and other equipment 
operating 24 hours a day, seven days a week, water and 
wastewater facilities can be among the largest consumers of 
energy in a community--and thus among the largest contributors 
to the community's total greenhouse gas (GHG) emissions.\7\
---------------------------------------------------------------------------
    \6\ See U.S. EPA, ``Energy Efficiency in Water and Wastewater 
Facilities: A Guide to Developing and Implementing Greenhouse Gas 
Reduction Programs'' (2013).
    \7\ See id.
---------------------------------------------------------------------------
    Nationally, the energy used by water and wastewater 
utilities accounts for 35 percent of typical U.S. municipal 
energy budgets.\8\ Electricity use accounts for 25 to 40 
percent of the operating budgets for wastewater utilities and 
approximately 80 percent of drinking water processing and 
distribution costs.\9\ Drinking water and wastewater systems 
account for approximately 3 to 4 percent of overall energy use 
in the United States, equivalent to approximately 56 billion 
kilowatts, and a cost of $4 billion, and resulting in the 
emissions of more than 45 million tons of GHGs annually.\10\
---------------------------------------------------------------------------
    \8\ See id.
    \9\ See id.
    \10\ See id. See also, https://www.epa.gov/sustainable-water-
infrastructure/water-and-energy-efficiency-utilities-and-home.
---------------------------------------------------------------------------
    According to the EPA, utilities can reduce the economic 
costs and environmental impacts of wastewater treatment by 
improving the energy efficiency of wastewater facilities' 
equipment and operations, by promoting the efficient use of 
water, and by capturing the energy in wastewater to generate 
electricity and heat.\11\ Improvements in energy efficiency 
allow the same work to be done with less energy and cost. The 
EPA estimates that, by incorporating energy efficiency 
practices into their water and wastewater plants, 
municipalities and utilities can save 15 to 30 percent on their 
operating costs, saving thousands of dollars with payback 
periods (or the amount of time required to pay back the cost of 
the upgrade through potential cost savings resulting from the 
upgrade) of only a few months to a few years.\12\ Improvements 
in water use efficiency reduce demand for water, which in turn 
reduces the amount of energy required to treat and distribute 
water.
---------------------------------------------------------------------------
    \11\ See id. See also, https://www.energy.gov/eere/slsc/wastewater-
infrastructure, which notes that, according to the U.S. Department of 
Energy, wastewater contains about five times more energy than is needed 
for its treatment in terms of untapped thermal energy, which can be 
captured and used to generate energy.
    \12\ https://www.epa.gov/sustainable-water-infrastructure/energy-
efficiency-water-utilities.
---------------------------------------------------------------------------
    Water and wastewater facilities around the country are also 
adopting renewable energy technologies, including combined heat 
and power, sludge digester methane use, solar panels 
installation, and wind turbines. For example, capturing the 
energy in wastewater by burning biogas from anaerobic digesters 
in a combined heat and power system allows wastewater 
facilities to produce some or all of their own electricity and 
space heating, potentially turning them into ``net zero'' 
consumers of energy.
    Local governments can also reduce energy use at water and 
wastewater facilities through measures such as water 
conservation, water loss prevention, reduction of stormwater 
into wastewater collection and treatment systems, and sewer 
system repairs to prevent ground water infiltration. Measures 
to reduce water consumption, water loss, and the creation of 
wastewater can lead to reductions in energy use, and result in 
savings associated with recovering and treating lower 
quantities of wastewater and treating and delivering lower 
quantities of potable public water.\13\
---------------------------------------------------------------------------
    \13\ See id at 8.
---------------------------------------------------------------------------

ASSET MANAGEMENT

    Asset management is a technique wastewater utilities can 
use to manage costs and make sure that planned maintenance can 
be conducted and capital assets (pumps, motors, pipes, etc.) 
can be repaired, replaced, or upgraded on time.
    Asset management allows a utility to optimize management of 
infrastructure capital assets and minimize the total cost of 
owning and operating these assets while delivering the desired 
service levels. Many utilities use asset management to pursue 
and achieve sustainable infrastructure. A high-performing asset 
management program includes detailed asset inventories, 
operation and maintenance tasks, and long-range financial 
planning to cover operational, maintenance, and capital 
costs.\14\
---------------------------------------------------------------------------
    \14\ See https://www.epa.gov/sustainable-water-infrastructure/
asset-management-water-and-wastewater-utilities.
---------------------------------------------------------------------------

WASTEWATER TREATMENT CLEARINGHOUSE

    As required by section 4102 of the America's Water 
Infrastructure Act of 2018, EPA created a wastewater technology 
clearinghouse to provide utilities with information and 
resources on the cost-effectiveness and performance of 
innovative, alternative, and reuse technologies for 
wastewater.\15\ As communities continue to invest in our 
nation's wastewater infrastructure, the clearinghouse is 
intended to help fill a critical information gap on adopted 
innovative, alternative, and reuse technologies that can inform 
local utilities on potential wastewater management 
alternatives, particularly for communities with small, midsize, 
and decentralized wastewater systems.\16\
---------------------------------------------------------------------------
    \15\ P.L. 115-270.
    \16\ See https://ofmpub.epa.gov/apex/wfc/f?p=259:1:10842554757134.
---------------------------------------------------------------------------

ALTERNATIVE TECHNOLOGIES AND ASSESSMENT

    The fourth element suggested by the EPA for greater 
sustainability is selecting the right solution to meet an 
identified wastewater need, including the evaluation of 
different alternatives, such as new technologies, an evaluation 
of centralized versus decentralized wastewater treatment 
systems, and the utilization of green infrastructure approaches 
to local water quality challenges.\17\
---------------------------------------------------------------------------
    \17\ See https://www.epa.gov/sustainable-water-infrastructure/
alternative-technologies-and-assessment-water-and-wastewater#green.
---------------------------------------------------------------------------
    Section 502 of the Clean Water Act defines green 
infrastructure as `` . . . the range of measures that use plant 
or soil systems, permeable pavement or other permeable surfaces 
or substrates, stormwater harvest and reuse, or landscaping to 
store, infiltrate, or evapotranspirate stormwater and reduce 
flows to sewer systems or to surface waters.'' \18\
---------------------------------------------------------------------------
    \18\ See Section 502(27) of the Clean Water Act.
---------------------------------------------------------------------------
    According to the EPA, green infrastructure can frequently 
provide a cost-effective, resilient approach to managing wet 
weather impacts that provides many community benefits.\19\ 
While single-purpose gray stormwater infrastructure--
conventional piped drainage and water treatment systems--is 
designed to move urban stormwater away from the built 
environment, green infrastructure--such as downspout 
disconnections, green roofs, bioswales, and green streets--
reduces and treats stormwater at its source while delivering 
environmental, social, and economic benefits.\20\
---------------------------------------------------------------------------
    \19\ See https://www.epa.gov/green-infrastructure/what-green-
infrastructure.
    \20\ See id.
---------------------------------------------------------------------------
    Stormwater runoff is a major cause of water pollution in 
urban areas.\21\ When rain falls on roofs, streets, and parking 
lots in cities and their suburbs, the water cannot soak into 
the ground. Stormwater drains through gutters, storm sewers, 
and other engineered collection systems and is discharged into 
nearby water bodies. The stormwater runoff carries trash, 
bacteria, heavy metals, and other pollutants from the urban 
landscape. Higher flows resulting from heavy rains also can 
cause erosion and flooding in urban streams, damaging habitat, 
property, and infrastructure.\22\
---------------------------------------------------------------------------
    \21\ See id.
    \22\ See id. See also https://www.nrdc.org/stories/green-
infrastructure-how-manage-water-sustainable-way.
---------------------------------------------------------------------------
    Green infrastructure is designed to use vegetation, soils, 
and other elements and practices to restore some of the natural 
processes required to manage water and create healthier urban 
environments.\23\ At the city or county scale, green 
infrastructure is a patchwork of natural areas that provides 
habitat, flood protection, cleaner air, and cleaner water. At 
the neighborhood or site scale, stormwater management systems 
that mimic natural systems can soak up and store water.
---------------------------------------------------------------------------
    \23\ See id.
---------------------------------------------------------------------------

CLIMATE RESILIENCY

    In addition to the four factors identified by the EPA for 
sustainable wastewater infrastructure, a growing concern is the 
resiliency of water and wastewater utilities to extreme weather 
events and the challenges posed by changing climate conditions.
    In 2017, a working group of water and wastewater experts, 
co-chaired by EPA, found that natural disasters are among the 
most significant risks to the nation's drinking water and 
wastewater infrastructure.\24\ Those natural disasters include 
acute disasters related to extreme weather events, such as 
floods and hurricanes, and chronic hazards related to climate 
change, such as drought and sea level rise.
---------------------------------------------------------------------------
    \24\ See Water and Wastewater Sector Strategic Roadmap Work Group, 
``Roadmap to a Secure and Resilient Water and Wastewater Sector'' 
(2017).
---------------------------------------------------------------------------
    Similarly, a 2009 study by a global engineering company 
reported that failure to plan for the potential impacts of 
climate change may lead to loss of water and wastewater 
treatment services for homes, municipalities, and industry with 
consequences to human health and the economy.\25\
---------------------------------------------------------------------------
    \25\ See CH2M Hill, Inc., ``Confronting Climate Change: An Early 
Analysis of Water and Wastewater Adaptation Costs'' (2009).
---------------------------------------------------------------------------
    In January 2020, the U.S. Government Accountability Office 
(GAO) completed a study of the resiliency of water and 
wastewater utilities to climate change.\26\ GAO recommended 
that: (1) EPA work with utilities to incorporate climate 
resilience into infrastructure projects, and (2) Congress 
should consider requiring that climate resilience be considered 
in planning for federally funded water infrastructure 
projects.\27\
---------------------------------------------------------------------------
    \26\ U.S. GAO, ``Water Infrastructure: Technical Assistance and 
Climate Resilience Planning Could Help Utilities Prepare for Potential 
Climate Change Impacts'' (GAO-20-24).
    \27\ See id.
---------------------------------------------------------------------------

STATUTORY PROVISIONS RELATED TO SUSTAINABLE INFRASTRUCTURE

    In the past two decades, Congress has enacted several 
amendments to the Clean Water Act to promote the implementation 
of sustainable wastewater infrastructure.
    In 2009, Congress enacted the American Recovery and 
Reinvestment Act (Recovery Act) \28\ to stimulate the U.S. 
economy and address a range of other policy objectives. The 
Recovery Act provided $4 billion for the Clean Water State 
Revolving Fund (SRF) for wastewater infrastructure projects. In 
addition, the Recovery Act authorized the so-called ``green 
reserve,'' which required states to use not less than 20 
percent of Recovery Act grants ``to the extent there are 
sufficient eligible project applications . . . for projects to 
address green infrastructure, water or energy efficiency 
improvements or other environmentally innovative activities.'' 
The green reserve has been carried forward each year since 2009 
through enactment in the annual appropriations bills for the 
Clean Water SRF.\29\
---------------------------------------------------------------------------
    \28\ Pub. L. 111-5.
    \29\ In fiscal year 2021, the green reserve required states to 
utilize ``not less than 10 percent'' of Clean Water SRF funds for 
``projects to address green infrastructure, water or energy efficiency 
improvements, or other environmentally innovative activities''. See 
Pub. L. 116-260.
---------------------------------------------------------------------------
    In 2014, Congress amended the Clean Water Act, to encourage 
further adoption of sustainable wastewater infrastructure 
practices by publicly owned utilities.\30\ For example, 
Congress amended the requirements for utilities that receive 
funding from the Clean Water SRF to: (1) require that utilities 
certify they have selected alternatives that maximize the 
potential for efficient water use, reuse, recapture, and 
conservation, and energy conservation; \31\ (2) require that 
utilities develop and implement a fiscal sustainability plan; 
\32\ (3) allow states to offer financial incentives for the 
implementation of technologies to address water-efficiency, 
energy-efficiency, and sustainable projects; \33\ and (4) 
authorize the expenditure of Clean Water SRF funds for projects 
to reclaim or recycle wastewater and stormwater, to implement 
water conservation, efficiency or reuse, to increase the 
resiliency of wastewater utilities to extreme weather events 
and sea-level rise, and to reduce the energy consumption needs 
of wastewater utilities.\34\
---------------------------------------------------------------------------
    \30\ Pub. L. 113-121.
    \31\ Section 601(b)(13) of the Clean Water Act.
    \32\ Section 603(d)(1)(E) of the Clean Water Act.
    \33\ Section 603(i)(1)(B) of the Clean Water Act.
    \34\ Sections 122 and 603(c) of the Clean Water Act.
---------------------------------------------------------------------------
    In the 116th Congress, the Committee on Transportation and 
Infrastructure approved H.R. 1497, the Water Quality Protection 
and Job Creation Act of 2019, by voice vote, and similar 
legislation was passed by the House as part of H.R. 2, the 
Moving Forward Act. These bills would have reauthorized and 
increased the authorized level of federal appropriations for 
the Clean Water SRF program at levels more commensurate with 
local water infrastructure needs, as well as reauthorized 
several existing Clean Water Act grant authorities. In 
addition, these proposals would have extended the existing 
green infrastructure reserve; \35\ established a new grant 
authority to promote increased resilience of wastewater 
utilities; established set-asides of federal resources for 
rural and small communities; codified set-asides for Indian 
tribes and U.S. territories; and included several provisions to 
address the cost of wastewater service to low-income customers 
and households. No further action was taken on these proposals 
in the 116th Congress.
---------------------------------------------------------------------------
    \35\ The Green Reserve in H.R. 1497/H.R. 2 would have required 
states, to the extent that there are sufficient projects or activities 
eligible for assistance, to utilize not less than 15 percent of their 
Clean Water SRF capitalization grant for projects to address green 
infrastructure, water or energy efficiency improvements, or other 
environmentally innovative activities.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet> LHoward Neukrug, P.E., Executive Director, The 
Water Center at the University of Pennsylvania
    <bullet> LKishia L. Powell, COO and Executive Vice 
President, D.C. Water
    <bullet> LRobert C. Ferrante, Chief Engineer and General 
Manager, Los Angeles County Sanitation Districts
    <bullet> LKevin Robert Perry, FASLA, PLA, Fellow, The 
American Society of Landscape Architects
    <bullet> LKim H. Colson, Director, Division of Water 
Infrastructure, North Carolina Department of Environmental 
Quality, on behalf of the Council of Infrastructure Financing 
Authorities (CIFA)
    <bullet> LRebecca Hammer, Deputy Director of Federal Water 
Policy, Natural Resources Defense Council

 
 SUSTAINABLE WASTEWATER INFRASTRUCTURE: MEASURES TO PROMOTE RESILIENCY 
                 AND CLIMATE ADAPTATION AND MITIGATION

                              ----------                              


                       WEDNESDAY, APRIL 21, 2021

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
2167 Rayburn House Office Building and via Zoom, Hon. Grace F. 
Napolitano (Chair of the subcommittee) presiding.
    Members present in person: Mr. DeFazio, Mr. Garamendi, Mr. 
Stanton, Ms. Norton, Mr. Kahele, Mr. Rouzer, Dr. Babin, Mr. 
Graves of Louisiana, Mr. Westerman, and Miss Gonzalez-Colon.
    Members present remotely: Mrs. Napolitano, Mr. Huffman, Mr. 
Lowenthal, Mr. Malinowski, Mr. Delgado, Ms. Bourdeaux, Mr. 
Carbajal, Mr. Katko, Mr. LaMalfa, and Mr. Mast.
    Mrs. Napolitano. Good morning. I call this hearing to 
order.
    Today's hearing will focus on sustainable wastewater 
infrastructure and measures to promote resiliency in climate 
adaptation and mitigation.
    Let me begin by asking unanimous consent that the chair be 
authorized to declare a recess at any time during today's 
hearing.
    And without objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    And without objection, so ordered.
    As the chair of today's hearing, I will make a good-faith 
effort to provide every Member experiencing connectivity 
issues--and I just did--an opportunity to participate fully in 
the proceedings. Please let committee staff know as soon as 
possible if you are experiencing connectivity issues or 
technical problems.
    It is the responsibility of each Member seeking recognition 
to unmute their microphone prior to speaking.
    To avoid any inadvertent background noise, I request that 
every Member keep their microphone muted when not seeking 
recognition to speak. Should I hear any inadvertent background 
noise, I will request that the Member please mute their 
microphone.
    And finally, to insert a document into the record, please 
have your staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d09222e38202823393e196b040d202c2421632522383e28632a223b63">[email&#160;protected]</a>
    Now for my statement.
    Today is a good day to do this. We will continue to discuss 
the need to renew the Federal commitment to fund our clean 
water infrastructure challenges.
    In our first subcommittee hearing of this Congress, we 
discussed legislative proposals to close the gap between local 
wastewater and stormwater needs and current levels of Federal 
investment, as well as to ensure these critical investments are 
sufficient to help these communities address local water 
quality challenges.
    The first of these proposals, approved by this committee 
last Congress, and ultimately approved by the House in H.R. 2, 
the Moving Forward Act, would have provided robust funding for 
the Clean Water State Revolving Fund known as SRF, but it 
ultimately stalled in the Senate.
    This Congress I joined with Chairman DeFazio and 
Congressman Fitzpatrick in introducing H.R. 1915, the Water 
Quality Protection and Job Creation Act of 2021, a proposal 
that received unanimous support from the witnesses at our 
February hearing on ``building back better.'' The robust 
funding levels in this bipartisan proposal are critical to 
addressing the $270 billion backlog over the next 20 years, 
according to the U.S. EPA, in wastewater and stormwater 
upgrades identified by States and our communities.
    Similarly, in his American Jobs Plan, President Biden 
further stressed the importance of water and wastewater 
investment, not only for the number of jobs it will create, but 
also for how these investments in safe, efficient, and 
sustainable water infrastructure are critical to the health and 
the well-being of every American.
    So let's be clear: no one who has ever had a sewer backup 
in their community or home, or who has gotten sick from 
swimming in a contaminated river, lake, or beach, or who has 
questioned the safety and/or reliability of the water coming 
out of their faucet would ever say that water infrastructure is 
not infrastructure.
    Tomorrow marks the 51st anniversary of Earth Day that is 
celebrated. In recognition of this anniversary, it is fitting 
we continue to focus on meeting our clean water infrastructure 
needs, but also highlight how the resilient and sustainable 
approaches we utilize to make this investment can both meet the 
goals of the Clean Water Act, but do so in a way that increases 
the overall protection of human health and the health of our 
environment.
    At this moment we are witnessing generational changes in 
how wastewater utilities are meeting the wastewater challenges 
facing our Nation.
    As our witnesses will testify, many communities are leading 
the way in increasing the resiliency and sustainability of the 
wastewater utilities.
    From converting wastes to energy, to reducing greenhouse 
gas emissions of water utilities, to investing in natural and 
nature-based green infrastructure alternatives to relieve 
pressure on existing sewer systems, to recapturing and reusing 
wastewater and stormwater for both the nonpotable and drinking 
water needs of local communities, many utilities are leading by 
example on how to create the so-called utility of the future.
    In fact, some communities have used the need to upgrade 
their wastewater infrastructure as an opportunity to reinvent 
themselves--using wastewater and stormwater practices to 
increase the livability of cities and suburbs, while also 
addressing local water challenges.
    Today's hearing is an opportunity to reveal and explore 
some of these innovative and cost-effective alternatives to 
traditional wastewater infrastructure solutions. We must 
research and invest in these technologies, and share the 
information on development and benefits amongst water agencies 
so that we are not reinventing the wheel.
    Today's hearing also presents us with the opportunity to 
discuss some of the challenges that are preventing wider 
awareness or utilization of these sustainable alternatives to 
address local water quality needs, especially in rural, Tribal, 
and economically disadvantaged communities.
    As I mentioned earlier, we all know that the documented 
wastewater and stormwater needs facing our Nation are great and 
require a renewed and robust Federal commitment to help address 
them. However, the country's urgent wastewater infrastructure 
needs also present a major opportunity to upgrade, modernize, 
and increase the sustainability of the Nation's water-related 
infrastructure.
    Of course, this presents a great challenge, and it is a 
great challenge, of how to both increase the Federal investment 
in wastewater infrastructure, and to make sure that these 
investments maximize the resiliency and sustainability of our 
wastewater utilities.
    I look forward to continuing the discussion here this 
morning, and at this time, I am pleased to yield to my great 
colleague, the ranking member of the subcommittee, Mr. Rouzer, 
for any thoughts he may have.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chair, Subcommittee on Water 
                       Resources and Environment
    Today, we continue to discuss the need to renew the federal 
commitment to fund our clean water infrastructure challenges.
    In our first subcommittee hearing of this Congress, we discussed 
legislative proposals to close the gap between local wastewater and 
stormwater needs and current levels of federal investment, as well as 
to ensure these critical investments are sufficient to help these 
communities address local water quality challenges.
    The first of these proposals, approved by this committee last 
Congress, and ultimate approved by the House in H.R. 2, the Moving 
Forward Act, would have provided a robust funding for the Clean Water 
State Revolving Fund, but ultimately stalled in the Senate.
    This Congress, I joined with Chairman DeFazio, and Congressman 
Fitzpatrick, in introducing H.R. 1915, the Water Quality Protection and 
Job Creation Act of 2021--a proposal that received unanimous support 
from the witnesses at our February hearing on ``Building Back Better.''
    The robust funding levels in this bipartisan proposal are critical 
to addressing the $270 billion backlog over the next 20 years according 
U.S. EPA in wastewater and stormwater upgrades identified by the states 
and our communities.
    Similarly, in his American Jobs Plan, President Biden further 
stressed the importance of water and wastewater investment--not only 
for the number of jobs that it will create, but also for how these 
investments in safe, efficient, and sustainable water infrastructure 
are critical to the health and well-being of everyday Americans.
    Let's be clear--no one who has ever had a sewer backup in their 
community or home; or who has gotten sick from swimming at a 
contaminated river, lake, or beach; or who has questioned the safety or 
reliability of the water coming out of their faucet would ever say that 
water infrastructure is not infrastructure.
    Tomorrow marks the 51st anniversary of Earth Day.
    In recognition of this anniversary, it is fitting that we continue 
to focus on meeting our clean water infrastructure needs, but also 
highlight how the resilient and sustainable approaches we utilize to 
make this investment can both meet the goals of the Clean Water Act, 
but do so in a way that increases the overall protection of human 
health and the health of our environment.
    At this moment, we are witnessing generational changes in how 
wastewater utilities are meeting the wastewater challenges facing our 
nation.
    As our witnesses today will testify, many communities are leading 
the way in increasing the resiliency and sustainability of their 
wastewater utilities.
    From converting wastes to energy to reducing greenhouse gas 
emissions of water utilities, to investing in natural and nature-based, 
green infrastructure alternatives to relieve pressure on existing sewer 
systems, to recapturing and reusing wastewater and stormwater for both 
the non-potable and drinking water needs of local communities, many 
utilities are leading by example on how to create the so-called 
``utility of the future.''
    In fact, some communities have used the need to upgrade their 
wastewater infrastructure as an opportunity to reinvent themselves--
using wastewater and stormwater practices to increase the livability of 
cities and suburbs while also addressing local water challenges.
    Today's hearing is an opportunity to reveal and explore some of 
these innovative and cost-effective alternatives to traditional 
wastewater infrastructure solutions. We must research and invest in 
these technologies and share the information on development and 
benefits amongst water agencies, so that we are not reinventing the 
wheel.
    Today's hearing also presents us with the opportunity to discuss 
some of the challenges that are preventing wider awareness or 
utilization of these sustainable alternatives to address local water 
quality needs, especially in rural, tribal, and economically 
disadvantaged communities.
    As I mentioned earlier, we all know that the documented wastewater 
and stormwater needs facing our nation are great and require a renewed 
and robust federal commitment to help address them.
    However, the country's urgent wastewater infrastructure needs also 
present a major opportunity to upgrade, modernize, and increase the 
sustainability of the nation's water related infrastructure.
    That is our challenge--how to both increase federal investment in 
our wastewater infrastructure, and to make sure that these investments 
maximize the resiliency and sustainability of our wastewater utilities?
    I look forward to continuing that discussion here this morning.

    Mr. Rouzer. Thank you, Chair Napolitano, for holding this 
hearing today. And thank you to our witnesses for being here to 
provide their experiences and thoughts on actions designed to 
encourage greater resiliency and sustainability of wastewater 
utilities. Specifically, we will hear how these can help in 
meeting the requirements of the Clean Water Act.
    In particular, I would like to thank Mr. Kim Colson, 
director of the Division of Water Infrastructure in my home 
State, at the North Carolina Department of Environmental 
Quality. Mr. Colson is also the current president of the 
Council of Infrastructure Financing Authorities, so he is in a 
great position to provide insight on the needs of communities, 
not just from the State of North Carolina, but for the country.
    In February----
    Mrs. Napolitano. Mr. DeFazio is on?
    Mr. Rouzer. In February we held a hearing on the broader 
topic of replacing and updating our Nation's wastewater 
infrastructure. Today we are going to get a little more 
specific, and look at the energy challenges facing wastewater 
infrastructure.
    It certainly makes sense for wastewater utilities to want 
to be as efficient and resilient as possible. According to the 
EPA, for many municipalities, drinking water and wastewater 
facilities are their largest users of energy, often consuming 
30 to 40 percent of their energy totals.
    EPA also notes that drinking water and wastewater 
operations account for 2 percent of the country's overall 
energy use. And it is fairly easy to see why. These facilities 
often use very large machinery, including pumps, drives, 
motors, and other equipment which operate 24 hours a day. 
Additionally, many facilities were designed and built in an era 
when energy costs were not as big a concern.
    So clearly, it makes sense to discuss energy use at these 
facilities. EPA has noted that if municipalities incorporate 
energy efficiency practices into their water and wastewater 
plants, utilities can save 15 to 30 percent.
    But you also have to consider the opportunity cost, 
especially for small municipalities. An important part of 
today's hearing is learning more about why a utility may not 
have an incentive to implement such measures.
    In addition to wastewater utility energy use, we are also 
going to hear about resiliency and mitigation of natural 
disasters. As municipalities grapple with hurricanes, flooding, 
earthquakes, and other disasters, we need to think about this.
    Today we are going to hear a lot about green 
infrastructure, referring to measures that use plant or soil 
systems or permeable surfaces to manage wet weather impacts. 
Under current Federal law, all Clean Water State Revolving Fund 
programs must use a portion of their Federal grant for projects 
that address green infrastructure, water and energy efficiency, 
or other environmental activities.
    While these practices and technologies may very well 
benefit some communities, it is essential that these programs 
do not take a one-size-fits-all approach. Some communities, 
especially small and rural communities, may not have the means 
or the need to utilize these specific practices in their 
communities. Small and rural communities often have difficulty 
using the green infrastructure reserve and identifying projects 
in this category that can be successfully implemented in their 
communities. For example, while permeable pavement and other 
surfaces may be important to combat stormwater runoff in a 
large city, is it really the best use of funding for a 
community of the few thousand?
    Now, this is not necessarily suggestive of an opinion, but 
just a question, I think, that needs to be answered. I also 
look forward to hearing more about these issues from our panel 
of experts here today.
    Madam Chair, I yield back.
    [Mr. Rouzer's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. David Rouzer, a Representative in Congress 
 from the State of North Carolina, and Ranking Member, Subcommittee on 
                    Water Resources and Environment
    Thank you, Chair Napolitano, for holding this hearing, and thank 
you to our witnesses for being here today to provide your experiences 
and thoughts on actions designed to encourage greater resiliency and 
sustainability of wastewater utilities. Specifically, we'll hear how 
these can help in meeting the requirements of the Clean Water Act.
    In particular, I'd like to thank Mr. Kim H. Colson, Director of the 
Division of Water Infrastructure at the North Carolina Department of 
Environmental Quality. Mr. Colson is also the current President of the 
Council of Infrastructure Financing Authorities (CIFA), so he is in a 
great position to provide insight on the needs of communities, not just 
from the State of North Carolina, but also for the country. Thank you 
for taking the time to appear here and provide your expertise today.
    In February, we held a hearing on the broader topic of replacing 
and updating our Nation's wastewater infrastructure. Today we're going 
to get a little more specific and look at the energy challenges facing 
wastewater infrastructure.
    It certainly makes sense for wastewater utilities to want to be as 
efficient and resilient as possible. According to the Environmental 
Protection Agency, for many municipalities, drinking water and 
wastewater facilities are their largest users of energy, often 
consuming 30 to 40 percent of their energy totals. EPA also notes that 
drinking water and wastewater operations account for two percent of the 
country's overall energy use. It is fairly easy to see why.
    These facilities often use very large machinery, including pumps, 
drives, motors, and other equipment which operate 24 hours a day. 
Additionally, many facilities were designed and built in an era when 
energy costs were not a major concern. So, clearly it makes sense to 
discuss energy use at these facilities.
    EPA has noted that if municipalities incorporate energy efficiency 
practices into their water and wastewater plants, utilities can save 15 
to 30 percent. But you also have to consider the opportunity cost--
especially for small municipalities. An important part of today's 
hearing is learning more about why a utility may not implement such 
measures.
    In addition to wastewater utility energy use, we are also going to 
hear about resiliency and mitigation of natural disasters. As 
municipalities grapple with facing hurricanes, flooding, earthquakes, 
and other disasters, we need to think about this.
    Today we are going to hear a lot about ``green infrastructure,'' 
referring to measures that use plant or soil systems, or permeable 
surfaces, to manage wet weather impacts. Under current federal law, all 
Clean Water State Revolving Fund (CWSRF) programs must use a portion of 
their federal grant for projects that address green infrastructure, 
water and energy efficiency, or other environmental activities.
    While these practices and technologies may benefit some 
communities, it is essential these programs do not take a ``one-size-
fits-all'' approach. Some communities, especially small and rural 
communities, may not have the means or the need to utilize these 
practices in their communities.
    Small and rural communities often have difficulty using the green 
infrastructure reserve and identifying projects in this category that 
can be successfully implemented in their communities. For example, 
while permeable pavement and other surfaces may be important to combat 
stormwater runoff in a large city, is it really the best use of funding 
for a community of a few thousand?
    I look forward to hearing more about these issues from our panel of 
experts here today.

    Mrs. Napolitano. Thank you, Mr. Rouzer. At this time I am 
pleased to yield to our wonderful chairman of the full 
committee, Mr. DeFazio, for any thoughts he may have.
    Mr. DeFazio. Thanks, Chair Napolitano, and thanks for 
holding this hearing. It is particularly auspicious that we are 
here the day before Earth Day to discuss the sustainability of 
the Nation's wastewater infrastructure.
    I remember when the Willamette River in Oregon was an open 
sewer. It is now a source of drinking water, and it is a 
fabulous recreational amenity. And we are finally opening up my 
largest city down to the river with a fabulous new waterfront 
park, which will be heavily utilized. But in the old days, you 
wouldn't have wanted to go down there.
    Other parts of the country have a long way to go, but they 
have made some progress. In DC, they used to have signs saying 
if you made contact with the water or fell into the water, you 
needed to go to the hospital. It is not so bad today, but it is 
still nowhere near where it needs to be, or wants to be to turn 
the Potomac and the Anacostia into similarly fabulous 
recreational opportunities for the community, and fishing, and 
other things.
    We have documented the needs through the EPA, $270 billion 
over the next 20 years to bring the Nation's wastewater systems 
up to a state of good repair, and adequate resilience to deal 
with future events. That is $14 billion per year, 
approximately.
    And obviously, there is a question of can local communities 
do this on their own, and the answer is no. The Federal 
Government used to be a good partner. When I was a county 
commissioner, we got a 75-percent Federal match because 
polluted water does not observe either city, State, county, or 
even international boundaries. So it is a problem that needs to 
be dealt with, with a national strategy.
    And as the ranking member pointed out, some of the 
ambitious programs to clean the water are burdens on small 
communities, and we need to partner with those communities and 
help them to meet these challenges. Last year, the 
appropriators, they put into the Clean Water SRF $1.6 billion. 
That would be somewhere around 10 percent, 12 percent of the 
annual need. So we are nowhere near where we need to be.
    We held the hearing in February, where we documented the 
fact that many local communities can't do this--again, 
especially small, rural, economically disadvantaged. They just 
don't have revenues. They don't have a sufficient number of 
ratepayers to bear the costs and the burdens. So if we remain 
committed, then the only way we can get there is with a new, 
robust Federal commitment to cleaning up our wastewater.
    And at the same time as we do it, we have great 
opportunities to transform and modernize. We had testimony in 
the last Congress, in January or February, from a wastewater 
district in New Jersey that had to rebuild their system. 
Electricity is really expensive in New Jersey. They are 
capturing their methane--a horrendous greenhouse gas, way worse 
than CO2--to generate electricity, to run the plant, saving 
them a tremendous amount of money, and selling energy onto the 
grid.
    So how about that? We are dealing with climate change, a 
horrible pollutant, methane. We are lowering costs for 
ratepayers. That seems like a win-win-win for everybody. And 
that is something that we should look at replicating as these 
systems are rebuilt.
    Right now the EPA and the Department of Energy have shown 
that treatment of drinking water and wastewater is about 4 
percent of our Nation's energy use. That is about $4 billion, 
an average cost across the country. It results in 45 million 
tons of greenhouse gases, that is 10 million cars a year.
    And there is way more methane in the wastewater and 
escaping from the wastewater than we need for the treatment, 
and as I said, it could be trapped, and could become a 
generation for electricity, and reduce the destructiveness of 
the methane in the atmosphere. The EPA estimates that doing 
actions like this could save 10 to 40 percent of operating 
costs for utilities around the country.
    The other issue is, of course, the resilience of these 
facilities. Severe weather events, floods, overtopping 
submerging systems, sea level rise, challenging systems in 
coastal areas. In 2020, the U.S. Government Accountability 
Office studied the resiliency of water and wastewater 
utilities, and one of their recommendations to us, to Congress, 
was that we should consider requiring that climate resilience 
be considered in the planning for any federally funded 
wastewater or water infrastructure projects.
    We don't want to pour money into outdated, inefficient 
infrastructure, infrastructure that is not going to meet the 
challenges of the future. Instead, we need, as we do in surface 
transportation, we need to begin to build out a 21st-century 
wastewater/drinking water infrastructure to better meet the 
needs and the health of the American people and the economy.
    With that, I yield back the balance of my time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Tomorrow is Earth Day, so it is fitting we are here to discuss 
innovative ways to address the resiliency and sustainability of our 
nation's wastewater infrastructure.
    Today, we will continue to discuss the importance of robust 
investment in our nation's wastewater infrastructure, which, like so 
much of our nation's infrastructure, is in serious need of 
modernization. Specifically, today's hearing is an opportunity to 
explore in more depth some of the issues raised at our February hearing 
on the nation's clean water needs.
    At that hearing, we underscored the consequences to everyday 
Americans from Congress's failure to invest in our water-related 
infrastructure systems.
    As already noted, according to the most recent Environmental 
Protection Agency (EPA) Clean Water Needs Survey, states and 
communities have documented wastewater infrastructure needs of over 
$270 billion over the next 20 years--which means that local communities 
have already identified over $14 billion in specific wastewater 
infrastructure projects that need to be carried out every year for the 
next 20 years.
    Yet, the last annual federal appropriation for the Clean Water SRF 
program was a fraction of that--about $1.6 billion in fiscal year 2021.
    We simply are not meeting our nation's wastewater infrastructure 
needs when we provide just a little more than 10 percent of the federal 
funds necessary to close the identified infrastructure gap.
    We also learned at our Subcommittee hearing in February that local 
communities simply cannot address their wastewater infrastructure 
challenges on their own.
    Too many communities, especially those that are small, rural, and 
economically disadvantaged, simply do not have the revenues and 
ratepayers to address these needs alone.
    So, if we remain committed to cleaning up our nation's rivers, 
lakes, and streams, and if we remain committed to protecting human 
health and the environment, the only way we can get there is through 
renewing a robust federal commitment to addressing our wastewater 
infrastructure needs.
    Yet, in the same way we are trying to transform and modernize our 
nation's highway system and move it out of the Eisenhower era, we have 
an equal opportunity to transform the way we invest in our nation's 
wastewater infrastructure network.
    Both EPA and the U.S. Department of Energy have shown that 
approximately 3 to 4 percent of the nation's energy use is consumed by 
drinking and wastewater treatment facilities. This energy use is 
equivalent to 56 billion kilowatts annually--costing roughly $4 
billion--and results in annual emissions of more than 45 million tons 
of greenhouse gasses. That's the equivalent of about 10 million cars 
driven for a year.
    Similarly, the Department of Energy estimates that wastewater 
contains roughly five times more energy than is needed for its 
treatment in terms of untapped thermal energy. Many utilities, 
including some of the witnesses here today, have demonstrated the 
potential to reclaim this untapped energy and reduce their overall 
energy costs as well as releases of greenhouse gasses.
    EPA has also estimated that, by incorporating energy efficiency 
practices into water and wastewater utilities, municipalities can save 
between 15 to 40 percent on their operating costs, saving thousands of 
dollars and potentially paying for energy efficiency upgrades solely 
through cost savings in a matter of months to a few years.
    Finally, a growing concern for many utilities is the resiliency of 
water and wastewater utilities to extreme weather events and the 
challenges posed by climate change. In 2020, the U.S. Government 
Accountability Office (GAO) completed a study of the resiliency of 
water and wastewater utilities to climate change and recommended that, 
among other things, Congress should consider requiring that climate 
resilience be considered in the planning for federally funded water 
infrastructure projects.
    As this committee considers legislation to reinvest in our nation's 
infrastructure, including our wastewater infrastructure, it is critical 
that these investments maximize the sustainability of our 
infrastructure.
    It is foolish to keep pouring taxpayer dollars into outdated, 
inefficient infrastructure. Instead, we need to meet the climate 
challenge head-on by reducing emissions and building more resilient 
infrastructure.
    We have an administration that wants to do just that--and put 
people to work at the same time--by enacting a large infrastructure 
package. In his American Jobs Plan, President Biden lays out an 
ambitious plan that create jobs and prioritizes investment in water and 
wastewater infrastructure.
    Given the opportunity, we should not only direct investment toward 
getting our infrastructure into a state of good repair, but we should 
also focus on preparing our infrastructure for the next generation of 
challenges.
    Thank you, Madam Chair, for holding today's hearing. I look forward 
to hearing from the witnesses.

    Mrs. Napolitano. Thank you, Mr. Chairman.
    I will now ask unanimous consent to add the testimony for 
the record from American Rivers.
    And without objection, so ordered.
    [The information follows:]

                                 <F-dash>
 Statement of Gary Belan, Senior Director, Clean Water Supply Program, 
 American Rivers, Submitted for the Record by Hon. Grace F. Napolitano
    On behalf of American Rivers' 300,000 members and supporters, thank 
you for holding the hearing Sustainable Wastewater Infrastructure: 
Measures to Promote Resiliency and Climate Adaptation and Mitigation. 
American Rivers applauds the Committee for spotlighting the need for 
more federal infrastructure investment to stimulate the economy and 
meet clean water needs and requests that this written testimony be 
included in the official hearing record.
    This moment in time offers a unique opportunity for Congress to put 
forth a new vision for water. The historic weather extremes we have 
experienced over the past two years, the pandemic and resulting 
economic challenges, have highlighted the importance clean water plays 
in our society and how critical it is that we invest in smart water 
infrastructure. The State Revolving Fund is one of the primary vehicles 
the federal government uses to support state water infrastructure, and 
when fully funded, it has historically helped to maintain water 
infrastructure. However, the Clean Water and Drinking Water SRF 
programs, as currently structured, are not accomplishing the large-
scale improvements needed in water infrastructure to meet the twin 
challenges of climate change and economic and racial inequality. Large 
cities do not typically use the SRF programs, because they can more 
easily use the private bond market. When they do, they can monopolize 
the funds as they have more resources to develop proposals and work 
within the SRF application systems. Small communities do not have the 
capacity to take on a loan or they do not have the staff capacity to 
even apply. Huge deficiencies in water infrastructure needs remain in 
communities across the country, the result of a historic lack of 
investment. Furthermore, natural infrastructure needs to be a core 
component of any infrastructure plan moving forward to help communities 
more quickly adapt to increasingly intense and regular weather 
extremes. The Clean Water and Drinking Water SRF programs continue to 
serve a vital purpose in supporting clean water infrastructure, and as 
such, the need to be fully funded and updated so that they can more 
effectively address these challenges.
    We urge the Committee, and Congress as a whole, to direct more 
funding to both the Clean Water and Drinking Water State Revolving 
Funds, ensure that the Clean Water SRF incentivizes natural 
infrastructure practices, and both provide more options for communities 
with fewer resources to access SRF funds as grants. Climate change is 
impacting our water systems more significantly than ever and having up-
to-date water infrastructure with natural infrastructure components are 
our best change at adapting to this new normal. Specifically, our 
recommendations are:
    1.  Support $10 Billion for the Clean Water State Revolving Fund 
and $10 Billion for the Drinking Water State Revolving Fund over the 
next five years, in order to ensure water infrastructure is repaired 
and maintained.
    2.  Require climate resilience be incorporated into the planning of 
all drinking and wastewater projects that receive federal financial 
assistance/support, including both SRF programs.
    3.  The green project reserve portion of the Clean Water SRF 
program should be increased to 20%, and water management strategies, 
like green infrastructure, should be given higher priority than energy 
efficiency measures.
    4.  Fund a national study to identify how broadly Clean Water SRF 
funds are being distributed to low-income communities and communities 
of color and how effective SRF funds have been at providing low-income 
communities needed clean water infrastructure.
    5.  Congress should change the Clean Water and Drinking Water SRF 
subsidization caps, and base it on a 10-year rolling average of state 
SRF contributions, instead of its current requirement of 30% of EPA's 
annual capitalization grant. This would increase the ability of cities 
with need to subsidize projects beyond the 30% cap while continuing to 
maintain a reasonable limit on subsidization to maintain the revolving 
fund nature of the SRF program.
     U.S. Water Infrastructure is Crumbling . . . and So is Funding
    As the Committee is well aware, America's water infrastructure is 
at a crisis point. According to the American Society of Civil Engineers 
Report Card on America's Infrastructure, wastewater systems now receive 
a grade of D+ while stormwater infrastructure receives a D.\1\ The 
nation's more than 16,000 wastewater treatment plants are steadily 
reaching their design capacities, while 15% have already reached or 
exceeded it.\2\ With growing urban environments and populations, the 
number of wastewater treatment plants at or beyond capacity will 
steadily increase. Meanwhile, the impervious pavement and hard surfaces 
that cause stormwater pollution and flooding continue to grow. Between 
1982 and 1997, urbanized land increased by 47 percent, while the 
nation's population grew by only 17 percent.\3\ While sprawl growth 
appears to have slowed somewhat since 2000, it still appears to be 
growing.\4\ This continued spread of pavement and hard surfaces 
continues to create billions of gallons of stormwater water, which not 
only causes its own pollution, but often causes sewer overflows as 
well.
---------------------------------------------------------------------------
    \1\ American Society of Civil Engineers, Report Card for America's 
Infrastructure, accessed online Apr 8, 2021 https://
infrastructurereportcard.org/
    \2\ ibid
    \3\ Fulton, William, Rolf Penall, May Nguen, and Alicia Harrison. 
The Brookings Institution, Center on Urban and Metropolitan Policy, Who 
Sprawls Most? How Growth Patterns Differ Across the U.S. July 2001
    \4\ Barringtin-Leigh, Christopher and Adam Millard-Ball, 
Proceedings of the National Academy of Sciences. A century of sprawl in 
the United States. July 7, 2015 https://www.pnas.org/content/112/27/
8244
---------------------------------------------------------------------------
    At the same time, we continue to lose crucial elements of our 
natural clean water system--headwaters streams, wetlands, forests, and 
natural floodplains. Climate change is already making the problem 
worse, and scientists predict more frequent and severe droughts and 
floods as the planet warms.
    Since 2002, federal clean water funding has declined significantly, 
leaving states and local governments to fill the gap. In 2005 states 
and municipalities spent $82 billion on sewers and drinking water.\5\ 
By 2019, local governments invested a record $125.5 billion in public 
water and sewer infrastructure, resulting in local governments being 
responsible for 95-98% of total water and sewer infrastructure 
spending.\6\
---------------------------------------------------------------------------
    \5\ Anderson, Richard, U.S. Conference of Mayors, Local Government 
Investment in Water and Sewer, 2000-2015. Accessed April 8. 2021 
https://bit.ly/2QaKNjy
    \6\ Durr, Sara, The United States Council of Mayors, Local 
Government Makes Record-High Investments in Public Water & Sewer 
Infrastructure. November 26, 2019 Accessed April 14, 2021 https://
bit.ly/3djPC2V
---------------------------------------------------------------------------
    The pandemic and the resultant economic challenges have 
significantly impacted local investment in water infrastructure. The 
American Water Works Association (AWWA) and the Association of 
Metropolitan Water Agencies (AMWA) estimate that drinking water 
utilities will experience a negative financial impact of $13.9 
billion--or 16.9 percent--by 2021, due to revenue losses and increased 
costs as a result of the pandemic.\7\ The National Association of Clean 
Water Agencies (NACWA) estimates the financial declines for wastewater 
utilities will be approximately $16.8 billion, including a 20 percent 
drop in sewer revenues.\8\
---------------------------------------------------------------------------
    \7\ American Water Works Association (AWWA) and Association of 
Metropolitan Water Agencies(AMWA), The Financial Impact of the COVID-19 
Crisis on U.S. Drinking Water Utilities (AWWA, April 14, 2020), https:/
/www.awwa.org/Portals/0/AWWA/Communications/AWWA-AMWA-COVIDReport_2020-
04.pdf.
    \8\ National Association of Clean Water Agencies (NACWA), 
Recovering from Coronavirus (NACWA), https://www.nacwa.org/docs/
default-source/resources---public/water-sector-covid-19-financial-
impacts.pdf?sfvrsn=98f9ff61_2
---------------------------------------------------------------------------
    Local funding is the primary revenue source for clean water 
infrastructure, and if it experiences a decline, it is likely we will 
see a resulting increase in water quality problems. Even before the 
pandemic we needed a national commitment to clean water 
infrastructure--the pandemic only exposed the need is greater and more 
urgent.
                 The Benefits of Natural Infrastructure
    Not only is more funding for water infrastructure needed, the 
funding needs to be directed towards more adaptable natural 
infrastructure. Natural infrastructure refers to a variety of practices 
that protect, restore, or mimic natural water systems. Examples include 
restoring or increasing urban trees to soak up and clean polluted 
stormwater and prevent flooding or protecting source water streams that 
provide drinking water to our communities. These climate resilient 
natural solutions efficiently safeguard and manage water in ways that 
improve quality of life--all at lower cost than traditional ``gray'' 
infrastructure.
    Climate change has rapidly changed traditional precipitation 
patterns and is causing wide volatility. The National Climate 
Assessment, a federally supported and expert reviewed summarization of 
climate impacts in the United States, indicates that weather patterns 
are moving to more extremes across the country.\9\ Since 1991, 
rainstorms have been increasingly more intense and have regularly been 
significantly above average. This increase in intensity has been 
greatest in the Northeast, Midwest, and upper Great Plains, where they 
are more than 30% above their mid-century average. Flood events have 
increased in the Midwest and Northeast where the most significant 
increases in rain amounts and intensity have occurred.\10\ As climate 
change reduces snow packs and increases droughts, reservoirs as large 
as Lake Mead, the drinking water source for 30 million Americans, are 
drying up.\11\ Building more dams, as Atlanta and many other metro 
areas are proposing, won't work unless it rains (in the right place), 
and won't address unsustainable water use. More severe storms are 
already increasing sewer overflows and flooding, and it is not 
physically or fiscally possible to enlarge underground stormwater 
tunnels enough to hold it all. Experts predict that these extreme 
hydrologic swings will only increase with global warming.\12\
---------------------------------------------------------------------------
    \9\ National Climate Assessment, Precipitation Change. Accessed on 
April 9, 2021 https://nca2014.globalchange.gov/report/our-changing-
climate/precipitation-change#intro-section-2
    \10\ National Climate Assessment, Heavy Downpours Increasing. 
Accessed on April 9, 2021 https://nca2014.globalchange.gov/report/our-
changing-climate/heavy-downpours-increasing
    \11\ James, Ian, The pie keeps shrinking: Lake Meads low level will 
trigger water cutbacks for Arizona, Nevada. AZCentral.com, Aug 15, 2020 
https://bit.ly/3255oIG
    \12\ Kundzewicz, Z.W et al. ``Freshwater Resources and Their 
Management.'' Climate Change 2007: Impacts, Adaptation and 
Vulnerability. Contribution of Working Group II to the Fourth 
Assessment Report of the Intergovernmental Panel on Climate Change, 
M.L. Parry et al. Eds., Cambridge: Cambridge University Press, 2007. 
173-210.
---------------------------------------------------------------------------
    To address these problems, we need more than just increased 
investment in water infrastructure; we need investment in natural 
infrastructure and we need it in the communities that have historically 
been left out of water infrastructure investments. Tackling America's 
water infrastructure needs presents us with a unique opportunity to 
grow the economy and foster positive transformation in our communities. 
The solution is equitable investment and encouraged implementation of 
natural infrastructure. While investments in traditional or ``gray'', 
infrastructure will be essential moving forward, natural infrastructure 
is a critical complement to protecting our drinking water and reducing 
sewer overflows, polluted stormwater, and community flooding.\13\
---------------------------------------------------------------------------
    \13\ American Rivers, Naturally Stronger March 19, 2017 https://
medium.com/naturally-stronger
---------------------------------------------------------------------------
    Gray water infrastructure that depends on pipes and treatment 
facilities to move stormwater, wastewater, and drinking water from one 
place to another can be affordably improved by investing in natural 
infrastructure. By protecting or mimicking natural water systems, we 
eliminate some of the strain on traditional infrastructure. For 
example, wetlands located in areas upstream of communities naturally 
absorb and hold floodwater; rain gardens in urban areas provide a 
similar function. These systems, which are cheaper to build than 
concrete pipes or holding ponds, retain and infiltrate water into the 
soil and take the burden off the existing piped water system.
    We cannot eliminate engineered systems, such as pipes, treatment 
plants, and levees. Nor should we. They are important elements of our 
clean water system, and many are in desperate need of repair or 
replacement. But relying on fixed engineering solutions alone will not 
solve our future needs. Instead, we should optimize the mix of green 
infrastructure as a ``first line of defense'' complemented with state-
of-the-art engineered technology.
    To facilitate the use of natural infrastructure, climate resilience 
and risk should be considered and incorporated into projects that 
received federal financial assistance and funds. According to the GAO, 
such a federal requirement could influence the consideration of future 
climate risks industry practice within the drinking water and 
wastewater sector.\14\ Furthermore, the GAO also found that 
incorporating climate resiliency into drinking water and wastewater 
projects would likely reduce future fiscal expenditures of the federal 
government and help enhance the resiliency of drinking water and 
wastewater infrastructure.\15\
---------------------------------------------------------------------------
    \14\ GAO, Water Infrastructure: Technical Assistance and Climate 
Resilience Planning Could Help Utilities Prepare for Potential Climate 
Change Impacts, January 2020, https://www.gao.gov/assets/gao-20-24.pdf
    \15\ ibid
---------------------------------------------------------------------------
    Natural infrastructure strategies are an essential component to 
climate resiliency plans and are a valuable practice in the management 
of flood risks, build resiliency to drought, reduce urban heat island 
effects, reduce the energy needed for water treatment, amongst many 
other benefits.\16\ By requiring climate resilience and risk assessment 
be incorporated into federally supported infrastructure projects, 
including through the SRF program, risks to and future costs of water 
management can be reduced.
---------------------------------------------------------------------------
    \16\ EPA, Green Infrastructure and Climate Change: Collaborating to 
Improve Community Resiliency August 2016, https://bit.ly/3d6cH9o
---------------------------------------------------------------------------
             State Revolving Fund and Green Project Reserve
    Funding for natural infrastructure has been built into the Clean 
Water State Revolving Fund program since 2009, when it was incorporated 
into the program as part of the American Recovery and Reinvestment Act 
of 2009. That bill appropriated $4 billion to the Clean Water SRF 
program with the requirement that ``to the extent there are sufficient 
eligible project applications, not less than 20 percent of the funds 
appropriated herein for the Revolving Funds shall be for projects to 
address green infrastructure, water or energy efficiency improvements 
or other environmentally innovative activities'' \17\ At that time the 
20 percent set-aside, also referred to as the Green Project Reserve 
(GPR), was groundbreaking because it represented the first step in a 
much needed shift toward incentivizing more flexible, natural 
infrastructure solutions.
---------------------------------------------------------------------------
    \17\ United States Congress (February 17, 2009). American Recovery 
and Reinvestment Act, Public Law 111-5. Viewed April 11, 2021 http://
www.gpo.gov/fdsys/pkg/PLAW-111publ5/pdf/PLAW-111publ5.pdf
---------------------------------------------------------------------------
    The Green Project Reserve has been a very successful program since 
its inception. Shortly after it was created, the 20 percent requirement 
was met by all 50 states, and 47 of them, including Puerto Rico, funded 
beyond the 20 percent requirement. These funds in turn generated 
thousands of jobs and other economic and environmental benefits.\18\ 
The resulting increase of projects was a result of states using the GPR 
as an opportunity to reach out to new Clean Water SRF applicants and 
fund new types of projects. The existence of the GPR encouraged many 
states to evaluate traditional projects and successfully identify 
existing natural infrastructure practices or opportunities to add 
natural infrastructure practices to traditional projects.\19\ As a 
result, the EPA estimates that on average each green infrastructure 
project funded through the program reduces stormwater runoff by 22 
million gallons and each water efficiency project is estimated to save 
over 200 million gallons per year.\20\
---------------------------------------------------------------------------
    \18\ US EPA, ARRA Clean Water State Revolving Fund, Green Project 
Reserve Report, June 2012. https://www.epa.gov/sites/production/files/
2015-04/documents/arra_green_project_
reserve_report.pdf
    \19\ ibid
    \20\ US EPA, Estimated Environmental Benefits Associated with ARRA-
Funded Green Project Reserve Projects. November 22, 2011. https://
bit.ly/2Rwbm3r
---------------------------------------------------------------------------
    However, there are areas that continue to need improvement. Funding 
from the GPR tends to lean heavily towards energy efficiency programs. 
After its initial implementation, GPR funding consisted of 
approximately 38 percent energy efficiency projects compared to 18 
percent natural infrastructure projects.\21\ While energy efficiency is 
a critical environmental goal and there is a strong water-energy nexus, 
in many cases, it is not clear what direct water quality benefits, if 
any, were realized through these projects. We urge that federal clean 
water funds from the GPR not be used for basic energy efficiency 
purposes, so additional funds are utilized for natural infrastructure 
projects.
---------------------------------------------------------------------------
    \21\ American Rivers, Putting Green to Work: Economic Recovery 
Investments for Clean and Reliable Water, 2009 Viewed April 15, 2021 
https://www.epa.gov/sites/production/files/2021-02/documents/us20.pdf
---------------------------------------------------------------------------
    One reason natural infrastructure may be funded at lower levels may 
be because revenue streams to repay Clean Water SRF loans for natural 
infrastructure projects are not as readily available. Natural 
infrastructure is often used to supplement stormwater management, which 
typically does not have dedicated municipal funding, like the fee 
systems wastewater treatment plants have. Increasing subsidization or 
grant programs for natural infrastructure under the GPR, or 
establishing alternated loan payback requirements for them, are 
possible solutions.
    The success of the Clean Water SRF Green Project Reserve over the 
years demonstrates its continued importance to the advancement of 
natural infrastructure, and it should not only continue to be funded, 
but increased to 20 percent.
            State Revolving Fund and low-income communities
    The State Revolving Fund programs play a crucial role ensuring 
water infrastructure in mid to small sized cities. The EPA estimates 
that between 1997 and 2018 approximately 35 percent of Drinking Water 
SRF funds were utilized by cities with a population of 10,000 or 
less.\22\ In 2020, approximately 20 percent of Clean Water SRF funds 
were utilized by cities of 10,000 or less.\23\ However, there are 
several challenges to paying for infrastructure in smaller to midsize 
cities, particularly ones that are experiencing a population decline. 
According to the GAO, midsize cities (populations from 50,000 to 
99,999) cities with declining population had a higher poverty and 
unemployment rate and lower median income than cities with growing 
populations.\24\ The GAO found that cities in this position have paid 
for water infrastructure needs through rate increases and have tried to 
set up customer assistance programs for those who can't afford the rate 
increases.
---------------------------------------------------------------------------
    \22\ EPA, Drinking Water State Revolving Fund 2018 Annual Report. 
EPA 816-R-19-009, July 2019. Viewed April 15, 2019 https://bit.ly/
32hZ1BR
    \23\ EPA, Clean Water SRF Program Information National Summary, 
1997-2020.
    \24\ GAO, Water Infrastructure: Information on Selected Midsize and 
Large Cities with Declining Populations, GAO-16-785, September 2016. 
https://www.gao.gov/assets/gao-16-785.pdf
---------------------------------------------------------------------------
    In some of these cases, the cities even used vacant land for 
natural infrastructure.\25\ Cities in this situation are able to use 
the Clean Water and Drinking Water SRF programs to provide additional 
subsidies for water infrastructure needs, however there are limits to 
this approach, as funds often still require repayment. Furthermore, 
there is evidence that SRF funds are not equitably distributed across 
communities.\26\ Several factors exist for why small or low-income 
communities are less likely to receive federal funding for water and 
wastewater infrastructure: communities with limited technical and 
financial capability find it difficult to apply for funds (even when 
funds are designated for such places); smaller and lower-income 
communities face higher financial risk when securing loans of any type; 
and states may be hesitant to make investments in communities they 
think may compromise the viability of the SRF programs.\27\ \28\
---------------------------------------------------------------------------
    \25\ ibid
    \26\ Balazs, Carolina and Isha Ray, The Drinking Water Disparities 
Framework: On the Origins and Persistence of Inequities in Exposure, 
April 2014. https://www.ncbi.nlm.nih.gov/pmc/articles/PMC4025716/
    \27\ Hansen, Katy, Environmental Policy Innovation Center, Are SRF 
Allocation across communities equitable? Viewed April 12, 2021 http://
policyinnovation.org/are-srfs-equitably-allocated-across-communities
    \28\ Daley, Dorothy, Megan Mulling, Meghan Rubado, State Agency 
Discretion in a Delegated Federal Program: Evidence from Drinking Water 
Investment. Publius: The Journal of Federalism, Volume 44, Issue 4, 
Fall 2014, pgs 564-586. Published August 31, 2013
---------------------------------------------------------------------------
    While some of these factors have been identified, research has 
primarily focused on the Drinking Water SRF. Little analysis has been 
done on the Clean Water SRF to determine how equitable fund 
distribution and project implementation is across communities within 
cities that use these funds. This is largely due to the differences 
between drinking water and wastewater utility structures. Therefore, 
more research is needed to better identify how Clean Water SRF funds 
are being distributed, how and if they are impacting low-income 
communities, and how the program can be improved to ensure funds are 
better making it to communities with water infrastructure needs.
                     SRF and subsidized assistance
    In both the case of natural infrastructure and low-income 
communities, Drinking Water and Clean Water SRF funds are being 
utilized, but not to the extent that the funds are needed or available. 
Current federal law places a 30 percent cap on subsidization.\29\ This 
cap was originally put in place to restrict states from giving away too 
much funding in the early years of the program. This would have 
undermined the sustainability of the SRF programs in their early 
years.\30\ However, now that the SRF programs have been in place for 
over twenty years and are currently well capitalized, the cap as 
currently constructed is making it more difficult for natural 
infrastructure projects to be constructed and for lower-income 
communities to access funds. Instead of the 30 percent cap, states 
should instead have a subsidization cap based on the amount of funding 
they are contributing beyond their 20 percent annual match. Under 
current law, if a state wishes to provide a higher level of subsidized 
assistance than allowable, they have to create a separate state-
financed water infrastructure program.\31\
---------------------------------------------------------------------------
    \29\ United States Congress (June 10, 2014). Water Resources Reform 
and Development Act of 2014, Public Law 113-121. Pg 133 Viewed April 
12, 2021 https://www.govinfo.gov/content/pkg/PLAW-113publ121/pdf/PLAW-
113publ121.pdf
    \30\ NRDC, Go Back to the Well: States and the Federal Government 
are Neglecting a Key Funding Source for Water Infrastructure. IP:18-04-
A, May 2018. Viewed April 9, 2021 https://www.nrdc.org/sites/default/
files/state-revolving-fund-water-infrastructure-ip.pdf
    \31\ ibid
---------------------------------------------------------------------------
    There is an increasing need for access to water infrastructure 
financing for natural infrastructure and low-income communities, and 
the current grant programs available, while helpful, are insufficient 
for the need. The SRF program is an important and valuable addition to 
the sources of funding for natural water infrastructure and must 
continue to be improved to keep up with the need and circumstances of 
our time. The subsidization cap is still important to ensure the 
continued long-term viability of the SRF, particularly with the 
continued need for long-term water infrastructure funding. However, 
this cap may be inhibiting state efforts to fully deploy their SRF 
funds and restricting the ability to fully fund the need for natural 
infrastructure and reducing the impact for communities in most 
need.\32\
---------------------------------------------------------------------------
    \32\ ibid
---------------------------------------------------------------------------
    Congress should change the way the cap on subsidized assistance is 
calculated for states that regularly invest their SRF's. The cap should 
be based on a 10-year rolling average of state SRF contributions, 
instead of a set percentage based on annual federal funding. Doing this 
would assist states that are expanding their SRF programs, increasing 
their ability to provide subsidization, while still ensuring that the 
SRF remains sustainable into the future. Based on current state 
contributions and calculating the subsidized assistance cap based on a 
10-year average would allow at least 20 states the ability to 
distribute significantly more funding as subsidized.\33\
---------------------------------------------------------------------------
    \33\ ibid
---------------------------------------------------------------------------
                               Conclusion
    This moment in time offers a unique opportunity for Congress to put 
forth a new vision for water. In much the same way that we need to 
invest in energy efficiency and low-carbon technologies to fuel our 
economy in the 21st century, we need sufficient and innovative funding 
for water infrastructure. Both the Clean Water and Drinking Water SRF 
programs have been a bedrock of funding for water infrastructure, and 
the green reserve requirement within the Clean Water SRF has been an 
effective incentive for innovative and flexible approaches. The SRF 
programs are one of only a few legislative approaches to get water 
infrastructure funding to communities in need while providing funds for 
natural water infrastructure practices. But both the Clean Water and 
Drinking Water SRF's need further support and changes to ensure that 
the continue to be the strong pillar of water infrastructure funding 
they have been in the past.
    American Rivers appreciates the House Transportation and 
Infrastructure Committee's consideration of our views.

    Mrs. Napolitano. Thank you, everybody. That was excellent, 
Mr. DeFazio. I think you covered it all. We will now proceed to 
hear from our witnesses, who will testify.
    Thank you for being here, and much welcome to everybody. On 
today's panel we have Howard Neukrug, executive director of the 
Water Center at the University of Pennsylvania; Kishia Powell, 
COO and executive vice president, DC Water; Mr. Robert 
Ferrante, chief engineer and general manager, Los Angeles 
County Sanitation Districts; Kim Colson, director, Division of 
Water Infrastructure, North Carolina Department of 
Environmental Quality, testifying on behalf of the Council of 
Infrastructure Financing Authorities, CIFA; Kevin Robert Perry, 
fellow, American Society of Landscape Architects; and Rebecca 
Hammer, deputy director of Federal water policy, the Natural 
Resources Defense Council, NRDC.
    And without objection, your prepared statements will be 
entered into the record. All witnesses are asked to limit their 
remarks to 5 minutes.
    And Mr. Neukrug--am I pronouncing it right?
    Mr. Neukrug. You got it the last time, you got it very 
well.
    Mrs. Napolitano. Welcome. If I murder it, I am not that 
good at names sometimes. Welcome, and you may proceed.

 TESTIMONY OF HOWARD M. NEUKRUG, P.E., EXECUTIVE DIRECTOR, THE 
   WATER CENTER AT THE UNIVERSITY OF PENNSYLVANIA; KISHIA L. 
   POWELL, P.E., CHIEF OPERATING OFFICER AND EXECUTIVE VICE 
  PRESIDENT, DC WATER; ROBERT C. FERRANTE, CHIEF ENGINEER AND 
 GENERAL MANAGER, LOS ANGELES COUNTY SANITATION DISTRICTS; KIM 
 H. COLSON, DIRECTOR, DIVISION OF WATER INFRASTRUCTURE, NORTH 
  CAROLINA DEPARTMENT OF ENVIRONMENTAL QUALITY, TESTIFYING ON 
BEHALF OF THE COUNCIL OF INFRASTRUCTURE FINANCING AUTHORITIES; 
    KEVIN ROBERT PERRY, FASLA, FELLOW, AMERICAN SOCIETY OF 
 LANDSCAPE ARCHITECTS; AND REBECCA HAMMER, DEPUTY DIRECTOR OF 
    FEDERAL WATER POLICY, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Neukrug. Well, thank you very much, Chairwoman, and 
thank you, Chairman DeFazio and Ranking Member, for your great 
opening statements. And good morning. Thank you for holding 
this important hearing on the role of sustainable wastewater 
infrastructure, and promoting resilient cities. I am Howard 
Neukrug, I am the executive director of the Water Center at 
Penn.
    The Water Center is a nonprofit applied research arm of the 
University of Pennsylvania. Our primary purpose is to find 
solutions to the challenges facing our urban and rural water 
systems, the watersheds that support them, and the communities 
that rely on them. Our work builds heavily on the concept of 
integrated water systems and the values of equity, justice, and 
community resilience.
    America's water infrastructure requires significant renewal 
and upgrade. I think we all know about the American Society of 
Civil Engineers Report Card with grades of C-minus, D-plus, and 
D. Speaking as a professor from an Ivy League university, I can 
tell you that these are not good grades. These are the grades 
of systems that are highly vulnerable to partial or complete 
failure. This has to change. If America cannot afford to 
provide clean and safe water to all of its citizens, what 
nation can?
    The last major Federal funding program for water 
infrastructure came with the Clean Water Act's Construction 
Grants program in the 1970s and 1980s. The program was a huge 
success, and improved our Nation's water quality dramatically. 
But much more needs to be done now.
    Our vision is for fishable, swimmable, drinkable, 
accessible, attractive, and safe water that supports community 
health and sustainability, enhances economic opportunities, and 
promotes affordable and resilient neighborhoods. Our goal is to 
rebuild our Nation's water systems with new innovations and 
technologies that will take our 19th- and 20th-century 
infrastructure, which is what is in place today, and secure it 
for at least through the 21st century.
    Today, the Nation's wastewater facilities are moving from 
being a major user of energy to a net-zero or even a net-
positive energy facility. That is, water systems are generating 
enough energy in-house to not just run its operations 
independent of the energy grid, but enough to sell back excess 
to the community.
    We are achieving this by reducing the amount of stormwater 
that infiltrates, or inflows, into our sewers. We are using 
more energy-efficient equipment and pumps. We are also 
investing in advanced digitization and artificial intelligence 
to better monitor and optimize our systems. And we are even 
producing renewable energy by using wind turbines, floating 
photovoltaic solar cells in our reservoirs, and optimizing 
methane gas generation and recovery and reuse.
    We are also beginning to recover other resources from the 
waste stream: phosphorous, microplastics, carbon, rare earth 
materials, fertilizers, and even the thermal heat resident in 
water. And perhaps most significantly is the recovery of the 
water itself. We can now treat wastewater to a level 
appropriate for reuse, even to the level of direct potable 
reuse.
    Increasingly, clean water utilities are becoming leaders of 
sustainability in their communities. This June, Philadelphia 
Water will hit a milestone, its 10th anniversary of the 
groundbreaking Green City, Clean Waters initiative. In just 10 
years, Philadelphia has greened previously impervious land area 
sufficient to prevent 3 billion gallons a year of combined 
sewage overflow from entering its streams and rivers. But 
Philadelphia is just 25 percent of its way towards its ultimate 
discharge reduction goal, and the next 15 years will require an 
even greater influx of money and innovation.
    In summary, the renewal and upgrade of our Nation's water 
infrastructure will be extensive and expensive. While great 
strides have been made to make the water sector more efficient, 
more resilient, more sustainable, and more equitable, still 
more resources are needed.
    The Clean Water SRF has been a tremendous lifeline for all 
parts of our water sector, and thank you for that. But our 
water challenges will only continue to increase. An increase in 
Federal appropriations under the Clean Water SRF program would 
help bring the water sector and the country closer to 21st-
century standards and our Nation's expectations for resiliency 
and sustainability.
    So thank you for Congress' continued support of funding the 
SRF system. I look forward to a growing partnership, moving 
forward. And by working together we could ensure safe, 
reliable, and affordable water services for every citizen.
    Thank you, this concludes my remarks.
    [Mr. Neukrug's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Howard M. Neukrug, P.E., Executive Director, The 
             Water Center at the University of Pennsylvania
                              Introduction
    Good morning, Chairman DeFazio, Ranking Member Graves, and the 
Water Resources and Environment Subcommittee members. I am Howard 
Neukrug, Executive Director of the Water Center at Penn. The Water 
Center is a nonprofit applied research arm of the University of 
Pennsylvania. Our primary purpose is to find solutions to the 
challenges facing urban and rural water systems, the watersheds that 
support them, and the communities that rely on them. Our work builds on 
the concept of integrated water systems and the values of equity, 
justice, and community resilience.
    I have worked in the water industry for over 40 years, my first job 
as a staff engineer for drinking water quality and treatment at 
Philadelphia Water and continuing with the utility as its Director of 
Planning and Technical Services, the Office of Watersheds founding 
Director, Deputy Commissioner for Planning and Environmental Services, 
and finishing my career as the utility's CEO and Water Commissioner. 
Philadelphia Water is a municipal water, wastewater, and stormwater 
utility serving over two million people in the Philadelphia 
metropolitan area with an annual combined (capital and operating) 
budget of over $1 billion, 2000 employees, three drinking water 
treatment facilities, three wastewater resource, and recovery 
facilities, and over 6000 miles of water and sewer pipes.
    I have served as the Chair of the American Water Works Association 
(AWWA) Water Utility Council and its Technical Advisory Group, co-
founded the U.S. Water Alliance, and served on the boards of the Water 
Research Foundation, and the National Association of Clean Water 
Agencies (NACWA) boards. Each of these organizations has provided 
inspiration and a real learning experience for me. I mention this 
because I believe that our professional organizations are where you 
have the best opportunity to nurture new ideas and create the change 
that is so urgently needed for our nation's water infrastructure.
    Since my retirement in 2016, in addition to founding the Water 
Center at Penn, I started an environmental consulting business (CASE 
Environmental LLC), was appointed a Professor of Water Practice at the 
University of Pennsylvania, and became the senior advisor of the Global 
Water Leader's Group and Chair of its Leading Utilities of the World 
CEO Network. I teach courses on ``Global Water Business for the 21st 
Century'' and ``The Role of Water in Sustaining Resilient Cities.''
    Thank you for holding this critical hearing concerning Sustainable 
Wastewater Infrastructure and our efforts to promote resilient cities 
(and water systems) and climate adaptation and mitigation. I look 
forward to working with the subcommittee on its efforts to help address 
the growing challenges and needs brought on by a changing set of 
climate, economic and social realities.
        The Time Is Right for Investment in Water Infrastructure
    It is a matter no longer up for debate--America's water 
infrastructure systems--drinking water, wastewater, and stormwater--
require significant renewal and upgrade. The American Society of Civil 
Engineer's (ASCE) Report Card for Water (2021) gave our nation's water 
systems grades of C-, D+, and D, respectively. Speaking as a professor 
from an Ivy League university, I can tell you that these are not good 
grades. These are the grades of systems that may be functional but are 
highly vulnerable to partial or complete failure at any time. This has 
to change. If America cannot afford to provide clean and safe water to 
all of its citizens, what nation can?
    There are many reasons why the current state of disrepair has 
gotten to the point it has. But the first step to recovery is simply 
acknowledging the problem and its root causes: deferred maintenance, 
inadequate revenues through tariffs, aging facilities, increased 
regulations, emerging contaminants, and more frequent and intense 
natural and anthropogenic crises.
    To help us on this path toward recovery, appreciation is growing by 
the water utility sector and the public that yes, we should be able to 
swim in the water and eat the fish AND live in an adaptive, resilient, 
and sustainable community. Perhaps the last time this kind of public 
interest has occurred on a wholesale level was during the 1970s and 
1980s when pollution got so bad that the Clean Waters Act (CWA) was 
signed into law and the U.S. Environmental Protection Agency (EPA) was 
launched.
    During that time, the CWA's Construction Grants Program kicked in. 
It changed water resource protection and management completely in the 
U.S. by upgrading wastewater treatment systems. By the turn of this 
century, our nation's wastewater treatment facilities were successfully 
treating much of the gross pollution of the 1970s. But much still needs 
to be done.
    It is important to note that this last major push to clean up our 
nation's waters came when the federal government supported the water 
sector through the provision of significant grant funding.
    Today, the water sector is continuing its march toward new and 
innovative technologies designed to reduce costs, increase energy 
efficiencies, manage its existing asset base, address the next 50 plus 
years of a changing climate, and support sustainable and green 
communities. The goal? Fishable, swimmable, drinkable, accessible, 
attractive, safe, just, equitable, and affordable water that supports 
community health and sustainability, enhances economic opportunities 
and promotes affordable neighborhoods. But all of this requires the 
availability of more funding when revenues are falling due to more and 
more households finding themselves unable to pay the water bill.
   New Attitudes and Innovation Are Changing Water Resource Recovery
    Despite the doom and gloom highlighted above concerning the state 
of U.S. water infrastructure, many significant innovations are gaining 
traction and are at various degrees of implementation throughout the 
U.S. and in the global water sector.
    What is in a name? In the 1950s, they were called Sewage Treatment 
Plants (STPs); in the 1970s, they were Publicly Owned Treatment Works 
(POTWs); in the 1990s, Water Pollution Control Plants (WPCPs). Today 
they are being renamed as Water Resource Recovery Facilities (WRRF). 
Yes, they still treat sewage, are largely publicly owned, and still 
control pollution. But the mission has grown significantly.
    For an industry that has been called the largest municipal user of 
electricity, more and more systems have become ``Net Zero Energy'' 
facilities. Through the availability of more energy-efficient equipment 
(think pumps and membranes) to strategic changes in utility operations 
and water and stormwater conservation, treatment facilities have been 
reducing electric demand for decades.
    Add to this the innovations from the field of renewable energy--
photovoltaic solar cells floating on reservoirs, methane gas 
generation, and recovery for use in cogenerating heat and electricity, 
and wind turbines. More and more utilities produce enough energy to 
manage their operations and sell the excess to nearby communities and 
industries.
    Innovations are happening within all aspects of the treatment of 
what we once referred to as ``waste'' water; for example, the recovery 
and reuse of elements within the ``waste'' stream--phosphorous, 
microplastics, carbon, rare earth materials, and even the thermal heat 
resident within the water.
    And perhaps the most significant innovation is in the recovery of 
the water itself. Most treatment plants in the U.S. and worldwide treat 
their wastewater to a level suitable for discharge into a nearby water 
body. Today, water-scarce areas are treating their wastewater to a 
level appropriate for reuse, even to the level of direct, potable 
reuse.
  Blue, Green and Grey Infrastructure Address Multiple Climate Issues
    This June, Philadelphia Water will hit a milestone--its 10th 
anniversary of the groundbreaking Green City, Clean Waters initiative. 
In just ten years, Philadelphia has greened previously impervious land 
area sufficient to prevent 3 billion gallons a year of combined sewage 
overflow (CSO) into its streams and rivers. This was no easy task, but 
the benefits of green water systems throughout a city provide 
additional benefits including improving public spaces, reducing urban 
heat island effects, reducing GHG emissions, and creating a more 
livable and healthier environment.
    I mention blue and grey infrastructure in the section title because 
all forms of water management are needed to successfully protect water 
resources and life and property from floods, droughts, and other water 
disasters.
    The biggest concern of the Green Infrastructure ``movement'' has 
been that while there are many, many ``co-benefits'' to say, planting a 
tree or building a rain garden, the water sector has not, to date, 
gotten many ``co-funders'' to participate in the cost-side of these 
projects. A big thank you to Congress and the EPA for ensuring that 
there is the opportunity for a set-aside in the SRF funding formula to 
support green infrastructure.
    Increasingly, clean water utilities are becoming leaders of 
sustainability in their communities. I urge Congress to explore 
incentives and remove barriers so that other entities--electric 
utilities, the health care industry, and agencies that represent our 
roads, housing, and even litter--can work more closely with the water 
utilities to create co-benefits through green infrastructure. The water 
sector needs Congress' help in educating, incentivizing, and leveraging 
these groups to increase support of multi-faceted green solutions to 
water and other environmental challenges.
   Funding and Policy Changes Are Needed To Meet 21st Century Water 
                               Challenges
    Clearly there is controversy over the cause of climate change, but 
few would argue that there has been an historic shift in weather 
patterns that is showing no signs of letting up. Given that, it is my 
hope that Congress and the federal government will continue to work 
with the water sector to protect life and property from the risks of 
flood, drought, extreme storm events, and sea level rise. Perhaps no 
industry is better positioned to adapt its facilities AND the 
communities it serves, than the water sector. But while the water 
sector is making a lot of progress in building resiliency and 
sustainability, it can make more progress faster with more support.
    What kind of support is needed?
    Undoubtedly, the current state of the water industry is 
unacceptable. More funding is needed, but we are near the affordability 
limit of many American households, the principal source for water 
revenues. While great strides have been made to make the water sector 
more efficient, more resilient, more sustainable, and more equitable, 
still more resources are needed for the reasons described earlier. The 
Clean Water SRF has been a tremendous lifeline for all parts of the 
water sector. Thank you. But our water challenges will only continue to 
increase as will the urgency to address those challenges. So, I provide 
you with a short list of legislative actions that would be supportive 
of the health of our communities and the water environment:
    <bullet>  Increasing the general authorization level for federal 
appropriations under the CW SRF program to bring the water sector 
closer to 21st century standards and expectations
    <bullet>  Supporting water utility programs that assist low-income 
households to maintain water service
    <bullet>  Supporting SRF set-asides for:
      +  Rural and small communities
      +  Innovative environmental projects that promote sustainability 
and resilience, such as Green Infrastructure
    <bullet>  Providing funding to eliminate or minimize two legacy 
infrastructure challenges in the U.S.:
      +  Combined sewer overflows
      +  Lead service lines
    <bullet>  Increasing support for research to make water systems 
more efficient, resilient and sustainable
                     Conclusion--Water Can Unite Us
    Our nation's drinking water, wastewater, and stormwater 
infrastructure renewal and upgrade is extensive and expensive. But the 
broad support for improving our nations' water infrastructure, ensuring 
the safety of our drinking water and keeping our waterways clean gives 
me hope. Please take advantage of this rare common ground by providing 
the necessary funding to ensure that the U.S. can provide safe, 
reliable and affordable water services for every citizen. In doing so 
we will be able to move our nation's water infrastructure securely into 
the 21st century and increase our nation's resiliency and 
sustainability at the same time.
    Thank you for Congress' continued support in funding the SRF system 
and I look forward to a growing partnership moving forward.
    This concludes my introductory remarks. I would be pleased to 
answer any questions or provide additional material for the committee.

    Mrs. Napolitano. Thank you very much, Mr. Neukrug. Now I 
recognize Representative Norton to introduce Ms. Powell.
    Ms. Norton. Thank you, Madam Chair, for this important 
hearing, and for inviting our own chief operating officer of DC 
Water. I am pleased to introduce Kishia Powell, who has been 
the authority's chief operating officer since May of 2020. She 
is leading our authority's initiatives to develop water equity 
as a roadmap, and she is, importantly, leading measures to 
operationalize climate resilience.
    She is well qualified as a graduate of the Clarence 
Mitchell School of Engineering. She is a professional engineer, 
and is vice president of the National Association of Clean 
Water Agencies.
    We welcome Ms. Powell to this hearing.
    Mrs. Napolitano. Thank you, Ms. Norton.
    Ms. Powell, you may proceed.
    [Pause.]
    Mrs. Napolitano. You have got to unmute. Unmute. There you 
go.
    Ms. Powell. Thank you, Ms. Norton, for the introduction, 
and good morning and thank you, Chairs DeFazio and Napolitano, 
Ranking Member Rouzer, and all members of the subcommittee, for 
the invitation to testify before you today on behalf of DC 
Water, our board of directors, and CEO David Gadis on 
sustainable wastewater infrastructure.
    My name is Kishia Powell, and I am the chief operating 
officer of DC Water, which provides essential drinking water 
and wastewater service to over 672,000 residents, schools, and 
businesses in the District, as well as wastewater treatment 
service for 1.6 million people across the District and 
neighboring communities in Maryland and Virginia. I also serve 
as vice president of the National Association of Clean Water 
Agencies, or NACWA, representing more than 330 public clean 
water utilities nationwide.
    We commend the committee for focusing today's hearing on 
modernizing and replacing the country's aging water and 
wastewater infrastructure, which remains a pressing concern. In 
fact, adapting and improving infrastructure to meet changing 
climate trends may be the Nation's most glaring public works 
need. And we must not forget that no community is resilient 
without affordable, accessible water.
    We also applaud the Biden-Harris administration for its 
demonstrated commitment to water infrastructure investment. 
Both the President's infrastructure proposal and his proposed 
budget to Congress are historic, significant, and critical to 
protecting the health and well-being of every American. These 
investments reflect the critical role that water infrastructure 
will play in building back better and addressing climate 
change.
    While the causes of climate change relate to air pollution, 
the impacts of climate change--increasingly volatile 
precipitation patterns, droughts, floods, intensifying storms, 
rising sea levels, and coastal erosion--are almost all related 
to water. And that means water utilities will be front and 
center in addressing these growing challenges.
    Utilities nationwide are keenly aware that making their 
communities more resilient to climate change is also an equity 
and environmental justice issue. At DC Water, our belief is 
that we cannot achieve resilience without water equity, making 
sure that all communities are resilient in the face of a 
changing climate and, likewise, share in the economic, social, 
and environmental benefits of the systems we manage, and the 
infrastructure investments that are made.
    At the heart of DC Water's efforts to modernize wastewater 
infrastructure is our DC Clean Rivers Program, a $2.7 billion 
investment which uses both traditional gray and green 
infrastructure to reduce combined sewer overflow volume, 
flooding, and manage stormwater runoff. Yet even an investment 
of this scale can be susceptible to extreme events like the 
September 10th flash flood, where 3 inches of rain fell on the 
District over a 2-hour period, leaving more than 300 residents 
impacted by sewer backups and surface flooding.
    These types of extreme storms are not unique to the DC 
region. They are occurring throughout the country with 
increasing frequency and intensity, straining public clean 
water utility infrastructure and threatening regulatory 
compliance.
    More than a decade ago, NACWA and the Association of 
Metropolitan Water Agencies released a report detailing the 
potential impact of climate change and the estimated adaptation 
costs for critical water and wastewater facilities of between 
$448 to $944 billion through 2050. These costs underscore the 
importance of the committee's work on the recently introduced 
Water Quality Protection and Job Creation Act of 2021.
    This timely bill authorizes substantially increased 
funding, including grants for wet weather and resiliency pilot 
projects, bridging the growing gap in the Federal cost share of 
water infrastructure, which is currently less than 5 percent. 
This funding will allow communities to maintain and improve 
local infrastructure, ensure water quality, support water 
equity, and protect public health.
    But we are not only working to adapt to climate change. 
Clean water utilities around the country are also contributing 
to climate mitigation measures through renewable energy 
projects that achieve reductions in greenhouse gas emissions 
and, ultimately, contribute to carbon neutrality goals.
    Thank you for this opportunity to testify before you and 
for the work you are doing on behalf of the public clean water 
sector. DC Water's motto is, ``Water is Life.'' Today we 
urgently ask Congress to align funding levels with this basic 
truth, and ensure that water infrastructure allocations are 
proportionate to or greater than other infrastructure sectors.
    This concludes my testimony, and I would be happy to answer 
any questions the committee may have. Thank you.
    [Ms. Powell's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Kishia L. Powell, P.E., Chief Operating Officer 
                 and Executive Vice President, DC Water
    Good morning and thank you, Chairmen DeFazio and Napolitano, 
Ranking Member Rouzer, and all members of the Subcommittee for the 
invitation to testify before you today, on behalf of DC Water, our 
Board of Directors and our CEO David Gadis, on sustainable wastewater 
infrastructure.
    My name is Kishia Powell, and I am the Chief Operating Officer of 
DC Water, which provides essential drinking water and wastewater 
services to over 672,000 residents, schools, and businesses in the 
District, as well as wastewater treatment service for 1.6 million 
people across the District and neighboring Maryland and Virginia 
suburbs. DC Water is proud to have provided these services without 
interruption during the COVID-19 pandemic.
    I also serve as Vice President of the National Association of Clean 
Water Agencies, or NACWA, which represents more than 330 public clean 
water utilities nationwide, including DC Water. NACWA's public utility 
members are on the front lines of environmental and public health 
protection every day to ensure their communities have reliable and 
affordable clean water services.
    I commend the Committee for focusing today's hearing on an 
increasingly urgent topic. No community is resilient without 
affordable, accessible water. Modernizing and replacing the country's 
aging water and wastewater infrastructure, is an increasingly important 
concern. In fact, adapting and improving infrastructure to meet 
changing climate, precipitation, and water use trends, may be the 
nation's most glaring public works need.
    I also applaud the Biden-Harris Administration for its demonstrated 
commitment to water infrastructure investment. Both the President's 
infrastructure proposal and his proposed budget to Congress are 
historic, significant, and critical to protecting the health and 
wellbeing of every American. These investments reflect the critical 
role that water infrastructure will play in building back better and 
addressing climate change.
    The reality is that climate change is all about water. While the 
causes of climate change relate to air pollution, the impacts of 
climate change--increasingly volatile precipitation patterns, drought, 
floods, intensifying storms, rising sea levels and coastal erosion--are 
almost all related to water. And that means water utilities will be 
front and center in addressing these growing challenges.
    At the same time, utilities nationwide are keenly aware that making 
their communities more resilient to climate change is also an equity 
and environmental justice issue. In a recent discussion with our Board 
of Directors we discussed Water Equity and Resilience and acknowledged 
that we cannot achieve resilience without water equity--that 
intersection of water management, Equity and Resilience, making sure 
that all communities are resilient in the face of a changing climate 
and likewise share in the economic, social, and environmental benefits 
of the systems we manage and the infrastructure investments that are 
made. Our households that are most vulnerable to the impacts of climate 
change, are often low-income families of color, with many living in 
flood-prone areas and without the financial resources to afford the 
costs related to clean-up and restoration. This is where we see 
environmental justice and climate justice are inextricably linked and 
where opportunities for equitable approaches become evident and timely.
    Utilities are already helping communities adapt to, and manage, 
extreme storm events, and DC Water is a national leader in this 
respect. However, these resilience measures often require costly new 
investments to protect and adapt the billions of dollars of public 
investment in water infrastructure already in the ground. This can 
create severe financial challenges for ratepayers, and particularly 
unjust and disproportionate impacts on low- and moderate-income 
customers.
                           Climate Adaptation
    At the heart of DC Water's efforts is our Clean Rivers Project, an 
ongoing effort to reduce combined sewer overflows (CSOs) to the 
District's waterways. DC Clean Rivers is a $2.7 billion infrastructure 
program designed to capture and treat wastewater during rainfalls 
before it reaches local waterways. The program's investments have 
already delivered a 90% reduction in system wide CSO volume for the 
Anacostia River, and an economic impact of 41,850 jobs (direct and 
indirect) over the life of the program, just to highlight a few 
benefits.
    Clean Rivers uses both traditional gray, and green, infrastructure 
strategically around the city to reduce flooding and manage stormwater 
runoff, including increased precipitation from climate change. Yet even 
an investment of this scale can be susceptible to extreme events. As an 
example, an unusually intense rainstorm on September 10, 2020 dumped 
almost three inches of stormwater on the District over a two-hour 
period. The impact on the city's sewer infrastructure was immediate.
    During this event, sewer and stormwater pumps throughout the system 
were pushed to their maximum pumping capacity. Within 25 minutes the 
new Anacostia Tunnel System filled to its capacity of 100 million 
gallons. The flow to our Blue Plains plant spiked and our new wet 
weather treatment facility was pressed into service. It too quickly 
reached capacity. Across the city, our existing sewers performed as 
designed but were insufficient to handle the amount of stormwater 
generated.
    These types of extreme storms are not unique to the DC region--they 
are occurring throughout the country with increasing frequency and 
intensity, straining public clean water utility infrastructure and 
threatening regulatory compliance. In other jurisdictions, increased 
drought conditions are creating a different set of challenges for water 
and wastewater systems. In both cases, it will require a significantly 
increased investment to ensure safe, reliable, and compliant water 
supplies for all Americans.
    These concerns are not new, but they are growing. More than a 
decade ago, NACWA and the Association of the Metropolitan Water 
Agencies (AMWA) released a report detailing the potential impact of 
climate change on wastewater and drinking water utilities. This report 
estimated the adaptation costs for these critical facilities to be 
between $448 billion and $944 billion through 2050. In the decade plus 
since that report, climate change has proven to be an even greater 
challenge to public clean water and drinking water utilities.
    These costs underscore the importance of the Committee's work on 
the recently introduced Water Quality Protection and Job Creation Act 
of 2021, H.R. 1915. This timely bill authorizes substantially increased 
funding for the Clean Water State Revolving Fund (CWSRF), Sewer 
Overflow and Stormwater Reuse Municipal Grants, as well as grants for 
wet weather and resiliency pilot projects. I emphasize grants as they 
are particularly beneficial for struggling communities that cannot take 
on more debt financing to meet these challenges.
    These funds are an important first step to bridge the growing gap 
in the federal cost share of water infrastructure, which is currently 
less than five percent. This funding represents a lifeline for 
communities to maintain and improve local infrastructure, ensure water 
quality, support water equity, and protect public health in the face of 
climate change.
                           Climate Mitigation
    Clean water utilities around the country are also contributing to 
climate mitigation measures through renewable energy projects that 
achieve reductions in greenhouse gas emissions and ultimately help 
reach carbon neutrality goals. As the single largest power consumer in 
the District, DC Water's operations offer significant green energy 
potential from thermal energy recovery supplying 100% of our heating 
needs at HQO, our LEED Platinum certified headquarters, an estimated 13 
MW of on-site combined heat and power at Blue Plains to solar project 
implementation and the potential to generate power from food waste. 
Systemwide, we have roughly a 200 MW equivalent of thermal energy in 
our sewers; something unique to us in the District and yet untapped.
    DC Water's Blue Plains Advanced Wastewater Treatment Plant was the 
first project to use thermal hydrolysis in North America and was the 
largest such facility in the world when it was commissioned in October 
2015. The clean, green renewable energy created through this process is 
enough to power one-third of the Plant's energy needs. Based on our GHG 
emissions modeling from 2007 to 2017, our Thermal hydrolysis process 
(Cambi/digestion/combined heat and power (turbines) project) reduced 
our carbon footprint by roughly \1/3\. More recently, the Authority has 
completed the installation of a solar lighting array to capture 
additional clean power, which could further reduce our reliance on the 
power grid.
    Though DC Water's energy opportunities were identified several 
years ago, we recently reinvigorated our focus on developing an 
actionable project portfolio that aligns collaborators and expedites 
funding from investors, for the purpose of achieving the District's 
Carbon & Equity Goals. DC Water understands that implementation of 
innovative clean energy projects can result in operational savings and 
allow DC Water to invest those savings in other critical infrastructure 
needs while maintaining affordable rates.
                                Closing
    In closing, I would like to thank the Committee again for the 
opportunity to testify before you today on this important issue and for 
the work you are doing on behalf of the public clean water sector.
    At DC Water, our motto is `Water is Life.' Today, we urgently ask 
Congress to align funding levels with this basic truth, and ensure that 
water infrastructure allocations are proportionate to, or greater than, 
other infrastructure sectors.
    We in the public clean water sector firmly believe that this is the 
moment for Congress to act to address the nation's growing water 
infrastructure crisis and transform a generational problem into a 
multigenerational solution.
    That concludes my testimony and, I would be happy to answer any 
questions the Committee may have.

    Mrs. Napolitano. Thank you very much, Ms. Powell, that is 
very good. We certainly do need to focus on aging 
infrastructure and the new methodology.
    I am pleased to introduce Mr. Robert Ferrante, who is the 
general manager of L.A. County Sanitation Districts. The 
sanitation districts are an incredible leader in water 
recycling, food waste recycling, and alternative waste disposal 
opportunities, and I know them very well, I have visited them 
several times.
    I thank you, Mr. Ferrante, for testifying today. You may 
proceed.
    Mr. Ferrante. Good morning, and thank you for that 
introduction, Chair Napolitano. Good morning also to Chair 
DeFazio, Ranking Member Rouzer, members of the subcommittee, 
and staff. My name is Robert Ferrante. I am the chief engineer 
and general manager of the Los Angeles County Sanitation 
Districts. It is my great pleasure to participate in this 
hearing this morning on behalf of the sanitation districts, and 
to speak to you about the important topic of climate resiliency 
and the role that wastewater agencies can play in it.
    I would like to begin by stating my agency's support for 
H.R. 1915, the Water Quality Protection and Job Creation Act of 
2021. We thank you for bringing this very important legislation 
forward.
    As a matter of background, the sanitation districts were 
formed in 1923, and today we provide wastewater and solid waste 
services to about 5.6 million people, 78 cities, and 
unincorporated Los Angeles County. Many of our customers live 
in disadvantaged communities, and have been hit hard by COVID-
19.
    Our facilities are not waste treatment or disposal sites. 
They are resource recovery facilities that support the goal of 
a more circular economy. And over the last 50 years, the 
sanitation districts have been the Nation's largest producer of 
recycled water.
    In recent years, the need, though, to develop additional 
local recycled water supplies and the need to seek out more 
greenhouse gas reductions has become more apparent than ever, 
as we experience the impacts from climate change.
    With this as a backdrop, I would like to highlight two 
major projects that we have undertaken.
    First, we are partnering with the Metropolitan Water 
District of Southern California, which serves nearly 19 million 
people through 6 southern California counties, on a regional 
recycled water project. Discussions for this project started in 
2010. And in 2019, a $17 million, 500,000-gallon-per-day 
demonstration facility began operation.
    The potential full-scale regional project would produce up 
to 150 million gallons per day, or enough to serve 500,000 
homes, or, in context with Metropolitan's supply need, about 10 
percent of Metropolitan's water supply need for the southern 
California region. Purified water from the advanced treatment 
system would be delivered through 60 miles of pipeline to the 
region's groundwater basins, replenishing them, and also to two 
of Metropolitan's water treatment plants.
    In November of the past year, the boards of directors of 
both agencies approved moving forward with the environmental 
review, preliminary engineering, and public outreach, which are 
anticipated to take 2 to 3 years. The project is estimated to 
cost $3.4 billion, and while most of the cost will be paid by 
ratepayers, we will be looking for financing through Federal 
programs in order to help keep drinking water costs affordable 
for southern Californians.
    The other project I would like to talk about is a food 
waste-to-energy project, and we have developed this--since we 
have both a solid waste and wastewater infrastructure, it 
really makes a lot of sense for us to be involved in this. It 
is a perfect fit for us. And California here, as many of you 
know, has an extensive set of State laws to support greenhouse 
gas mitigation, increased use of renewable energy, and 
diversion of waste, especially organic waste from landfills.
    So we have embarked on a food waste diversion for 
codigestion at our main plant. And following 4 years of 
research and pilot testing, we have initiated the large 
program, working with a number of private haulers that are 
serving local cities, and we currently receive about 300 tons 
per day of food waste. And we have the potential to double that 
amount over the next few years.
    And as I think Chairman DeFazio mentioned, and others, 
about generating additional gas and energy, we use that biogas 
in two ways. We use it at an onsite powerplant, making the 
whole treatment plant energy self-sufficient, and exporting 
power to the grid. And we also use that, and convert that gas 
into vehicle fuel, which displaces not only, of course----
    Mrs. Napolitano. Mr. Ferrante, would you mind wrapping up a 
little bit?
    Mr. Ferrante. Sure. It displaces fossil fuel use and 
avoided landfill gas emissions.
    I hope these projects serve as good examples. And with 
that, I would like to thank the subcommittee for allowing me to 
testify. Thank you.
    [Mr. Ferrante's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Robert C. Ferrante, Chief Engineer and General 
            Manager, Los Angeles County Sanitation Districts
    Good morning, Chairman DeFazio, Chairwoman Napolitano, Ranking 
Member Graves, and Ranking Member Rouzer, members of the Subcommittee 
and staff. My name is Robert Ferrante, and I am the Chief Engineer and 
General Manager of the Los Angeles County Sanitation Districts, where I 
have worked for 28 years. It is my great pleasure to participate in the 
hearing this morning on behalf of the Sanitation Districts to speak to 
you about the important topic of climate resiliency and the role that 
wastewater agencies can play in it. I would like to begin by stating my 
agency's support for H.R. 1915, the Water Quality Protection and Job 
Creation Act of 2021, which would authorize $50 billion over five years 
for water infrastructure investments. We thank you for bringing this 
legislation forward. We appreciate your recognition of the critically 
important need for a strong federal commitment to invest in our 
Nation's clean water infrastructure, and that there are ways in which 
those investments can be put to work to not only protect water quality 
in our rivers, lakes and oceans, but also to help communities become 
more resilient to the effects of climate change.
                               Background
    The Los Angeles County Sanitation Districts were formed in 1923, 
and today consist of 24 independent special districts that provide 
wastewater and solid waste services to about 5.6 million people in 78 
cities and unincorporated areas in Los Angeles County. Many of our 
customers live in disadvantaged communities and have been hit hard by 
COVID-19. To maximize efficiency and reduce costs, the 24 Sanitation 
Districts work cooperatively with one administrative staff 
headquartered near the City of Whittier. Each Sanitation District has a 
Board of Directors consisting of the mayor of each city served, and the 
Chair of the County Board of Supervisors for unincorporated territory. 
Each Sanitation District pays its proportionate share of administrative 
costs.
    The Sanitation Districts protect public health and the environment 
through innovative and cost-effective wastewater and solid waste 
management, and, in so doing, convert waste into resources such as 
recycled water, energy, and recycled materials. Our facilities are not 
waste treatment or disposal sites, they are resource recovery 
facilities and support the goal of a more circular economy. In addition 
to managing about one-quarter of the County's municipal solid waste, we 
operate and maintain a regional wastewater collection system, that 
treats about half the wastewater in Los Angeles County. Collectively, 
the Sanitation Districts treat about 400 million gallons of water per 
day, which is enough to fill the Rose Bowl nearly five times a day. 
Over the last 50 years, the Sanitation Districts have been the nation's 
largest producer of recycled water. Our service area spans about 850 
square miles, and to cover this large area, we have several distinct 
wastewater systems. Seventeen of the Sanitation Districts in the 
metropolitan Los Angeles area are served by a regional, interconnected 
system of facilities known as the Joint Outfall System (JOS). The JOS 
consists of seven wastewater treatment plants. Six upstream water 
reclamation plants (WRPs) capture low salinity, high-quality wastewater 
and produce a drought-resistant water resource: disinfected recycled 
water that is ready to use in a variety of applications without further 
treatment. Downstream, the Joint Water Pollution Control Plant, or 
Joint Plant, uses secondary treatment to treat two-thirds of the 
wastewater in the JOS along with the solids removed at the upstream 
plants.
    The Sanitation Districts manage separate wastewater systems in the 
Santa Clarita Valley and the Antelope Valley. Each of these valleys is 
home to two WRPs that provide important sources of water for wildlife 
habitats and for municipal and agricultural reuse.
                            Water Recycling
    We embarked on our modern water recycling program in 1949 when it 
was determined that upstream water reclamation plants would allow us to 
both handle wastewater generated by the burgeoning post-war development 
in our service area, and to produce recycled water, which even then was 
anticipated to become a critical resource in our semi-arid and drought-
prone climate. The Sanitation Districts' first water reclamation plant, 
Whittier Narrows, began operation in August 1962 and nearly every drop 
of recycled water produced by that facility has been put to beneficial 
use since then, mainly for groundwater replenishment and later also for 
irrigation of nearby urban parks and green areas. Whittier Narrows was 
the first plant in the nation to be built solely for the purpose of 
water recycling. We subsequently built other water reclamation plants, 
and these plants now collectively supply approximately 95 million 
gallons per day (or 100,000 acre-feet per year) of recycled water to 
over 900 sites through partnerships with over 30 local water suppliers 
for a variety of uses, including industrial use, agricultural use, 
groundwater replenishment, and landscape irrigation.
    In recent years, the need to develop local recycled water supplies 
as a means to be more climate-resilient has become more apparent than 
ever as we experience impacts from climate change. These include 
drought, extreme weather events, earlier snow melt, and sea level rise. 
This includes impacts in northern California where water is transported 
to other parts of the State via the State Water Project, as well as 
impacts in the Colorado River Basin, which is another source of 
imported water for Southern California. Climate change is reducing the 
snowpack and affecting the timing of snow melt, both of which reduce 
water availability. Other factors driving interest in developing new 
recycled water projects include the need to plan for the possibility of 
a major seismic event along the San Andreas fault, which could disrupt 
imported water supplies for months and the extremely limited options 
for development of new sources of water.
                    Regional Recycled Water Project
    With this as a backdrop, I would like to highlight a major new 
project that we are partnering on with the Metropolitan Water District 
of Southern California, which serves nearly 19 million people in six 
Southern California counties. The Regional Recycled Water Project first 
began with early planning and a pilot project in 2010. A $17 million, 
500,000 gallon per day demonstration facility at the Joint Plant was 
approved in 2015 and began operation in October 2019. The potential 
full-scale regional recycled water program would treat about 180 
million gallons per day in order to produce up to 150 million gallons 
daily, or enough to serve more than 500,000 homes. Purified water from 
the advanced treatment facility would be delivered through 60 miles of 
new pipelines to the region's groundwater basins, industrial facilities 
and two of Metropolitan's treatment plants. In November 2020, the 
boards of directors for both agencies approved moving forward with 
environmental review, preliminary engineering, and public outreach, 
which are anticipated to take two to three years.
    This project, which could become the largest of its type in the 
world, will replenish local groundwater basins, and has the potential 
to pursue direct potable reuse by delivering the recycled water to two 
raw water treatment facilities operated by Metropolitan for 
incorporation into the wholesale water supply system. The State of 
California is currently working on the development of regulations for 
direct potable reuse, which are anticipated to be completed in 2023. 
This project would have the ability to produce roughly 10% of 
Metropolitan's annual water supply need and be a reliable new source 
especially when imported water is curtailed or cutoff by natural 
disaster or climate change. The Regional Recycled Water Project is 
estimated to cost $3.4 billion, and while most of the cost will be paid 
for by the ratepayers, we will be looking for federal financing through 
programs such as the Clean Water SRF, WIFIA, Title XVI, and/or the 
Alternative Water Source Management Program, in order to help keep 
drinking water costs affordable for Southern Californians. All of these 
funding programs are essential not just to our project but for water 
recycling projects all over the country.
                      Food Waste to Energy Project
    I would now like to turn to another major initiative we are 
developing to turn some of the 4,000 tons per day of food waste 
generated in Los Angeles County into energy by using both our solid 
waste and wastewater infrastructure. California has an extensive set of 
state laws to support Greenhouse Gas (GHG) and Short-Lived Climate 
Pollutant (SLCP) mitigation, increased use of renewable energy and 
diversion of waste from landfills. Because the Sanitation Districts 
manage both solid waste and wastewater, food waste diversion for co-
digestion at the Joint Plant was a project that makes perfect sense for 
us. Following research and pilot testing, a four-year demonstration 
project was conducted in partnership with the private company, Waste 
Management, in which up to 60 tons per day of preprocessed food waste 
slurry was injected directly into a test digester. Based on the success 
of the demonstration project, we have initiated a very large-scale 
codigestion program, and Phase I of an energy strategy for the 
additional biogas. We are developing a diversified set of sources for 
food waste slurries from private sector suppliers, as well as from our 
own food waste preprocessing facility installed at the Puente Hills 
Materials Recovery Facility in 2018. We currently receive about 300 
tons per day of food waste slurry at the Joint Plant, and we have the 
potential to increase the amount accepted to about 600 tons per day.
    The biogas is used in two ways. Some is sent to the Joint Plant's 
20-megawatt power plant where the biogas is converted into electricity 
that runs the treatment plant, which is virtually self-sufficient. The 
remaining biogas is sent to a gas purification system to make fuel-
grade renewable natural gas. The purification system can produce the 
renewable natural gas equivalent of 2,000 gallons of gasoline per day. 
This renewable natural gas is dispensed at the Sanitation Districts' 
nearby compressed natural gas (CNG) fueling station that is open to the 
public. By fueling cars, buses and trucks with renewable natural gas, 
this program produces a low carbon fuel that both reduces GHG/SLCP 
emissions through avoided landfill emissions and avoids fossil fuel 
use. We are still evaluating future options for use of the additional 
biogas that will be produced as the program grows, including production 
of additional renewable electricity for sale to the grid and injection 
of biogas into the natural gas pipeline system.
                               Conclusion
    I hope that these projects can serve as examples of innovative 
projects that can be done right now at our nation's wastewater 
utilities to foster water resilience and to mitigate climate change by 
reducing GHG/SLCP emissions. These projects are converting wastewater 
treatment plants into resource recovery facilities where clean water, 
energy, vehicle fuel, and soil amendment are generated which supports a 
circular economy and reduces greenhouse gas emissions. H.R. 1915 and 
this Committee's leadership can assist the Sanitation Districts' and 
the nation's wastewater facilities achieve a more resilient and 
reliable future.
    In conclusion, I thank the Subcommittee for the opportunity to be 
here today to share information about our projects. If you have any 
questions, I would be happy to answer them.
                              attachments
1. Metropolitan Water District and Los Angeles County Sanitation 
        Districts, ``A New Source of Water for Southern California: 
        Regional Recycled Water Advanced Purification Center,'' January 
        2021.
    [This document is retained in committee files and is available 
online at the House of Representatives Document Repository at https://
docs.house.gov/meetings/PW/PW02/20210421/112472/HHRG-117-PW02-Wstate-
FerranteR-20210421-SD001.pdf]
2. Los Angeles County Sanitation Districts, ``Food Waste Recycling,'' 
        January 2021.
    [This document is retained in committee files and is available 
online at the House of Representatives Document Repository at https://
docs.house.gov/meetings/PW/PW02/20210421/112472/HHRG-117-PW02-Wstate-
FerranteR-20210421-SD002.pdf]

    Mrs. Napolitano. Thank you very much, Mr. Ferrante. Those 
are great projects, and I have visited most of them.
    Mr. Colson, you are next. You may proceed.
    Mr. Colson. Thank you, Chairman DeFazio, Ranking Member 
Graves, Chairwoman Napolitano, and Ranking Member Rouzer, my 
name is Kim Colson, and I am director of the Division of Water 
Infrastructure for the North Carolina Department of 
Environmental Quality. I am also president of the Council of 
Infrastructure Financing Authorities, and today I am speaking 
on behalf of CIFA, whose members manage the Clean Water and 
Drinking Water State Revolving Funds. Thank you for engaging 
the SRF community in this important conversation about the 
future of the Clean Water SRFs.
    The Clean Water SRFs provide a sustainable and perpetual 
source of funding for clean water infrastructure. Because the 
SRFs are subsidized loan programs, Federal and State funding is 
used over and over again to fund water infrastructure forever. 
We are still using the initial Federal investment in the Clean 
Water SRF from 1989.
    The numbers tell an incredible story of success. In 2020, 
Congress provided $1.6 billion in annual funding for the Clean 
Water SRFs, but the SRFs were able to provide $7.6 billion in 
assistance to communities, nearly five times the Federal 
appropriation. Over the life of the program, $47 billion in 
Federal funding has generated $145 billion in total investment 
in clean water infrastructure. Today, $60 billion--$15 billion 
more than the total Federal funding--remains revolving in the 
Clean Water SRFs for new loans. And those new loans are funding 
important water infrastructure projects that may never have 
been built with a conventional grant program.
    Maintaining the integrity of the SRFs as a loan program is 
essential. Every dollar provided in principal forgiveness and 
grants is permanently removed from the SRFs, which means less 
funding for water infrastructure for future generations. These 
aspects are carefully considered at the State level.
    The Clean Water SRFs are a national model for 
infrastructure investment, because States can customize their 
program within a broad Federal framework to meet diverse and 
often unique needs of their communities. Understanding the 
impact of Federal policies on these State-run programs is 
important to maintaining and strengthening the effectiveness of 
the SRFs.
    Many States are focused on specific types of green 
projects, and some are more focused on small communities, 
depending on their State's specific situation. Energy 
efficiency projects are typically funded, as many utilities are 
exploring reducing their energy footprint and have established 
revenue streams to repay the loans. Water recycling projects 
are a priority in States where water scarcity is a major 
concern, such as California, Florida, and Texas. Stormwater 
projects, such as permeable pavement and roof gardens, can be a 
great solution in urban areas.
    But these type of projects may not be the immediate 
priority in small communities, and I know our small communities 
in North Carolina are struggling just to maintain their 
infrastructure. More Federal mandates may have the unintended 
consequence of turning these proven, effective, State-run 
programs into a one-size-fits-all Federal program.
    Small and rural communities like Tabor City, North 
Carolina, with a population of 4,000, face very different 
challenges than cities and urban centers like Los Angeles, 
California, with a population of 4 million. Large utilities are 
more likely to have the professional staff to comply with 
Federal mandates. Small communities are more likely to have to 
hire an outside contractor to comply, and can struggle with 
organizational and financial capacity. All treatment works, 
whether a significant overhaul or a simple pipe replacement, 
have the same Federal requirements under current law.
    So on behalf of the borrowers, please consider how current 
and new Federal mandates might impact the communities we serve. 
Specifically, consider their capacity to comply, and the cost 
benefits.
    In addition, please consider ways Federal policies can be 
implemented with State programs to meet the same Federal goals, 
just like the SRFs already do with environmental review.
    Thank you again for your support, and for asking the SRF 
community our thoughts on the future of the Clean Water SRFs. 
Thank you.
    [Mr. Colson's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Kim H. Colson, Director, Division of Water 
  Infrastructure, North Carolina Department of Environmental Quality, 
    testifying on behalf of the Council of Infrastructure Financing 
                              Authorities
    On behalf of the Clean Water State Revolving Funds (SRFs) across 
the nation, thank you for the opportunity to share the thoughts of the 
SRF community on measures to promote sustainable and resilient water, 
wastewater and stormwater infrastructure. My name is Kim Colson and I 
am the Director of the Division of Water Infrastructure for the North 
Carolina Department of Environmental Quality, which manages both the 
Clean Water and Drinking Water SRFs. Today, I am speaking on behalf of 
the Council of Infrastructure Financing Authorities (CIFA) whose 
members manage the Clean Water and Drinking Water SRFs in 48 states.
    The Clean Water SRFs are the nation's premier programs for funding 
water infrastructure that protects public health and the environment. 
Since they were established by Congress more than 30 years ago, the 
Clean Water SRFs have funded more than 40,000 water infrastructure 
projects in communities around the country, providing clean water to 
support healthy ecosystems, livable communities and robust economies.
    Although these proven programs have been around for more than three 
decades, the SRFs have evolved significantly during that time. Our 
portfolio of infrastructure has grown well beyond traditional brick-
and-mortar wastewater treatment plants and sewer pipes to an array of 
innovative projects that are solving the most complex water challenges 
of our day. To help communities build water infrastructure that is 
sustainable and resilient, our programs offer a range of assistance, 
including engineering, environmental, project planning and accounting 
services.
    The SRFs have also matured into sophisticated financial 
organizations. Each SRF develops their below-market interest rate, 
their criteria for affordability and additional subsidy, and their loan 
conditions based on the needs and priorities of their state. Each SRF 
employs a variety of tools to fund water infrastructure projects, 
including direct loans, purchase of debt, linked deposits, and 
additional subsidy in the form of grants and principal forgiveness. 
Several SRFs leverage their programs in the bond market, which requires 
additional finance expertise.
    Today, SRFs are dynamic organizations that are responsive to the 
needs of their communities in a fast-paced, ever-changing world. 
Because they are state-run programs, SRFs can--and must--adapt quickly 
to meet multiple challenges, including natural disasters such as 
drought or hurricanes, health crises like the coronavirus pandemic, 
emerging contaminants such as PFAS, economic downturns that impact 
affordability and capital investment, and competition from incredibly 
low interest rates in the public finance market.
    SRFs fund an array of projects that promote sustainable and 
resilient water systems. Under current law, Clean Water SRFs can fund a 
range of water infrastructure projects that build sustainability and 
resiliency, including wastewater treatment, water reuse and recycling, 
stormwater management, decentralized wastewater treatment, green 
infrastructure, energy efficiency, water conservation, agricultural 
best management practices, climate mitigation and adaptation measures, 
increased security and cybersecurity, environmental restoration and 
pollution prevention. The ability to fund this wide array of projects 
allows SRFs to support new initiatives, such as integrated planning.
    A top priority for many SRFs is ensuring wastewater is treated to 
stringent water quality standards so it can be safely reused or 
returned to nature. Replacing leaky sewer pipes and rehabilitating old 
or outdated treatment facilities remain the most effective ways to 
maintain adequate levels of protection and prevent catastrophic crises 
that endanger public health or cause lasting, costly damage to the 
environment. However, more and more grey infrastructure projects are 
incorporating green technologies and approaches, either in whole or in 
part, to increase resiliency of water systems, water quality and water 
supply.
    Here are a few pioneering projects recently funded by Clean Water 
SRFs to strengthen water sustainability and resiliency.
    <bullet>  The California Clean Water SRF funded expansion of 30 
million gallons per day for the Orange County Water District 
Groundwater Replenishment System to be used as a new source of 
replenishment for the Orange County groundwater basin.
    <bullet>  The Rhode Island Clean Water SRF conducted a statewide 
climate vulnerability study to determine infrastructure projects that 
wastewater treatment facilities need to undertake to mitigate the 
impact of flooding from rain and rising sea levels.
    <bullet>  The Arizona Clean Water SRF funded a forest management 
project in Flagstaff to protect against catastrophic wildfires that 
create the conditions for dangerous mudslides during monsoon season 
which cause significant impacts to water quality.
    <bullet>  The Minnesota Clean Water SRF, in partnership with the 
Barataria-Terrebonne National Estuary in Louisiana, funded 
implementation of pollution prevention practices to reduce nutrient 
runoff that flows down the Mississippi River to the sensitive coastal 
ecosystem.
    <bullet>  The Missouri Clean Water SRF funded construction of 
wastewater bio solids handling equipment in Webb City that produces 
fertilizer from nutrients in wastewater, which is applied mine-scarred 
land as part of a stabilization and habitat restoration project.
    <bullet>  The Kansas Clean Water SRF funded the purchase of 
equipment to plant cover crops to reduce nutrients in Wetmore.
    <bullet>  The Florida Clean Water SRF funded installation of solar 
facilities in Marianna, which reduced energy consumption by more than 
90%. Loan repayments are funded with just two months of savings with 
the remaining ten months of savings available to maintain affordable 
rates.
    <bullet>  The Virginia Clean Water SRF, in partnership with The 
Nature Conservancy, funded the purchase of a conservation easement for 
60,000 acres of forests, increasing protection for drinking water 
supplies as well as the natural habitat for more than 150 species of 
fish and mussels.

    The SRFs provide a sustainable, renewable, protected source of 
funding for clean water infrastructure--forever. Since the program was 
created, federal funding of $47 billion has generated a total 
investment of $145 billion for clean water infrastructure. Because the 
SRFs are subsidized loan programs, nearly $60 billion of state and 
federal funding remains revolving in the program today--$13 billion 
more than the total amount provided over three decades of federal 
funding. All funds revolving in the SRFs are state funds.
    Today, Americans are realizing the real-world benefits of 
establishing the Clean Water SRFs as revolving loan programs more than 
30 years ago. In 2020, Congress appropriated $1.6 billion in funding to 
the Clean Water SRFs but the SRFs were able to provide nearly $7.5 
billion in funding to communities--nearly five times the amount of 
annual federal funding. Thanks to Congress' foresight, water 
infrastructure projects are being built today that may never have been 
built if the SRFs were established as a federal grant program.
    SRF subsidize loans save money and keep utility rates affordable. 
Savings from SRF subsidized loans allow utilities to improve wastewater 
and stormwater service while keeping rates affordable for consumers. 
While additional subsidy (grants and principal forgiveness) tends to be 
the focus of financial assistance provided by the SRFs, significant 
savings are already being generated through the SRF's below-market, 
subsidized interest rates.
    In 2020, the average interest rate for a Clean Water SRF loan was 
1.5% or about 50% of market rates. SRF subsidized loans, on average, 
cut interest payments in half and reduce the cost of infrastructure by 
$180 million for every $1 billion in loans. Additionally, investments 
in wastewater infrastructure can reduce the cost of operations. These 
combined savings can be passed onto consumers with more affordable 
utility rates.
    While SRFs provide a permanent, perpetual source of funding, more 
federal funding is needed to meet the growing need for clean water 
infrastructure. According to the American Society of Civil Engineers 
(ASCE), the need for capital investment for water infrastructure was 
$129 billion for 2019, while actual total spending on capital 
investment in water infrastructure was $48 billion, leaving a gap of 
$81 billion or nearly twice the amount of actual spending. If this 
trend continues, this gap is expected to grow to $434 billion by 2029.
    CIFA's members fully support increased authorizations and 
appropriations for the Clean Water SRF. However, some SRFs have 
expressed concern about their ability to meet the 20% state match 
requirement if funding is increased five-fold within the near future. 
Other SRFs have expressed concern about the ability to ensure the high-
priority projects are funded if timelines remain the same or are 
shortened, as they were under the American Recovery and Reinvestment 
Act of 2009.
    Greater flexibility for the SRFs is also needed. The Clean Water 
SRFs are effective because Congress allowed states to customize their 
program within a broad federal framework. This flexibility, which is a 
hallmark of the SRF state-federal partnership, has allowed SRFs to meet 
the diverse, and often unique, needs of communities across the nation--
from urban centers, such as Los Angeles, California, with a population 
of nearly four million, to small communities like Tabor City, North 
Carolina, with a population of 4,000.
    However, continued federalization of the Clean Water SRFs 
diminishes our ability to efficiently and effectively respond to the 
needs of our communities. Federal mandates, while incredibly well-
intentioned, have had the unintended consequence of complicating the 
program, which discourages and slows the pace of investment in clean 
water infrastructure.
    Increased federal mandates add complexity to program management. 
Unlike the bond market which provides financing only, SRFs shepherd 
projects through the project pipeline--from pre-development to planning 
and design through engineering and environmental reviews to procurement 
to construction. Hiring, training and retaining staff to implement, 
monitor and enforce compliance with the growing number of federal 
mandates is a challenge.
    The federal mandate for additional subsidy reduces the leveraging 
power of SRFs immediately and permanently reduces the source of 
recurring revenue for water infrastructure projects in the future. 
Since 2010, Congress has required the Clean Water SRFs to use a percent 
of the annual capitalization grant for additional subsidy in the form 
of grants, principal forgiveness or negative interest loans. While 
additional subsidy is an important tool, SRFs believe it should only be 
used when absolutely necessary because it permanently reduces funding 
for water infrastructure in the future.
    Additionally, there is an inverse relationship between additional 
subsidy and leveraging. SRFs can use the capitalization grant as 
security for a bond or pledge loan repayments to repay a bond. The more 
funding used for additional subsidy, the less funding that is available 
to leverage the program. Less leveraging results in fewer water 
infrastructure projects.
    Current law allows SRFs to use up to 30% of the capitalization 
grant for additional subsidy for communities that meet affordability 
criteria and for certain projects, such as stormwater mitigation. 
Allowing each SRF to determine how much additional subsidy is 
necessary, up to this cap, ensures states are balancing the need to 
invest in water infrastructure today with the ability to meet future 
needs for water infrastructure. It also recognizes that many states 
provide significant funding for water infrastructure grant programs 
which are used to supplement projects funded by the SRFs.
    The federal mandate for green projects can displace other water 
infrastructure projects that provide greater protection for public 
health and the environment. The current mandate, called the Green 
Project Reserve, requires SRFs to use at least 10% of the 
capitalization grant for water and energy efficiency projects, green 
infrastructure projects and other environmentally innovative 
activities. To meet the mandate, SRFs are encouraged by the U.S. 
Environmental Protection Agency to change their scoring, interest rates 
and additional subsidy criteria, which impacts the ranking and funding 
of projects that might be higher state priorities.
    All SRFs fund green projects but not all green projects can qualify 
for loan. Utilities that implement water and energy efficiency projects 
have a revenue stream to qualify and repay a loan, and the energy 
efficiency projects often pay for themselves in lower operating costs. 
However, green infrastructure projects, such as installing permeable 
pavements or green roofs, often don't have a revenue stream to qualify 
and repay a loan.
    Even with robust and concerted efforts to identify and fund green 
projects, SRFs may not be able to achieve the mandate, year-in-and-
year-out. Take the recent experience of Oregon, which is at the 
forefront of funding innovative, sustainable green projects. In State 
Fiscal Year 2020, the Oregon Clean Water SRF executed a record number 
of loans and had more than $6.8 million in green projects on their 
Intended Use Plan. However, none of those projects were ready to 
proceed to construction and, as a result, Oregon couldn't meet federal 
mandate for green projects in that fiscal year.
    Additionally, transformational green infrastructure projects can 
take more time to develop and build than other projects, including both 
conventional wastewater projects and smaller green projects. Given the 
need to meet the green mandate annually and the urgency to disburse 
federal funding expeditiously, there is no incentive to pursue these 
large-scale, environmentally significant projects. When they are 
funded, credit toward the mandate is only allowed in the year when the 
loan was executed, not when funding is disbursed. For example, Oregon 
is financing a multi-year, multi-phased riparian restoration project 
along eight miles of creek near the City of Ashland. Funding for the 
project will be disbursed over 15 years but Oregon will only get credit 
for the project in the year the loan is executed.
    Allowing SRFs to earn credit for green projects over multiple years 
or measuring funding for green projects over a rolling three-year 
average would ensure investment in green projects is recognized and 
transformational green projects are realized.
    Fewer federal mandates on SRF loan recipients can promote 
investment in sustainable and resilient water infrastructure. According 
to a recent survey of the SRFs, the number one challenge to increasing 
investment in water infrastructure is the cumulative impact of all 
federal mandates. Today, federal mandates dictate the way communities 
select their engineer, the wages paid to mechanics and laborers on 
their construction project, and the materials and technologies used in 
construction of their project. None of these requirements existed a 
decade ago.
    Too often, these one-size-fits-all federal mandates increase 
paperwork and process without providing additional protection for 
public health, the environment or taxpayer funds. Many federal mandates 
are duplicative of state requirements, creating twice the work without 
any significant additional benefit. Many federal requirements apply to 
projects funded by state funds.
    Compliance with federal mandates increases the cost of water 
infrastructure, particularly for small communities who can least afford 
it. Many small and even some medium-sized communities don't have the 
professional staff to comply with the myriad of federal rules and 
requirements. As a result, communities are hesitant, even reluctant, to 
undertake investment in water infrastructure.
    The federal mandate requiring SRFs loan applicants to demonstrate 
compliance with federal prevailing wage laws is very prescriptive. 
Paying the prevailing government wage for SRF funding water 
infrastructure is not an issue. Often, workers are paid more than the 
prevailing federal wage to be competitive with other construction 
projects, particularly in growing communities with robust economies. 
The problem is the prescriptive paperwork and process required to 
demonstrate compliance, even when workers are paid more than the 
federal prevailing wage.
    The compliance burden is particularly onerous in states with a 
state prevailing wage law. In the 26 states and the District of 
Columbia that have a state prevailing wage law, SRFs, loan recipients 
and contractors must comply with two sets of compliance procedures, 
doubling the workload without providing any additional financial 
benefit for workers.
    Adopting state prevailing wage laws for water infrastructure (which 
is routine for highway construction projects) and allowing compliance 
with state prevailing wage laws to be accepted in lieu of federal 
compliance procedures would alleviate the burden while maintaining fair 
wages for workers.
    The federal mandate requiring SRF loan recipients to use the 
federal procurement process for engineering services has a significant 
impact in some, but not all, states. The Water Resources Development 
Act of 2014 requires SRF loan recipients that receive federal funding 
from the capitalization grant to use of the federal procurement process 
for selecting engineering services. Under the federal procurement 
process, engineers must be selected based solely on qualifications.
    This federal mandate has little impact in about two-thirds of 
states that have a procurement process similar to the federal 
procurement process; these state laws are often referred to as a 
``mini'' Brooks Act. However, this federal mandate has had a 
significant impact on SRF loan applicants in other states whose state 
procurement laws conflict with the federal requirements. For example, 
the Massachusetts SRF no longer funds engineering services with federal 
funds; two separate loan agreements are executed for the same project--
one for engineering services funded by state funds and one for 
construction funded by federal funds.
    The federal mandate requiring SRF loan recipients to make specific 
certifications increases the cost of water infrastructure, especially 
for small and rural communities. The Water Resources Development Act of 
2014 mandates that all SRF loan recipients certify that they conducted 
a cost-and-effectiveness analysis and have selected the activity that 
maximizes the potential for water and energy efficiency. The law also 
mandates that all SRF loan recipients certify that they have developed 
a funding plan to maintain assets built using SRF funds and will 
implement water and energy conservation efforts as part of the plan.
    While many large utilities can comply with these requirements using 
in-house staff, smaller communities must hire an outside consultant to 
meet these requirements which increases the cost of water 
infrastructure. Additionally, many small communities, particularly 
those with shrinking populations and limited revenue, lack the 
professional capacity to ensure continued compliance with the 
certifications. As a result, plans are often shelved shortly after 
construction is completed.
    States need a reliable source of funding to ensure robust 
participation in the Clean Watershed Needs Survey. States, including 
many SRFs, are responsible for collecting data and documentation for 
the Clean Watershed Needs Survey but many don't have adequate financial 
resources or staff to dedicate to the effort. Allowing states to use 
\1/2\% of their capitalization grant would guarantee funding for 
participation in the survey.
    Small, rural, disadvantaged and underserved communities need 
technical assistance. The Drinking Water SRF has the ability to use 2% 
of their annual capitalization grant to provide technical assistance to 
communities that serve a population of 10,000 or fewer. Providing the 
same financial resources for projects funded by the Clean Water SRF 
would provide significant assistance to communities that lack the 
professional resources to plan and build these important projects.
    Thank you again for the opportunity to share these thoughts with 
you. The SRF community looks forward to working with you to strengthen 
the state-federal partnership that has proven its effectiveness in 
funding water infrastructure that protects public health and the 
environment.
    If you would like more information about the SRFs or our policy 
recommendations, please visit. www.cifanet.org or 
www.MoreProtectionLessProcess.org, or contact our Executive Director, 
Deirdre Finn, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8f8d828585ab88828d8a858e9fc584998cc5">[email&#160;protected]</a>

    Mrs. Napolitano. Thank you very much, Mr. Colson, that was 
very insightful.
    Mr. Perry, you may proceed.
    Mr. Perry. Well, thank you, Chair Napolitano, Ranking 
Member Rouzer, and members of the subcommittee, for the 
opportunity to testify on the valuable work being done by 
landscape architects in the water and stormwater management 
space. My name is Kevin Robert Perry, and I am a licensed 
landscape architect and internationally recognized leader in 
successfully integrating stormwater management with high-
quality urban design. I work as a senior landscape architect at 
Toole Design Group, and I am also the founder of Urban Rain 
Design, a small design studio based in both California and 
Oregon.
    I am here today on behalf of the American Society of 
Landscape Architects, or ASLA, where I have been a fellow since 
2017. ASLA believes that water quality is essential to our 
economy, communities, and environment. By working to protect 
it, our membership of landscape architects plays a critical 
role in sustainability and public health. Unsustainable 
development practices and continued expansion of paved surfaces 
increases stormwater runoff, carries pollutants into waterways, 
prevents groundwater recharge, and drastically reduces the 
landscape's ability to respond to everyday storm events, much 
less the current and future challenges of climate change.
    While the United States has generally had success in 
protecting water quality, EPA research has found that nonpoint 
source pollution remains the leading cause of water quality 
problems.
    This is where landscape architects are stepping up and 
playing a key role. We are at the forefront of developing 
innovative design strategies that promote sustainability, 
resiliency, and a balanced vibrancy between our built and 
natural environment. We plan and design nature-based systems 
that reduce the impacts of urbanization, integrate these 
solutions seamlessly into our cities and towns, and, in 
general, are a multifunctional design approach that allows for 
less destructive human relationship with the natural 
environment.
    Landscape architecture practices also provide a key equity 
and environmental justice solution. One such practice is 
performing meaningful community engagement during the design 
and planning process. Often the communities that stand to 
benefit the most from our work are the low-income and racially 
diverse communities that have been damaged by years of 
underinvestment and disinvestment. This includes communities 
located in small towns, large cities, and all areas in between. 
ASLA and its members are committed to utilizing our trade to 
directly improve the lives of underinvested communities.
    Green infrastructure also leads to job creation. According 
to the national organization Green for All, a $188 billion 
investment in stormwater management would generate $265 billion 
in economic activity, and create nearly 1.9 million jobs. 
Furthermore, green infrastructure is good for small businesses, 
as many landscape architects work for or run their own small 
firms.
    It is important to also know that green infrastructure can 
be implemented across a wide range of scale: resilient 
coastlines, riverfronts, regional parks, and interconnected 
green streets can be realized at the citywide scale, while rain 
gardens and a robust use of street trees can grace nearly any 
neighborhood space. With thousands of our schools, roads, 
parks, and other civic space infrastructure either breaking 
down or inefficiently designed, there is an incredible 
opportunity to boldly retrofit our built environment with long-
lasting green infrastructure strategies.
    And one avenue of green infrastructure that is starting to 
take root on the west coast is the design-build concept of the 
tactical green infrastructure. This unique student practitioner 
partnership identifies, designs, and constructs expedited green 
infrastructure projects within a couple of months, and directly 
involves the local community through the process. While 
originating in Oregon and California, we believe that a 
coordinated tactical green infrastructure program could be 
expanded to every State within the United States.
    ASLA and its members appreciate the committee's support for 
legislation promoting green infrastructure, including the Water 
Quality Protection and Job Creation Act of 2021.
    We also appreciate the committee's support for the Clean 
Water State Revolving Fund, and specifically the green project 
reserve, which mandates that at least 10 percent of funds are 
used by States for green infrastructure projects. Many 
landscape architecture projects would not be possible without 
the help of this program.
    For these reasons, ASLA is supportive of increased funding 
to the Clean Water State Revolving Fund, making the green 
project reserve permanent, increasing its minimum percentage, 
and allowing funding for the long-term maintenance of green 
infrastructure projects.
    With that, I would like to thank the committee for the 
opportunity to testify today.
    ASLA looks forward to working with you and your colleagues 
to ensure that Congress leverages the field of landscape 
architecture when striving for its climate adaptation and 
sustainability goals. Thank you.
    [Mr. Perry's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Kevin Robert Perry, FASLA, Fellow, American 
                    Society of Landscape Architects
     American Society of Landscape Architects and Urban Rain Design
    Thank you Chair Napolitano, Ranking Member Rouzer, and Members of 
the subcommittee for the opportunity to testify on the valuable work 
being done by landscape architects in the water and stormwater 
management space.
    My name is Kevin Robert Perry and I am a licensed landscape 
architect and an internationally recognized leader in successfully 
integrating stormwater management with high-quality urban design.
    I work as a Senior Landscape Architect at Toole Design Group with a 
specific expertise in intertwining green infrastructure with innovative 
multimodal streetscape design. I am also the founder of Urban Rain 
Design, a small design studio based in both California and Oregon that 
specializes in using Tactical Green Infrastructure to rapidly implement 
simple, cost-effective, and beautiful public space stormwater projects.
    I am here today on behalf of the American Society of Landscape 
Architects (ASLA), where I have been a Fellow since 2017.
    ASLA believes that water quality is essential to our economy, 
communities, and environment. By working to protect it, our membership 
of landscape architects plays a critical role in community 
sustainability and public health.
    Landscape architects address water quality through ecologically-
based practices that help reduce or remove pollutants in urban, rural, 
and conservation areas. To help protect water quality and conserve 
valuable water resources, ASLA encourages planning, design management, 
and policies that are science-based, collaborative, creative, and 
equitable.
                   The Value of Green Infrastructure
    Ample clean water supplies are necessary to help preserve health, 
sustain quality of life, support economic stability, and maintain 
environmental quality.
    Unsustainable development practices, poorly designed 
infrastructure, population growth, and other factors continue to 
threaten water quality and emphasize the need for the wiser and more 
creative use of resources. Urban sprawl and the expansion of paved 
surfaces increases volume and speed of storm flows, carries pollutants 
into streams, prevents groundwater recharge, and drastically reduces 
the landscape's ability to respond to everyday storm events, much less 
the current and future challenges of climate change.
    In much of the country, especially in older cities and towns, 
stormwater is funneled into our wastewater systems. During intense rain 
events, these systems can become overwhelmed resulting in stormwater 
overflow being released into nearby waters--along with all of the 
untreated sewage, debris, pesticides, and anything else caught in the 
underground pipe system.
    While the United States has generally had success in protecting 
water quality, EPA research has found that nonpoint source pollution, 
the type of water pollution I just described, remains the leading cause 
of water quality problems.
    This is where landscape architects are stepping up and playing a 
key role. We are at the forefront of developing innovative design 
strategies that promote sustainability, resiliency, and a balanced 
vibrancy between our built and natural environment. By incorporating 
cost-effective and innovative green infrastructure methods into our 
projects, we plan and design landscaped-based systems that reduce the 
impacts of flooding, contain the movement of pollutants and other 
debris, help infiltrate stormwater on-site, increase biodiversity, and 
integrate these nature-based solutions seamlessly into our cities and 
towns.
    In areas where drought and inadequate water supply is of top 
concern, green infrastructure may also be a viable solution, helping to 
replenish local groundwater reserves and recharging aquifers. We also 
promote and incorporate the use of sustainably-designed greywater 
systems and other water capture measures to help reduce the need for 
external water sources.
    In general, the landscape architect's multi-functional, multi-
purpose design solutions allows for a less destructive human 
relationship with the natural environment.
    Landscape architecture practices also provide a key equity and 
environmental justice solution. One such practice is performing 
meaningful community engagement during the design and planning process. 
Often, the communities that stand to benefit the most from our work are 
the low-income and racially diverse communities that have been damaged 
by years of underinvestment and disinvestment. This includes 
communities located in small towns, large cities, and all areas in 
between. ASLA and its members are committed to utilizing our trade to 
directly improve lives in underserved communities; and community 
engagement and green infrastructure can be important tools to aid in 
this effort.
    Green infrastructure also leads to job creation. According to Green 
For All, a national organization working to build an inclusive green 
economy, a $188.4 billion investment in stormwater management would 
generate $265.6 billion in economic activity and create close to 1.9 
million jobs. Furthermore, green infrastructure is good for small 
businesses, as many landscape architects work for or run their own 
small firms, as I have for nearly a decade.
                   Green Infrastructure Across Scales
    One of the greatest benefits of using green infrastructure is that 
it can be implemented across a wide range of scale and community 
contexts. Resilient coastlines/riverfronts, regional parks, and 
interconnected green transportation corridors can be realized at the 
large citywide-scale; while rain gardens, pervious paving, and a robust 
use of street trees can grace nearly any neighborhood-scale space. With 
thousands of our schools, roads, parks, and other civic space 
infrastructure either breaking down or inefficiently designed, there is 
an incredible opportunity to boldly retrofit our built environment with 
long-lasting green infrastructure strategies.
                     Tactical Green Infrastructure
    One avenue of green infrastructure that is starting to take root on 
the West Coast is the concept of Tactical Green Infrastructure. While 
many infrastructure projects can take years to be fully implemented, 
Tactical Green Infrastructure is a specialized design-build methodology 
that allows professional design practitioners, students, and/or 
volunteers to work together to identify, design, and construct 
expedited green infrastructure projects at public schools, parks, and 
even some street locations. These small-scale projects convert either 
existing paved or underutilized green space into highly functional rain 
garden landscapes within a couple of months--and directly involve the 
local community through the process. This kind of low-cost, effective, 
and quickly built Green Infrastructure can be a simple national model 
but with near-term and tangible results realized at the neighborhood 
level. While conceived in both Oregon and California, we believe a 
coordinated Tactical Green Infrastructure approach, led by landscape 
architects, has immense potential to expand throughout the United 
States.
       The Water Quality Protection and Job Creation Act of 2021
    ASLA and its members appreciate the committee's support for 
legislation promoting green infrastructure, including H.R. 1915--the 
Water Quality Protection and Job Creation Act of 2021, which would help 
states and local communities fund green infrastructure projects that 
protect water.
    We are also appreciative of the committee's support for the Clean 
Water State Revolving Fund, and specifically the Green Project Reserve, 
which mandates that at least 10% of funds are used by states for green 
infrastructure projects. Since states and localities typically do not 
have their own funding mechanisms to keep their water infrastructure 
safe, up to date, and within the requirements of the Clean Water Act, 
many landscape architecture projects would not be possible without the 
help of this program.
    For these reasons, ASLA is supportive of increased funding to the 
Clean Water SRF, as well as making the Green Project Reserve permanent 
and increasing its minimum percentage. To make projects even more 
sustainable and resilient, the Clean Water SRF should also be adjusted 
to allow for the funding of long-term maintenance projects as well.
                               Conclusion
    With that, I thank the committee for inviting me to testify today. 
ASLA looks forward to working with you and your colleagues to ensure 
that Congress leverages the field of landscape architecture when 
striving for its climate adaptation and sustainability goals.
                                addendum
Tactical Green Infrastructure: A Pacific Rim Superstudio March 2021 
        (Brochure)
    [This document is retained in committee files and is available 
online at the House of Representatives Document Repository at https://
docs.house.gov/meetings/PW/PW02/20210421/112472/HHRG-117-PW02-Wstate-
PerryK-20210421-SD001.pdf]

    Mrs. Napolitano. Thank you very much, Mr. Perry. It was 
very interesting, because there are several in my area that I 
have visited, and they are very nice. We move on to Ms. Hammer.
    Ms. Hammer, you may proceed.
    Ms. Hammer. Thank you, Chair Napolitano, and good morning, 
Chair DeFazio, Ranking Member Rouzer, and members of the 
subcommittee. Thanks for the opportunity to testify today. My 
name is Becky Hammer, and I am the deputy director of Federal 
water policy for the Natural Resources Defense Council.
    NRDC is an international, nonprofit organization working to 
protect public health and ensure a safe, sustainable 
environment for all people. And that includes clean water.
    Everyone in America should have access to wastewater and 
stormwater infrastructure that works. No matter where they are 
located, these systems should provide communities with clean 
waterways, effective sanitation, and protection from urban 
flooding. That is not the reality for far too many people.
    Across the country, polluted runoff and sewage degrade our 
sources of drinking water, while rainwater floods our streets 
and homes. And of course, climate change is only making matters 
worse, as Ms. Powell already described so vividly. And the 
impacts of failing infrastructure and our changing climate fall 
disproportionately on low-income communities and communities of 
color, who already bear the burden of unaffordable water and 
sewer costs.
    In light of these threats, wastewater and stormwater 
systems must take steps to become more resilient and 
sustainable, as so many are already doing.
    One of the best ways to do that is by using green 
infrastructure, which manages water by capturing it where it 
falls, using vegetation, soils, and permeable surfaces. Green 
infrastructure reduces stormwater volumes, leading to cleaner 
waterways, reduced wastewater treatment needs, less flooding, 
and increased groundwater supplies. It is adaptable, and it is 
cost effective.
    And critically, unlike single-purpose, hard infrastructure 
that is designed solely to move stormwater away from the built 
environment, green infrastructure provides multiple benefits to 
communities. It helps build resilience to flooding and other 
climate impacts, and it also provides climate mitigation 
benefits by storing carbon and reducing energy demand. And 
because many of green infrastructure's benefits are hyper-
local, project implementation can be geographically targeted to 
enhance equity and improve access to green space in underserved 
areas.
    The Federal Government should use every tool at its 
disposal to encourage the use of green infrastructure, 
including the Clean Water State Revolving Fund's green project 
reserve, a significant source of funding for green 
infrastructure and water and energy efficiency projects that 
has, nonetheless, been underutilized. Since the establishment 
of the green project reserve in 2009, only 11 percent of total 
Clean Water SRF assistance has gone to green reserve projects, 
with less than 3 percent going to green infrastructure, 
specifically.
    Up until now, the green project reserve has been enacted 
year to year in appropriations bills, and the amount allocated 
to it has fluctuated over time. This approach makes potential 
applicants uncertain about whether the reserve will be 
available to support their projects in future years. This 
uncertainty depresses long-term demand for funds.
    Congress can help the green project reserve function more 
effectively by codifying it in statute, making it a permanent 
and stable source of funding. Ideally, 20 percent of the annual 
SRF capitalization grant would be set aside for green projects.
    Just as importantly, Congress should provide significantly 
more money for the Clean Water SRF, as a whole, at least the $8 
billion per year that is proposed in H.R. 1915. Our communities 
have hundreds of millions of dollars in need, with costs 
increasing, and the pandemic stressing utilities' finances. 
Increasing the total amount of Federal investment would make 
more funding available for all projects, including green 
projects.
    At the same time, Congress should increase the proportion 
of that new funding that is provided as additional 
subsidization. In other words, grants and principal 
forgiveness. Additional subsidization is a lifeline for project 
applicants that cannot afford to take out a traditional, low-
interest loan. But green projects compete for subsidy with 
projects that serve disadvantaged communities, and there isn't 
enough to go around.
    Another barrier to the green project reserve is the fact 
that many potential project applicants simply aren't aware that 
it exists, while others lack the expertise to complete the 
application materials. Congress can reduce this obstacle by 
providing the States with more resources for outreach and 
technical assistance.
    Of course, the green project reserve isn't the only 
mechanism available to promote sustainable water 
infrastructure. Congress should set up new grant programs to 
diversify funding options for water resiliency efforts. And it 
should require climate change information to be considered in 
the planning of all clean water infrastructure projects as a 
condition of providing Federal assistance.
    Last, but certainly not least, Congress should establish a 
permanent, low-income water and sewer assistance program, and 
adopt other reforms to improve water affordability. This would 
allow utilities to implement resilience projects and other 
upgrades without imposing burdens on their low-income 
customers.
    I would be happy to discuss any of these recommendations in 
more detail. Thank you.
    [Ms. Hammer's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Rebecca Hammer, Deputy Director of Federal Water 
               Policy, Natural Resources Defense Council
    Chair DeFazio, Ranking Member Graves, Subcommittee Chair 
Napolitano, Subcommittee Ranking Member Rouzer, and members of the 
Subcommittee:
    Thank you for the opportunity to testify today about the need to 
ensure the resilience and sustainability of our nation's clean water 
infrastructure. My name is Rebecca Hammer, and I am the deputy director 
of federal water policy for the Natural Resources Defense Council 
(NRDC). NRDC is an international, non-profit environmental organization 
working to protect the world's natural resources, improve public 
health, and ensure a safe and sustainable environment for all.
                          Summary of Testimony
    Our nation is facing a moment of tremendous opportunity. As leaders 
in Congress and the administration propose new investments in America's 
infrastructure, we have a once-in-a-generation chance to meet the 
enormous financial need our wastewater and stormwater systems have 
accrued over the decades. Now is the time to think big: to provide 
every person in this country with first-class clean water 
infrastructure, to ensure the long-term viability of that 
infrastructure in a changing environment, and to lift up families and 
communities who struggle to bear the burden of unaffordable water and 
sewer costs. In my testimony, I will focus on the importance of 
promoting resilient, sustainable solutions as part of this increased 
investment, with a particular emphasis on multi-beneficial green 
infrastructure practices.
    To achieve this goal, NRDC recommends:
    <bullet>  Making the Green Project Reserve (GPR) a permanent 
feature of the Clean Water State Revolving Fund (CWSRF) by codifying it 
in statute.
    <bullet>  Significantly increasing overall CWSRF funding to $10 
billion per year.
    <bullet>  Increasing the proportion of CWSRF assistance provided as 
additional subsidization.
    <bullet>  Providing more resources for outreach and technical 
assistance to potential GPR applicants.
    <bullet>  Requiring increased transparency around the effectiveness 
of the GPR.
    <bullet>  Taking additional actions beyond the GPR to promote 
sustainable and resilient clean water infrastructure, including:
      +  Authorizing and funding new grant programs for clean water 
resiliency projects;
      +  Adopting a low-income water and sewer assistance program and 
promoting equitable local rate structures;
      +  Requiring climate change information to be considered in the 
planning of clean water infrastructure projects as a condition of 
receiving federal assistance; and
      +  Requiring the Environmental Protection Agency (EPA) to adopt 
regulations fully implementing the green project provisions in the 
Water Resources Reform and Development Act (WRRDA 2014).
 America's Wastewater and Stormwater Systems Face Vulnerabilities That 
 Threaten Their Ability to Deliver Clean Water, Thriving Communities, 
                       and a Healthy Environment.
    All people in America should have access to wastewater and 
stormwater infrastructure that works. No matter where they are located, 
these systems should provide communities with clean waterways, 
effective sanitation, and protection from urban flooding.
    Yet in many areas, our nation's infrastructure is not up to the 
task of meeting those objectives. Pipes, septic tanks, and treatment 
facilities have exceeded their intended lifespans and are breaking 
down. Fifteen percent of wastewater treatment plants have already 
reached or exceeded their design capacity.\1\ Stormwater systems are 
not capable of handling the increasingly vast quantities of runoff 
generated by sprawling development.
---------------------------------------------------------------------------
    \1\ American Society of Civil Engineers, 2021 Report Card for 
America's Infrastructure: Wastewater, https://
infrastructurereportcard.org/wp-content/uploads/2020/12/Wastewater-
2021.pdf.
---------------------------------------------------------------------------
    As a result, sewage spills foul our waterways, polluted stormwater 
degrades once-productive ecosystems, and rainwater floods our streets 
and homes. The American Society of Civil Engineers rated the nation's 
wastewater infrastructure a D+, and its stormwater infrastructure a D, 
in its 2021 infrastructure report card.\2\
---------------------------------------------------------------------------
    \2\ American Society of Civil Engineers, 2021 Report Card for 
America's Infrastructure, https://infrastructurereportcard.org/.
---------------------------------------------------------------------------
    Meanwhile, climate change is adding further stress to these 
systems. Heavy precipitation events and extreme storms are growing more 
frequent, increasing disruptive flood events in communities across the 
country. Our infrastructure is struggling to keep up. Most stormwater 
systems are designed to handle the ``10-year'' or ``100-year'' storm, 
concepts that climate change has rendered obsolete. Urban flooding 
already results in $9 billion in damages each year, a figure that is 
certain to grow unless we take swift action to adapt and modernize our 
infrastructure.\3\
---------------------------------------------------------------------------
    \3\ National Academies of Sciences, Engineering, and Medicine, 
Framing the Challenge of Urban Flooding in the United States (2019), 
https://www.nap.edu/catalog/
25381/framing-the-challenge-of-urban-flooding-in-the-united-states.
---------------------------------------------------------------------------
    Increased flooding frequency also poses a threat to wastewater 
service. Wastewater treatment plants are typically located at low 
elevations and along coastlines, which makes them particularly 
susceptible to floods and sea level rise. When tanks and pipes are 
inundated, these facilities can discharge raw sewage into nearby 
communities and waterways. In 2017, flooding from Hurricane Harvey 
caused 40 wastewater treatment facilities to become inoperable and led 
to the release of 23 million gallons of untreated wastewater.\4\ Even 
smaller flooding events, if they occur more often, can impose 
significant costs, such as frequent pumping to keep parts dry and a 
reduced lifespan of components exposed to water. Worryingly, a recent 
study estimated that four million people in the U.S. could lose access 
to municipal wastewater services with 30 centimeters (around 1 foot) of 
sea level rise; this estimate rises to 31 million people if sea level 
rise reaches 180 centimeters (around 6 feet).\5\
---------------------------------------------------------------------------
    \4\ Texas Commission on Environmental Quality, Sanitary Sewer 
Overflows from Hurricane Harvey, https://www.tceq.texas.gov/response/
hurricanes/sanitary-sewer-overflows; Hurricane Harvey: Status Summary 
of Impacted Public Drinking Water and Wastewater Systems, https://
www.tceq.texas.gov/assets/public/response/hurricanes/hurricane-harvey-
tracking-summary.pdf.
    \5\ Michelle Hummel et al., ``Sea Level Rise Impacts on Wastewater 
Treatment Systems Along the U.S. Coasts,'' Earth's Future (2018), 
https://agupubs.onlinelibrary.wiley.com/doi/10.1002/2017EF000805.
---------------------------------------------------------------------------
    On-site decentralized wastewater treatment systems, such as septic 
systems, are also threatened by climate change.\6\ Higher temperatures, 
increased heavy precipitation events, and sea level rise affect the 
performance of these systems by reducing the volume of unsaturated soil 
and oxygen available for treatment, which may result in system 
failure.\7\
---------------------------------------------------------------------------
    \6\ See Sarah Kaplan, ``Battling America's `Dirty Secret,' '' 
Washington Post, December 17, 2020, https://www.washingtonpost.com/
climate-solutions/2020/12/17/climate-solutions-sewage/.
    \7\ Jennifer A. Cooper at al., ``Hell and High Water: Diminished 
Septic System Performance in Coastal Regions Due to Climate Change,'' 
PLoS ONE (2016), https://journals.plos.org/
plosone/article?id=10.1371/journal.pone.0162104.
---------------------------------------------------------------------------
    Changing precipitation is driving changes in water quality as well. 
As more intense precipitation leads to increased runoff, more 
stormwater pollution is washed into our waterways: sediments, nitrogen 
from agriculture, disease pathogens, pesticides, herbicides, and more. 
Combined sewer systems in cities such as Philadelphia and Richmond are 
already experiencing more frequent overflows as their treatment 
capacity is overwhelmed during large storms.\8\ This pollution imposes 
steep costs on communities, including increased treatment costs for the 
two-thirds of America's drinking water that comes from rivers, streams, 
and lakes.
---------------------------------------------------------------------------
    \8\ Frank Kummer, ``The Secret Scourge of Climate Change? More Raw 
Sewage in Philadelphia's Waterways,'' Philadelphia Inquirer, September 
13, 2019; Daniel Berti, ``More Rainfall, A Consequence of Climate 
Change, Expected to Make Sewage Overflows Worse,'' Virginia Mercury, 
April 15, 2019.
---------------------------------------------------------------------------
    In some regions, climate change is also exacerbating water 
scarcity. Yet many wastewater and stormwater systems fail to adopt 
measures that could combat scarcity through wastewater recycling and 
stormwater capture for reuse.
    The impacts of failing infrastructure and our changing climate 
often fall the hardest on low-income communities and communities of 
color. In many cities, historically redlined neighborhoods are exposed 
to a higher risk of flooding than other areas.\9\ Black communities in 
Lowndes County, Alabama and Tribal communities in the Southwest have 
faced disproportionate challenges in access to sanitation. Making 
matters worse, low-income families and people of color often bear the 
heaviest burden of rising water and sewer costs.
---------------------------------------------------------------------------
    \9\ Kriston Capps and Christopher Cannon, ``Redlined, Now 
Flooding,'' Bloomberg CityLab, March 15, 2021, https://
www.bloomberg.com/graphics/2021-flood-risk-redlining/.
---------------------------------------------------------------------------
    In light of these threats, wastewater and stormwater systems must 
take immediate steps to become more resilient and sustainable so that 
they can continue to serve their communities effectively and 
affordably, now and in the future.
  Green Infrastructure Can Increase the Resilience of Wastewater and 
   Stormwater Systems While Providing a Wide Array of Other Benefits.
    In the context of municipal water management, green infrastructure 
means mimicking nature by capturing rainwater where it falls. Practices 
that incorporate vegetation, soil, and permeable surfaces help to 
maintain and restore natural hydrology by infiltrating water into the 
ground, soaking it up with plants, and harvesting it for reuse. Green 
infrastructure practices include bioretention, trees, green roofs, 
permeable pavements, and cisterns. Landscape-scale practices such as 
wetland restoration and floodplain protection can function in tandem 
with smaller neighborhood-scale projects.
    Green infrastructure reduces stormwater volumes and pollutant 
loads, leading to cleaner waterways, reduced wastewater treatment needs 
for combined sewer systems, reduced flooding, and increased groundwater 
recharge. Although still considered novel by some practitioners, green 
infrastructure practices have been in use for decades. They are proven 
and predictable technologies and should no longer be viewed as 
``alternative treatments'' to hard or gray infrastructure. Rather, 
utilities should consider green infrastructure a core strategy for 
achieving their water quality, flood control, and public health 
objectives.
    Because they are so varied and adaptable, green infrastructure 
practices are an extremely flexible tool. They can be integrated into 
nearly any development project, including surface transportation 
projects.\10\ They can also be implemented in concert with traditional 
gray infrastructure approaches to enhance the sustainability of 
wastewater treatment and collection systems.\11\ When full life-cycle 
costs are considered--including long-term operations and maintenance--
green infrastructure is frequently more cost-effective than gray 
infrastructure.\12\ As a result, it can reduce the costs of water 
quality compliance and flood control for communities and ratepayers.
---------------------------------------------------------------------------
    \10\ See NRDC, After the Storm: How Green Infrastructure Can 
Effectively Manage Stormwater Runoff from Roads and Highways (2011), 
https://www.nrdc.org/sites/default/files/
afterthestorm.pdf.
    \11\ See World Bank, Integrating Green and Gray: Creating Next 
Generation Infrastructure (2019), https://www.worldbank.org/en/news/
feature/2019/03/21/green-and-gray.
    \12\ Environmental Protection Agency, Green Infrastructure Cost-
Benefit Resources, https://www.epa.gov/green-infrastructure/green-
infrastructure-cost-benefit-resources.
---------------------------------------------------------------------------
    Critically, unlike single-purpose hard infrastructure designed 
solely to move stormwater away from the built environment, green 
infrastructure provides multiple benefits for communities. The 
Environmental Protection Agency (EPA) has identified a wide range of 
environmental, social, and economic benefits provided by green 
infrastructure beyond its core stormwater management functions, 
including improved air quality, reduced urban heat island effect, 
wildlife habitat, energy efficiency, access to green space, reduced 
traffic noise, enhanced social interaction and recreation, improved 
community aesthetics, and reduced crime.\13\
---------------------------------------------------------------------------
    \13\ EPA Office of Research and Development, Healthy Benefits of 
Green Infrastructure in Communities (2017), https://www.epa.gov/sites/
production/files/2017-11/documents/green
infrastructure_healthy_communities_factsheet.pdf.
---------------------------------------------------------------------------
    Green infrastructure is a powerful tool for addressing climate 
change. Not only does it help communities adapt to the impacts of 
climate change by reducing flooding, augmenting groundwater supplies, 
and cooling the air, it also provides climate mitigation benefits by 
storing carbon and reducing energy demand.\14\ Implementation of small-
scale, distributed green practices can easily be scaled up or down when 
conditions change. This provides a key advantage over hard 
infrastructure, which is ``locked in'' after construction and not 
readily adaptable to new rainfall patterns.
---------------------------------------------------------------------------
    \14\ See Center for Neighborhood Technology, The Value of Green 
Infrastructure: A Guide to Recognizing Its Economic, Environmental and 
Social Benefits (2010), https://www.cnt.org/sites/default/files/
publications/CNT_Value-of-Green-Infrastructure.pdf.
---------------------------------------------------------------------------
    Because many of green infrastructure's benefits are hyperlocal, 
project implementation can be geographically targeted--through 
meaningful engagement with community members--to enhance equity and 
improve access to green space in underserved areas.\15\ Finally, green 
infrastructure investment supports local, sustained jobs that boost 
regional economies.\16\
---------------------------------------------------------------------------
    \15\ See Megan Heckert (West Chester University) and Christina 
Rosan (Temple University), Creating GIS-Based Planning Tools to Promote 
Equity Through Green Infrastructure (2018), https://
www.frontiersin.org/articles/10.3389/fbuil.2018.00027/full.
    \16\ See Jobs for the Future, Exploring the Green Infrastructure 
Workforce (2017), https://mikenowak.net/wp-content/uploads/2020/01/
Exploring-the-Green-Infrastructure-Workforce.pdf.
---------------------------------------------------------------------------
    The federal government should use every tool at its disposal to 
promote and encourage the use of green infrastructure in wastewater and 
stormwater systems around the country.
  The Clean Water State Revolving Fund's Green Project Reserve Is an 
    Important Source of Funding for Green Infrastructure and Other 
          Beneficial Projects, But It Has Been Underutilized.
    The largest source of federal funding and financing for clean water 
infrastructure projects, including green infrastructure, is the Clean 
Water State Revolving Fund. Since its inception, the CWSRF has provided 
$145 billion in assistance, most which has been in the form of low-
interest loans.\17\
---------------------------------------------------------------------------
    \17\ EPA, Clean Water SRF Program Information: National Summary 
(2021), https://www.epa.gov/sites/production/files/2021-02/documents/
us20.pdf.
---------------------------------------------------------------------------
    For its first two decades, the CWSRF did not fund many green 
infrastructure projects. According to the EPA, many states had ``little 
or no history'' of funding green projects because their programs 
focused on traditional infrastructure, or because state law presented 
obstacles.\18\ Then, in 2009, Congress passed the American Recovery and 
Reinvestment Act (ARRA). ARRA provided supplemental appropriations for 
the CWSRF and required that states allocate at least 20 percent of 
these new funds as a Green Project Reserve (GPR) for green 
infrastructure, water efficiency, energy efficiency, and other 
environmentally innovative projects. It also made GPR projects eligible 
for ``additional subsidization'' (grants, negative interest rate loans, 
or principal forgiveness).\19\ Since 2009, Congress has extended the 
GPR in appropriations acts each year, though starting in FY2012 the 
requirement was reduced from 20 percent to 10 percent of the state's 
annual CWSRF capitalization grant.\20\
---------------------------------------------------------------------------
    \18\ EPA, ARRA Clean Water State Revolving Fund Green Project 
Reserve Report (2012), p. 8, https://www.epa.gov/sites/production/
files/2015-04/documents/arra_green_project_reserve_
report.pdf.
    \19\ American Recovery and Reinvestment Act of 2009, P.L. 111-5 
(123 Stat. 169).
    \20\ See Congressional Research Service, ``Greening'' EPA's Water 
Infrastructure Programs through the Green Project Reserve (2016), 
https://www.everycrsreport.com/reports/IN10540.html.
---------------------------------------------------------------------------
    The establishment of the Green Project Reserve led many states to 
fund green infrastructure projects with CWSRF resources for the first 
time. Over the past twelve years, the GPR has funded hundreds of these 
projects across the country--everything from urban reforestation and 
wetlands preservation to green roofs and roadway retrofits. 
Additionally, the GPR has supported energy efficiency and water 
efficiency projects that advance clean water objectives by upgrading 
the efficiency of pumps and motors, powering clean water facilities 
with renewable energy from on-site resources, and reducing both 
customer and facility water use. Decentralized wastewater treatment 
solutions in areas lacking access to sanitation are also eligible for 
the GPR in the ``environmentally innovative'' category.\21\
---------------------------------------------------------------------------
    \21\ EPA, ``2012 Clean Water State Revolving Fund 10% Green Project 
Reserve: Guidance for Determining Project Eligibility,'' pp. 11-12, 
https://www.epa.gov/sites/production/
files/2015-04/documents/green_project_reserve_eligibility_guidance.pdf.
---------------------------------------------------------------------------
    Overall, however, the CWSRF has been underutilized as a funding 
source for green projects. Since the establishment of the Green Project 
Reserve in 2009, EPA data indicate that only 11 percent of total CWSRF 
assistance has gone to GPR projects ($8.6 billion out of $78 billion), 
and less than 3 percent of total CWSRF assistance over that time period 
has gone to green infrastructure specifically ($2 billion out of $78 
billion).\22\
---------------------------------------------------------------------------
    \22\ EPA, Clean Water SRF Program Information: National Summary 
(2021).
---------------------------------------------------------------------------
    Note that these proportions are not necessarily inconsistent with 
the requirement for each state to allocate 20 percent or (after FY2012) 
10 percent of its annual capitalization grant to GPR projects. The 
amount of total CWSRF assistance that a state provides to applicants 
each year comes from a pot of money that includes not only the annual 
capitalization grant from the federal government but also state 
matching funds, loan repayments, leverage bonds, and investment 
earnings. Thus a state's investment in GPR projects could surpass 10 or 
20 percent of its capitalization grant while making up a smaller 
percentage of the overall assistance the state disburses to projects 
that year. The Congressional Research Service found that states 
allocated 26 percent of their capitalization grants to GPR projects 
between 2009 and 2016.\23\
---------------------------------------------------------------------------
    \23\ Congressional Research Service, ``Greening'' EPA's Water 
Infrastructure Programs through the Green Project Reserve (2016).
---------------------------------------------------------------------------
    Green infrastructure has received less CWSRF investment than other 
Green Project Reserve categories, despite the fact that green 
stormwater projects have been found to have ``the most secondary 
benefits'' of all GPR project types.\24\ However, it is difficult to 
determine the exact allocation among the four GPR categories because of 
known data-quality issues in EPA's GPR database. An EPA-sponsored study 
in 2013 found that the database includes inconsistencies, such as 
project costs being double-counted for projects that meet more than one 
of the GPR eligibility categories.\25\ With that caveat, EPA's database 
indicates that 37 percent of Green Project Reserve funds have gone to 
energy efficiency projects, 25 percent to water conservation projects, 
22 percent to green infrastructure projects, and 16 percent to other 
environmentally innovative projects.\26\
---------------------------------------------------------------------------
    \24\ EPA & Major Partners' Lessons Learned from Implementing EPA's 
Portion of the American Recovery and Reinvestment Act: Factors 
Affecting Implementation and Program Success (2013), p. 45, https://
www.epa.gov/sites/production/files/2015-09/documents/lessons-learned-
arra-green-project-reserve.pdf.
    \25\ Id., p. 19.
    \26\ EPA, Clean Water SRF Program Information: National Summary 
(2021).
---------------------------------------------------------------------------
    Given their many benefits, why haven't Green Project Reserve 
projects received more CWSRF funding? Several factors may contribute to 
their relatively small piece of the CWSRF pie. Many potential project 
applicants are not aware that GPR funding is available to them and 
therefore do not apply.\27\ Others may lack the expertise and resources 
to complete the application materials or decide that the hassle is not 
worth it for a small-scale green infrastructure project. The bigger 
utilities that look to the CWSRF for assistance still tend to focus on 
traditional hard infrastructure projects. And in some states, every 
project on the CWSRF project priority list receives funding each year, 
so integrating green elements into projects to qualify for GPR funds 
offers little benefit to applicants.
---------------------------------------------------------------------------
    \27\ See EPA, Financing Green Infrastructure: A Best Practices 
Guide for the Clean Water State Revolving Fund (2015), p. 3, https://
www.epa.gov/sites/production/files/2016-01/documents/
final_gi_best_practices_guide_12-9-15.pdf.
---------------------------------------------------------------------------
    Under the existing Green Project Reserve requirement, states do not 
have adequate incentives to educate potential applicants about the 
benefits of green infrastructure projects and the availability of GPR 
funding, nor to assist them with their funding applications. The 
current 10 percent requirement only applies to the extent that a state 
receives ``sufficient eligible project applications.'' \28\ EPA has 
interpreted this rule to require a ``good faith solicitation effort'' 
by the state to identify eligible GPR projects, but the state's annual 
open solicitation for CWSRF projects is deemed to meet the requirement, 
even if the state does not conduct any outreach on the Green Project 
Reserve specifically.\29\ This interpretation largely takes the burden 
off the state CWSRF program to actively solicit potential GPR projects. 
As a result, states often fail to meet the GPR requirement. For 
example, last year Florida fell short of the requirement because it did 
not receive sufficient project applications.\30\ Oregon did not fund a 
single GPR project last year.\31\ Missouri is three years behind on 
awarding its GPR dollars.\32\
---------------------------------------------------------------------------
    \28\ See Consolidated Appropriations Act 2021, p. 329, https://
www.congress.gov/116/bills/hr133/BILLS-116hr133enr.pdf.
    \29\ See EPA, Procedures for Implementing Certain Provisions of 
EPA's Fiscal Year 2012 Appropriations Affecting the Clean Water and 
Drinking Water State Revolving Fund Programs, p. 3, https://
www.epa.gov/sites/production/files/documents/
final_fy12_srf_guidelines_1.pdf.
    \30\ Florida Department of Environmental Protection, CWSRF 2020 
Annual Report, p. 13, https://floridadep.gov/sites/default/files/
CWSRF%20Annual%20Report%202020.pdf.
    \31\ Oregon Department of Environmental Quality, Clean Water State 
Revolving Fund Annual Report, September 2020, p. 7, https://
www.oregon.gov/deq/wq/Documents/cwsrf
AnnualRep2020.pdf.
    \32\ Missouri Department of Natural Resources, Clean Water State 
Revolving Fund 2020 Annual Report, pp. 7, 9, https://dnr.mo.gov/env/
wpp/srf/documents/2021-02-02-fy-2020-clean-water-srf-annual-report-
final.pdf.
---------------------------------------------------------------------------
    Finally, the amount of funding that Congress requires states to 
allocate to the Green Project Reserve has fluctuated over time and has 
never been codified in statute, making potential applicants uncertain 
about whether GPR funds will be available for their projects in future 
years. This uncertainty depresses demand for CWSRF funds.
Congress Should Take Action to Make the Green Project Reserve Function 
                           More Effectively.
    A few key legislative reforms could help the Green Project Reserve 
live up to its potential as a robust funding source for green 
infrastructure and other beneficial projects that build community 
resilience.
1. Congress should make the GPR permanent.
    First, Congress should end the process of inserting the Green 
Project Reserve requirement into annual appropriations bills and codify 
it permanently in statute. As described above, fluctuating federal 
mandates create uncertainty and depress demand for funding.
    A statutory Green Project Reserve is needed to ensure that the 
state CWSRF programs have a continued mandate to fund green projects. 
As pre-2009 history shows, without the GPR requirement it is likely 
that fewer green projects will receive CWSRF assistance. Decades of 
implementation have proven that these projects offer significant 
benefits to utilities, ratepayers, the environment, and public health. 
Congress should affirm its durable support for them by writing the GPR 
into law.
    The permanent requirement should be established at 20 percent of 
the capitalization grant at a minimum. As explained above, because 
states provide CWSRF assistance from a fund that includes other sources 
of income beyond the capitalization grant, GPR projects' proportion of 
total assistance is lower than their proportion of the capitalization 
grant alone. In order to increase the percentage of overall CWSRF 
assistance for green projects beyond the small share they receive 
today, Congress should set the statutory requirement higher than the 
current level of 10 percent of the capitalization grant.
2. Congress should significantly increase overall CWSRF funding.
    Second, Congress should authorize and appropriate significantly 
more money for the Clean Water State Revolving Fund as a whole. 
Increasing the total amount of federal investment would make more 
funding available for all CWSRF projects, including Green Project 
Reserve projects.
    Our communities face a dire need for more resources. In 2012, the 
EPA estimated that we need to invest $271 billion in maintaining and 
repairing our clean water infrastructure over the next twenty years 
just to meet current environmental and health standards--a figure that 
is now outdated and is almost certainly an underestimate.\33\
---------------------------------------------------------------------------
    \33\ U.S. Environmental Protection Agency, Clean Watershed Needs 
Survey 2012 Report to Congress, https://www.epa.gov/cwns/clean-
watersheds-needs-survey-cwns-report-congress-2012.
---------------------------------------------------------------------------
    Infrastructure costs have risen steeply in recent decades as 
communities have worked to implement important water pollution control 
and flood mitigation projects. Yet according to Congressional Budget 
Office data, federal funding for water and wastewater utilities has 
decreased fourfold since 1980.\34\ Per capita federal spending on water 
infrastructure has fallen from $76 per person in 1977 to $11 per person 
in 2014.\35\
---------------------------------------------------------------------------
    \34\ Congressional Budget Office, Public Spending on Transportation 
and Water Infrastructure, 1956 to 2014 (2015), https://www.cbo.gov/
sites/default/files/114th-congress-2015-2016/reports/
49910-infrastructure.pdf.
    \35\ Id.; see also Value of Water Campaign, The Economic Benefits 
of Investing in Water Infrastructure (2017), p. 5, http://
thevalueofwater.org/sites/default/files/Economic
%20Impact%20of%20Investing%20in%20Water%20Infrastructure_VOW_FINAL_pages
.pdf.
---------------------------------------------------------------------------
    As a result of this decline, state and local governments have been 
left to pick up the tab. A recent survey of stormwater utilities found 
that an estimated total of $18-24 billion is spent annually by 
municipal governments on stormwater programs and infrastructure.\36\ 
Only 30 percent of survey respondents indicated that they did not need 
funding beyond their existing budgets. The analysis estimated the 
annual stormwater funding gap to be $8.5 billion.\37\ Assessing the 
need more broadly, the Value of Water Campaign has estimated the annual 
funding gap for all water infrastructure (drinking water, wastewater, 
and stormwater) to be $82 billion. If this need is left unaddressed, 
the gap will continue to grow; it could rise to as high as $153 billion 
by 2040 as needs from prior years accumulate.\38\
---------------------------------------------------------------------------
    \36\ WEF Stormwater Institute, 2020 National Municipal Separate 
Storm Sewer System (MS4) Needs Assessment Survey Results, https://
wefstormwaterinstitute.org/programs/ms4survey/.
    \37\ Id.
    \38\ Value of Water Campaign, The Economic Benefits of Investing in 
Water Infrastructure (2017), p. 2.
---------------------------------------------------------------------------
    On top of existing budgetary shortfalls, the COVID-19 pandemic has 
further stressed the finances of wastewater and stormwater utilities. 
The National Association of Clean Water Agencies has estimated that 
clean water utilities will lose billions of dollars in revenue due to 
declines in industrial and commercial water use and increased bill 
delinquencies from COVID-19 related job losses.\39\ Finally, none of 
these need estimates include the amount needed to adapt to climate 
change, which utilities say could add hundreds of billions of dollars 
in additional water infrastructure funding needs through the middle of 
the century.\40\
---------------------------------------------------------------------------
    \39\ National Association of Clean Water Agencies, Recovering from 
Coronavirus: Mitigating the Economic Cost of Maintaining Water and 
Wastewater Service in the Midst of a Global Pandemic and National 
Economic Shut-Down (2020), https://www.nacwa.org/docs/default-source/
resources---public/water-sector-covid-19-financial-impacts.pdf.
    \40\ National Association of Clean Water Agencies & Association of 
Metropolitan Water Agencies, Confronting Climate Change: An Early 
Analysis of Water and Wastewater Adaptation Costs (2009), https://
www2.nacwa.org/images/stories/public/2009-10-28ccreport.pdf.
---------------------------------------------------------------------------
    Congress should fund the Clean Water State Revolving Fund at $10 
billion per year to help close the clean water investment gap. Although 
this would represent a large increase over current levels, the money 
would not go to waste. The Council of Infrastructure Financing 
Authorities' SRF Project Pipeline identifies over $47 billion in 
specific clean water infrastructure projects across the country that 
could be commenced within the next two to three years if funding is 
provided.\41\
---------------------------------------------------------------------------
    \41\ Council of Infrastructure Funding Authorities, S.A.F.E. Water 
Infrastructure Action Plan and SRF Project Pipeline (2020), available 
at https://www.cifanet.org/economic-stimulus.
---------------------------------------------------------------------------
    Significantly increasing federal funding for water infrastructure 
would not only support public health and the environment, it would also 
generate hundreds of billions of dollars in much-needed economic 
activity and create hundreds of thousands of jobs.\42\ Research by 
BlueGreen Alliance has found that by investing $105 billion over ten 
years, we could improve our drinking and clean water systems to a ``B'' 
grade and create 654,000 job-years across the U.S. economy.\43\
---------------------------------------------------------------------------
    \42\ Value of Water Campaign, The Economic Benefits of Investing in 
Water Infrastructure.
    \43\ BlueGreen Alliance, Water Works: The Job Creation Potential of 
Repairing America's Water Infrastructure (2020), https://
www.bluegreenalliance.org/resources/water-works-the-job-creation-
potential-of-repairing-americas-water-infrastructure/.
---------------------------------------------------------------------------
    Alongside this large influx of funds, Congress should provide 
additional resources to EPA and the state CWSRF administrators so they 
can build capacity to handle the increased number of projects. Congress 
should also consider waiving at least a portion of the 20 percent state 
match requirement so that states are able to access these new 
resources. States that produce their 20 percent match by issuing bonds 
or using interest from a state infrastructure fund may not be able to 
ramp up their contribution quickly enough to meet the matching 
requirement for a much larger capitalization grant. Congress recognized 
this difficulty in 2009 when it waived the state match requirement for 
the supplemental funds provided in ARRA. It should do so again if a 
waiver would help get money out the door quickly.
3. Congress should increase the amount of CWSRF funding provided as 
        additional subsidization.
    Additional subsidization--grants, principal forgiveness, and 
negative interest loans--are an important source of CWSRF funding for 
project applicants that cannot afford to take out a normal low-interest 
loan. However, under current law, a state may not use more than 30 
percent of the amount of its annual capitalization grant for additional 
subsidization.\44\ While there is no statutory obligation for states to 
use any CWSRF funds for additional subsidization at all, annual 
appropriations bills since 2010 have imposed a minimum requirement; the 
FY21 Appropriations Act directed states to use 10 percent of their 
capitalization grant for this purpose.\45\
---------------------------------------------------------------------------
    \44\ 33 U.S.C. Sec.  1383(i)(3).
    \45\ See Consolidated Appropriations Act 2021, p. 330.
---------------------------------------------------------------------------
    As a result, the availability of additional subsidization is quite 
limited. EPA's 2019 CWSRF annual report states that additional 
subsidization made up only 4% of total assistance that year ($260 
million out of $6.2 billion in total assistance).\46\ This equates to 
14% of the annual capitalization grant ($260 million out of $1.9 
billion in federal capitalization).\47\
---------------------------------------------------------------------------
    \46\ EPA, Clean Water State Revolving Fund 2019 Annual Report: 
Building the Project Pipeline, p. 7, https://www.epa.gov/sites/
production/files/2020-10/documents/2019_cwsrf_annual_
report_9-10.pdf.
    \47\ Id.
---------------------------------------------------------------------------
    Green Project Reserve projects, including those proposed by 
underserved applicants, must compete for these scarce funds with all 
other projects that serve disadvantaged communities.\48\ Communities 
struggling with affordability challenges must have access to additional 
subsidization in order to ensure that clean, safe water and protection 
from flooding are enjoyed by all people everywhere, not reserved as 
privileges for affluent jurisdictions. For example, unsewered 
communities in rural and low-income areas often cannot afford to fix 
their failing on-site systems without additional subsidization; this 
lack of accessible funding perpetuates an ongoing humanitarian 
crisis.\49\
---------------------------------------------------------------------------
    \48\ 33 U.S.C. Sec.  1383(i)(1).
    \49\ See Inga T. Winkler & Catherine Coleman Flowers, `` `America's 
Dirty Secret': The Human Right to Sanitation in Alabama's Black Belt,'' 
Columbia Human Rights Law Review (2017), http://hrlr.law.columbia.edu/
files/2018/01/IngaTWinklerCatherineCole.pdf.
---------------------------------------------------------------------------
    Congress should increase the amount of CWSRF funding provided as 
additional subsidization so that both GPR projects and projects serving 
disadvantaged communities have access to the resources they need. At 
least 20 percent of the annual capitalization grant should be provided 
to disadvantaged communities as additional subsidization, and this 
minimum requirement should be written into statute rather than left to 
the vagaries of the annual appropriations process. In addition, 
Congress should raise the cap on additional subsidization beyond 30 
percent to make more funds available for all eligible projects, 
including GPR projects. Raising the cap would allow states to decide 
for themselves how much subsidy to provide, commensurate with the need 
within their jurisdictions.
    While deploying a higher percentage of funds through additional 
subsidization does decrease the proportion of the annual federal grant 
remaining to capitalize the states' revolving loan funds, a big boost 
in overall CWSRF appropriations would ensure that the amount of money 
replenishing those funds remains steady or even increases in absolute 
dollar terms. Proving the workability of this approach, ARRA both 
increased the amount of money flowing to the CWSRF and required that at 
least 50 percent of the new funds be used as additional 
subsidization.\50\
---------------------------------------------------------------------------
    \50\ American Recovery and Reinvestment Act of 2009, P.L. 111-5 
(123 Stat. 169).
---------------------------------------------------------------------------
4. Congress should provide more resources for outreach and technical 
        assistance.
    When states fall short of the Green Project Reserve minimum 
requirement, it isn't because there are no possible green projects for 
communities to implement. According to the EPA, many potential GPR 
applicants are simply unaware of the funding opportunities 
available.\51\
---------------------------------------------------------------------------
    \51\ EPA, Financing Green Infrastructure: A Best Practices Guide 
for the Clean Water State Revolving Fund (2015), p. 3.
---------------------------------------------------------------------------
    States can address this knowledge gap through marketing and 
outreach, but they need resources in order to do so. Moreover, small 
and disadvantaged communities need technical assistance to develop 
projects and complete applications. This assistance requires resources 
as well. Congress should set aside more funding for states to build 
awareness and expertise among potential GPR applicants, with the goal 
of ensuring that no state ever falls short of its minimum Green Project 
Reserve requirement due to a lack of eligible project applications.
5. Congress should increase transparency around the effectiveness of 
        the GPR.
    With no publicly accessible centralized database of GPR projects, 
and state-level data available only sporadically on hard-to-find 
webpages, it is difficult to gather information on the results of the 
Green Project Reserve. Indeed, even the EPA does not seem to know what 
the program is achieving; the agency's own inspector general has 
faulted it for failing to assess the economic or environmental benefits 
of GPR projects.\52\ No nationwide estimate of GPR benefits has been 
developed since a post-ARRA report ten years ago.\53\ This dearth of 
information contributes to the lack of awareness, discussed above, that 
results in underutilization of the program.
---------------------------------------------------------------------------
    \52\ EPA Office of Inspector General, EPA Needs to Assess 
Environmental and Economic Benefits of Completed Clean Water State 
Revolving Fund Green Projects (2016), https://www.epa.gov/
sites/production/files/2016-05/documents/20160502-16-p-0162.pdf.
    \53\ Eastern Research Group (for EPA), Estimated Environmental 
Benefits Associated with ARRA-Funded Green Project Reserve Projects 
(2011), https://www.epa.gov/
sites/production/files/2017-03/documents/
estimated_environmental_benefits_report.pdf.
---------------------------------------------------------------------------
    Congress should require EPA to develop a routine process for 
collecting GPR data and reporting that data to the public. Such a 
requirement would improve EPA's ability to oversee, manage, and monitor 
this substantial investment of public funds. It would also be 
consistent with existing federal policies requiring agencies to assess 
the results of government programs.\54\
---------------------------------------------------------------------------
    \54\ See EPA Office of Inspector General, EPA Needs to Assess 
Environmental and Economic Benefits of Completed Clean Water State 
Revolving Fund Green Projects (2016), p. 3.
---------------------------------------------------------------------------
    Better data transparency would arm communities across the country 
with information that could help them make the case for increased 
investment in green infrastructure on a cost-benefit basis. Half of the 
respondents in a nationwide survey of stormwater utilities indicated 
that they need access to more resources and technical information on 
the valuation of green infrastructure's benefits.\55\ A new reporting 
requirement could be implemented with little burden on GPR recipients 
if Congress provides adequate resources for data collection and directs 
EPA to gather and aggregate the information itself.
---------------------------------------------------------------------------
    \55\ WEF Stormwater Institute, 2020 National Municipal Separate 
Storm Sewer System (MS4) Needs Assessment Survey Results, https://
wefstormwaterinstitute.org/programs/ms4survey/.
---------------------------------------------------------------------------
   Congress Should Take Additional Actions Beyond the Green Project 
       Reserve to Promote Sustainable and Resilient Clean Water 
                            Infrastructure.
    The Green Project Reserve, while important, is not the only 
mechanism available to promote resilience measures in wastewater and 
stormwater systems.
    Congress should authorize and fund new grant programs to diversify 
funding options for clean water infrastructure resilience projects. For 
example, legislation pending in the Senate would establish a Clean 
Water Infrastructure Resiliency and Sustainability Program providing 
grants to increase the resilience of publicly owned treatment works to 
natural hazards and cybersecurity threats.\56\ The same bill would also 
establish a grant program for the construction, refurbishing, and 
servicing of individual household decentralized wastewater systems for 
low- and moderate-income households, helping to resolve ongoing human 
rights concerns and address climate vulnerabilities.\57\ Last Congress, 
the Clean Water Through Green Infrastructure Act would have established 
grant programs for green stormwater control infrastructure,\58\ and the 
Natural Infrastructure and Resilience Act would have made certain green 
infrastructure projects eligible for surface transportation block grant 
funding.\59\
---------------------------------------------------------------------------
    \56\ Drinking Water and Wastewater Infrastructure Act of 2021, S. 
914, 117th Cong. Sec.  205 (2021), https://www.congress.gov/117/bills/
s914/BILLS-117s914is.pdf.
    \57\ Id.
    \58\ Clean Water Through Green Infrastructure Act, H.R. 4266, 116th 
Cong. (2019).
    \59\ Natural Infrastructure and Resilience Act, H.R. 5871, 116th 
Cong. (2020).
---------------------------------------------------------------------------
    Congress should also establish a permanent low-income water and 
sewer assistance program and promote local rate structures that 
equitably increase local revenues. Improving the affordability of 
water, wastewater, and stormwater service would allow utilities to 
implement resilience projects and other upgrades without imposing 
burdens on their low-income customers. Water and wastewater utility 
bills have increased at more than three times the rate of inflation 
over the past decade.\60\ Yet as of 2016, the majority of water and 
wastewater utilities offered no customer assistance program.\61\ Two 
recent COVID-19 relief bills provided some funding for a temporary low-
income water and sewer assistance program at the Department of Health 
and Human Services, but a long-term program at higher funding levels is 
necessary in order to meet the nationwide need. Additionally, Congress 
should incentivize the adoption of equitable rate structures and other 
local affordability programs by making them eligible uses of CWSRF 
funds, providing increased technical support for such programs, 
directing additional funding incentives to states that take steps to 
promote such programs, and requiring states and utilities to report 
annually on key affordability metrics such as rate schedules and water 
shutoffs.
---------------------------------------------------------------------------
    \60\ David Harrison, ``Why Your Water Bill Is Rising Much Faster 
Than Inflation,'' The Wall Street Journal, March 15, 2018, https://
www.wsj.com/articles/who-is-paying-to-fix-outdated-
water-and-sewer-systems-you-are-1521106201.
    \61\ EPA Office of Wastewater Management, Drinking Water and 
Wastewater Utility Customer Assistance Programs (2016), https://
www.epa.gov/sites/production/files/2016-04/documents/
dw-ww_utilities_cap_combined_508-front2.pdf.
---------------------------------------------------------------------------
    Next, Congress should require climate change information to be 
considered in the planning of all clean water infrastructure projects 
as a condition of providing federal assistance. The Government 
Accountability Office recommended this policy in a report last year 
after it was endorsed by a majority of experts.\62\ By limiting future 
risk exposure, this requirement could save the federal government 
billions of dollars in post-disaster recovery financial assistance. It 
is critical that such a requirement be accompanied by technical support 
and the best available data. Most planning and design standards are 
currently based on outdated assumptions about the occurrence of extreme 
precipitation events, with many states relying on precipitation 
statistics that have not been updated in decades.\63\ Some states, like 
Illinois, have taken it upon themselves to update their precipitation 
statistics and require their use for infrastructure design, but those 
states are the exception to the rule.\64\ The federal government must 
not only provide state and local governments with updated statistics 
but also integrate future projections of rainfall so we can begin to 
design our stormwater and wastewater systems appropriately. Tools like 
EPA's CREAT will be critical in providing continuing support for 
assessing the impacts of climate change on water infrastructure.\65\ 
Communities will rely on these systems into future decades; we must 
stop designing them for the conditions of the past.
---------------------------------------------------------------------------
    \62\ U.S. Government Accountability Office, Water Infrastructure: 
Technical Assistance and Climate Resilience Planning Could Help 
Utilities Prepare for Potential Climate Change Impacts (2020), https://
www.gao.gov/assets/gao-20-24.pdf.
    \63\ Jim Morrison, ``As Rainstorms Grow More Severe and Frequent, 
Communities Fail to Prepare for Risks,'' Washington Post, April 9, 
2021, https://www.washingtonpost.com/
climate-environment/2021/04/09/climate-change-rainfall/.
    \64\ See Tiffany Jolley, The Impact of Bulletin 75, Prairie 
Research Institute, University of Illinois, July 8, 2020,https://
blogs.illinois.edu/view/7447/2024148035.
    \65\ EPA, Climate Resilience Evaluation and Awareness Tool (CREAT) 
Risk Assessment Application for Water Utilities, https://www.epa.gov/
crwu/climate-resilience-evaluation-and-
awareness-tool-creat-risk-assessment-application-water.
---------------------------------------------------------------------------
    Finally, Congress should require EPA to adopt regulations 
implementing the provision of the Water Resources Reform and 
Development Act (WRRDA) of 2014 directing CWSRF recipients to maximize 
water and energy conservation in all projects.\66\ The interpretive 
guidance EPA has thus far provided for complying with this requirement 
largely repeats the language of the statute and does not provide 
specific criteria or guidelines for evaluating and incorporating cost-
effective conservation practices. Enhancing the effectiveness of this 
cross-cutting requirement through meaningful regulations could have an 
impact comparable to an increase in the GPR itself.
---------------------------------------------------------------------------
    \66\ 33 U.S.C. Sec.  1382(b)(13)(B).
---------------------------------------------------------------------------
    Thank you for the opportunity to testify today. NRDC looks forward 
to working with the Subcommittee on solutions to strengthen the 
resilience and sustainability or our nation's clean water 
infrastructure.

    Mrs. Napolitano. Thank you very much, Ms. Hammer. We will 
now proceed with Member questions.
    We want to thank all the witnesses for all the testimony, 
and the questions that will arise. We will use the timer to 
allow 5 minutes for each question from each Member. If there 
are additional questions, we may have additional rounds, as 
necessary and as time permits.
    And I will recognize Mr. DeFazio for the first round of 
questions.
    Mr. DeFazio. Thank you, Madam Chair.
    To Ms. Hammer, who just testified to this, and Mr. Perry 
also, do you believe that we need a codified and explicit--and 
I think you have already answered this, but I want to get it 
fully on the record--program for green reserve?
    And why would it have to be a separate program? Wouldn't 
States just utilize the SRF money to implement these sorts of 
programs? The Senate bill totally omits the green reserve.
    So if each of you can answer that question, why it needs to 
be codified, it would be great.
    Ms. Hammer. Yes. Thank you, thank you for that question.
    So, as I mentioned in my testimony, the fact that the green 
project reserve is not codified in statute has generated 
significant uncertainty amongst potential applicants who would 
be accessing those funds to carry out projects. And that 
depresses long-term [inaudible]. So if we put it into the 
statute, it will become a more reliable source of funding.
    And part of the issue is that it takes a while to plan 
these projects. So if we are talking about a source of funding 
that may be available this year or maybe not, depending on what 
the Appropriations Committee puts into their bill that year, if 
I am someone who is thinking of carrying out a green 
infrastructure project, I might not be able to depend that that 
money is going to be there in 5 years when I need it.
    And I think as history shows, before the green project 
reserve was adopted in 2009, when it is not there, these 
projects don't tend to get funded, because the resources aren't 
available.
    Mr. DeFazio. OK, thank you.
    Mr. Perry, do you want to----
    Mr. Perry. Absolutely. I definitely agree with Ms. Hammer. 
I am actually probably more well-versed in the design aspects, 
rather than policy.
    But I can say, from one perspective, that I know that a lot 
of municipalities are really counting for a solid piece of 
funding to not only go through design and implementation, but 
it is really the maintenance end where you see a lot of 
communities very, very nervous about implementing green 
infrastructure at the wide, wide scale.
    And so being able to, again, have a solid chunk of funding 
that is there and is permanent is, I think, critical for local 
communities to accept more widely green infrastructure 
approaches.
    Mr. DeFazio. OK, thank you. And to Ms. Powell and Mr. 
Ferrante, if we have time, these innovative technologies that 
you have put in place, were these good, hard business 
decisions?
    I mean, these have penciled out, saved the ratepayers money 
in the long term, and will be amortized in a relatively short 
period of time?
    Ms. Powell. Thank you for the question, Mr. DeFazio. Yes, 
and our team looks at the cost benefit, as well as other 
measures, when we are making decisions about projects that we 
will implement.
    So, for instance, when we look at the implementation of 
solar projects, and when we looked at the implementation of 
thermal hydrolysis, the team looked at how much that would 
ultimately save our ratepayers, in terms of operating costs 
that we could then reinvest in other critical infrastructure 
investments.
    Mr. DeFazio. Good. So--and to Mr. Ferrante, same question. 
Is there a real solid business case for these sorts of projects 
that penciled out in favor of the ratepayers?
    Mr. Ferrante. Thank you for the question. Yes, Chair 
DeFazio. Especially, I can talk about the--for example, the 
food waste recycling project definitely pencils out with 
respect to allowing our main wastewater treatment plant not 
only to be energy self-sufficient, to avoid having to pay the 
utility for all the power, but allowing us to export to the 
grid, to generate revenue from that way, and also to cost 
effectively generate--convert that gas into vehicle fuel, and 
allow not only our vehicles, other Government vehicles to be 
fueled by it, but it is also open to the public. So passing on 
that benefit to the public, and it is charged at the same rate 
as conventional natural gas, so it does pencil out for us, and 
the savings are passed on to our ratepayers. Thank you.
    Mr. DeFazio. Just a quick question, and my time will have 
expired, but I assume the end product is a sort of a composted 
material. What do you do with that?
    Mr. Ferrante. So we have the actual solids that are 
digested. It is a material. We partner with private composters 
that take the material, they compost it with agricultural waste 
in most cases, and then they market that product. And it is 
used as a soil amendment for agricultural fields.
    And also, some of it is actually sold to the general 
public, as well. But it is a product that is usable, and it 
displaces chemical fertilizers in terms of being used in 
agricultural fields.
    Mr. DeFazio. Excellent. Thank you.
    Thank you, Madam Chair. My time has expired.
    Mrs. Napolitano. Mr. Rouzer, you are next.
    Mr. Rouzer. Thank you, Madam Chair, and I really enjoyed 
listening to the testimony of all of our witnesses. And this 
has been hinted at, or alluded to previously, but I think the 
fundamental question is, how do we make these infrastructure 
improvements and get the best value for the taxpayer and the 
ratepayer.
    In fact, that is really the fundamental question for all 
things that Congress considers.
    Mr. Colson, I know you, obviously, have great experience in 
this arena. And I just wanted to give you an opportunity to 
talk about what is taking place in North Carolina, as far as 
promoting sustainability and resiliency. We have some pretty 
good-sized cities in North Carolina, and we have some very 
small towns, as you alluded to in your testimony. So talk to us 
a little bit about what North Carolina is doing.
    Mr. Colson. Thank you for that question. In 2017, North 
Carolina developed a master plan to meet our water 
infrastructure needs. And it is not just funding goals, it is 
developing organizational capacity, developing financial 
capacity in our utilities, and that will lead to sustainable 
infrastructure and infrastructure management.
    Part of that focus is also focusing on our small 
communities across the State. We have identified over 100 
utilities that are really struggling financially with their 
water and sewer systems, and we have made a concerted effort to 
help those utilities become viable utilities, because that is 
so important in meeting their sustainability.
    And we have also been focusing on changing our priority 
system as a result of our hurricanes that we have had, and 
trying to move some of the infrastructure out of the flood 
plains, and making it more flood resilient, as well. Of course, 
this changed significantly from 2007, when we were funding a 
lot of reclaimed water, because at that point we were in a 
drought. And of course, that is part of the benefit of the 
SRFs; we have that flexibility to adapt to these changing needs 
in our communities.
    Mr. Rouzer. With all those small towns, can you talk a 
little bit about how--particularly any specific cases that come 
to mind--Federal mandates create additional cost complexity 
that really is unnecessary, in terms of achieving the end goal?
    Mr. Colson. Thank you for that question. All Federal 
mandates require paperwork to document that you are meeting the 
mandate. And, of course, for some of our projects, particularly 
in our small communities, if they have a gravity sewer system 
that simply needs to be replaced because it is broken, they 
have to fix it. The question is, do they have to document water 
efficiency and energy efficiency in a project, in 
infrastructure that uses no energy?
    So that is an example of where the paperwork and the goal 
don't really quite match what is going on in the small 
communities.
    Mr. Rouzer. Obviously, there is a strong incentive, I 
think, among most to move to green energy practices. Perhaps 10 
years ago, 15 years ago, certainly 20 years ago you could make 
a, I think, a much stronger case for mandates if you want to 
look at it from that perspective. But today a lot of people are 
naturally trying to move that way anyhow. Do you want to 
comment on that a bit, and your observations, what you are 
seeing around the State and elsewhere?
    Mr. Colson. Sure. Recently we funded several energy-type 
projects at some of our urban areas. For example, the city of 
Raleigh, they recently did a similar project that Mr. Ferrante 
described, where they changed their digesters from aerobic to 
anaerobic generated methane.
    Their particular case, they had a natural gas pipeline on 
their property. They came to an agreement with the natural gas 
company. They put the methane into the natural gas line, drew 
it back out in downtown Raleigh to power their bus fleet. And 
so that specific case study was developed at the local level, 
and the business case made sense, and we put $50 million into 
that project. So that was a project where we far exceeded our 
green project reserve requirement.
    One of the issues with the green project reserve is the 
next year we didn't have any projects that we closed on, so we 
didn't meet it, but we didn't get any credit for carryover from 
that significant investment from the year before.
    Mr. Rouzer. Thank you.
    Madam Chair, I note that my time has almost expired, so I 
yield back.
    Mrs. Napolitano. Thank you very much, Mr. Rouzer. I will 
begin the questioning from my side, and this is directed to Mr. 
Ferrante.
    As many water agencies across the country and the globe are 
developing water recycling projects, your agency is rare for 
having 60 years of experience in water recycling. How has water 
recycling changed over the years, and how do you see this 
important water supply opportunity growing in the future?
    How are water agencies across the globe sharing information 
on water recycling?
    Mr. Ferrante. Thank you. Thank you for that question, Chair 
Napolitano.
    I will answer the first part first. With respect to water 
recycling, over the last 50 to 60 years, we have seen a 
fundamental greater understanding from the public with respect 
to water recycling. I think a big part of that is that we 
couldn't do these programs without public outreach, without not 
only tours of the facility so people understand and can have 
confidence in the treatment of the water that they are seeing, 
but also programs in schools for kids to learn about water 
recycling and the benefits of it to the environment. Those have 
been key things.
    And obviously, we have seen, especially over the last 20 to 
30 years, a strong demand, an increase in water recycling. And 
what is interesting is we have also seen the success of water 
conservation, especially over the last 15 to 20 years. And 
actually, our flows have dropped about 20 to 25 percent over 
the last 15 years. So it shows that the public is really 
understanding, when given the information, they understand 
water issues.
    One other thing that we are having to do is balance water 
recycling with habitat protection, as well. We need to maintain 
the habitats in our local rivers and creeks, and we can't just 
take all that recycled water and reuse it without maintaining 
that habitat.
    For the future I see continued partnerships. I talked about 
the Met project, and that is our main partner. But we are 
partnering with all of our local cities, groundwater basins, 
L.A. County Public Works out here, and more and more I am 
having discussions as a wastewater agency with water purveyors 
and stormwater entities, too, that we really are looking at 
water in a complete sense.
    And obviously, the drought that is occurring in California 
is making a big impact on water resiliency. And I think water 
recycling needs to be, in these stressed areas, a core 
component of the portfolio, specifically so that you can bank 
water in good times and then use that water when the drought 
really hits and you don't get your allocations.
    Mrs. Napolitano. Thank you for that. I know that we used to 
say recycled water was toilet-to-tap, and we changed it to 
showers-to-flowers. And there is no new landfill in L.A. 
County. The city has 4 million, and the county has 12 million, 
so it is a lot of people to recycle water.
    Can you discuss the biodigesting program, and how do you 
recycle food waste?
    Mr. Ferrante. Yes, I can expand a little bit on that. That 
really started as a partnership and demonstration between us, 
as a wastewater treatment agency and a solid waste agency, with 
local, private, solid-waste haulers that are collecting from 
cities. They have franchise agreements with the cities to pick 
up their waste.
    And also, here in California, there is regulation moving 
towards diversion of organics from landfills. So these 
municipalities have to comply with this requirement, in terms 
of diverting up to 75 percent of the organic waste from 
landfills.
    And wastewater treatment plants, as Mr. Colson mentioned 
and others mentioned, we have anaerobic digesters, and we have 
excess capacity often that can be utilized. We have that 
infrastructure in place that can be utilized to take additional 
organic material. And food waste, in particular, is high in 
energy. It really translates into producing a great deal of 
digester gas that can be used beneficially.
    And as I mentioned, we use it in a variety of ways, not 
only in our existing powerplant. It makes over 20 megawatts of 
energy, making our largest wastewater treatment plant 
completely energy self-sufficient. We sell some excess power 
into the grid, and we still have more to convert into pure 
natural gas, essentially, renewable natural gas for vehicle 
fuel. So that is the program kind of in a nutshell.
    Mrs. Napolitano. Thank you very much. I had a question for 
Ms. Hammer, but I will submit it in writing, because my time is 
up.
    Mr. Babin, you are next, you may proceed.
    [Pause.]
    Mrs. Napolitano. Mr. Babin?
    Voice. He is not here.
    Mrs. Napolitano. All right. Mr. Garamendi, you may proceed.
    [Pause.]
    Mrs. Napolitano. Mr. Garamendi?
    Mr. Garret Graves?
    Mr. Graves of Louisiana. Thank you, Madam Chair. Madam 
Chair, I have to commend the rhyming that you had going on in 
your line of questioning. If you evaluate your next career, 
perhaps a poet, or even a rapper would be a good path for you. 
Nice to see you.
    I want to thank all the witnesses today. It has been very, 
very informative. And obviously, with all the recent discussion 
on infrastructure, this is a very important time for us to be 
very thoughtful about the Federal Government's role in 
infrastructure, how to improve the project development delivery 
process, how to properly prioritize projects, and, of course, 
there is always this discussion on balance of utilization, of 
green versus gray, how to use the best tool in the toolbox most 
effectively to achieve the best outcome.
    One of the questions that I have asked myself a lot over 
the past few weeks is what I stated, ``What is the Federal 
Government's role in infrastructure?'' And certainly in this 
committee you can make an excellent case for: the Federal 
Government has a role in interstates, it has a role in the 
National Highway System, it has a role in dealing with 
waterways that traverse various States and serve as major 
navigation channels for international commerce.
    When you get beyond there, the question starts getting a 
little bit more challenging. One of the things about the 
Federal Government's role in highways or interstates, for 
example, is that there is a user fee mechanism. You go and you 
pay a tax for every gallon of gas you buy. The more gas you 
burn, because you have an inefficient vehicle and you drive 
more miles, the more of a user fee you pay.
    In the case of water systems, there is a similar user fee 
mechanism, but that is collected entirely at the local level. I 
am just curious, and please, don't--this isn't an attack on 
you, but I am just curious in your response, both the DC and 
the L.A. systems. Give me your pitch as to why this is a 
Federal responsibility for us to jump in and pay this whenever 
you have a user fee mechanism in place.
    Maybe, Ms. Powell, I will start with you.
    Ms. Powell. Yes, and thank you for the question. We believe 
that one way for the Federal Government to partner with 
localities and local utilities is to increase the amount of 
funding for water infrastructure, because it is infrastructure, 
it supports the built environment, and it supports essential 
services in every community. And I think that someone said that 
no community can be without it.
    Obviously, we are here in DC, and it can be seen as a 
national security issue if you don't have safe, clean drinking 
water and wastewater services because of the customers that we 
provide services to.
    And I think that, again, the Federal Government providing 
the levels of funding that is consistent with other modes, 
other infrastructure sectors, is a start for us in DC. We 
believe that there should be a Federal fair share contributed 
to the infrastructure that was turned over to the District to 
manage, which was undersized when it was turned over to the 
District. And that is something that we will be looking into 
more.
    And then the last way I would say is to implement, in a 
sustainable way, a low-income water assistance program. As Ms. 
Hammer said, it is important for everyone to have access to 
safe, clean drinking water, and there are many that cannot 
afford it. There are some States that don't have enabling 
legislation for customer assistance programs. And we have a 
number of projects that we have to implement to be in 
compliance with Federal regulation. So it is important to make 
sure that we have funding to implement those projects without--
--
    Mr. Graves of Louisiana. Thank you. I want to make sure we 
have time for Mr. Ferrante to answer, as well. I just--I want 
to make note, I believe that Washington has one of the lowest 
rates in the Nation, in regard to water rates. And I am just 
not sure I understand this divorce between user fees and 
Federal Government investment.
    Mr. Ferrante, I just have about 30 seconds left. Would you 
care to answer?
    Mr. Ferrante. Sure, just----
    Mr. Graves of Louisiana. And perhaps more specifically, why 
should people in Louisiana and Arkansas pay for L.A.'s water 
system?
    Mr. Ferrante. Sure. The issues we are facing with respect 
to drought covers more than just California. It covers the 
Southwestern United States. So it is really an interstate 
issue.
    And obviously, with greenhouse gas emissions, the 
reductions that can occur in California benefit not only to the 
people on the east coast and Louisiana, but across the world. 
So it is a global issue. It is a national issue, at a minimum. 
So the reductions that we can achieve here and the reductions 
that they can achieve benefit us, as well. And that is why I 
think we could use user fees, but we want to use these moneys 
in an equal way and a uniform way across the country, attacking 
global issues or interstate issues, especially with respect to 
water and climate change.
    Mr. Graves of Louisiana. Thank you both for your answers.
    Madam Chair, I want to thank you. I just think we need to 
be very thoughtful as we move forward in losing this alignment 
between ratepayers and infrastructure, because I think that you 
have incentives aligned. When you start divorcing it, there is 
no longer an incentive for people to be efficient with water 
usage and things like that. So I think, as we move forward, 
think about that. Thank you, I yield back.
    Mrs. Napolitano. Thank you, Mr. Garret Graves. It is 
interesting that you say that, because California has always 
been a donor State in many areas, so I kind of take exception 
to that.
    Mr. Garamendi, you are on. You may proceed.
    [Pause.]
    Mrs. Napolitano. Mr. Garamendi?
    Mr. Garamendi. I have to find the right microphone here. 
Thank you.
    Mr. Graves, you are at the outfall of the Nation's largest 
sanitation system, otherwise known as the Mississippi River. I 
am sure that you would want to have the upstream users 
delivering clean water into that system.
    With regard to the issues, this is a question for Mr. 
Ferrante and Ms. Powell. The testimony thus far has indicated 
that these are very complex systems it takes a long time to 
engineer and to build. The current NPDES program is for a 5-
year authorization, at which time the project is neither 
completed or probably even started. So I have introduced H.R. 
1881, which would provide for a 10-year permit, rather than a 
5-year permit.
    So, Mr. Ferrante, is this useful to you in getting your 
projects built?
    And the same question for Ms. Powell.
    Mr. Ferrante. Thank you for that question, Representative 
Garamendi.
    Yes, the concept of providing the State with authority to 
issue a permit, but not only the authority, but the flexibility 
to issue a permit longer than 5 years, but not more than 10 
years, is----
    Mrs. Napolitano. Mr. Westerman is next.
    Mr. Ferrante [continuing]. Something that makes sense. Our 
current system of permitting fails to recognize the life cycles 
of technologies. As I mentioned earlier, you know, the project 
that we are involved in with Metropolitan has been in the 
planning stages for 10 years, construction will take up to 6 to 
7 years. We are looking at the early 2030s. They are very 
complex.
    But I do want to emphasize that extending the State's 
authority would not preclude revisions to a permit if new and 
important information were to be revealed impacting water 
quality standards. And I think that is important. We want to 
ensure the continued confidence and trust from the public that 
we serve, that the proper level of oversight is being provided, 
especially as we embark on new, advanced technologies and new, 
recycled water treatment systems.
    Mr. Garamendi. Thank you. Ms. Powell, would you like to 
add, or just say that it is a great idea to have 10 years, 
rather than 5 years?
    Ms. Powell. Representative Garamendi, we support any tool 
or approach that allows for flexibility in meeting what are 
complex requirements in our permits as we work to implement the 
necessary improvements that are more expensive and more time-
intensive to implement.
    Mr. Garamendi. Thank you. We will continue to pursue H.R. 
1881, and perhaps find it in additional legislation.
    I want to go back to Mr. Ferrante and the discussions that 
you have had.
    But first of all, a big shout out to what you have been 
able to accomplish. Indeed, California is in the midst of 
another drought. And I have often said that the fifth biggest 
river on the west coast or the Western Hemisphere are the 
sanitation plants in southern California. Probably 1 million 
acre-feet of water can be secured for southern California with 
the complete utilization of recycling. And the efforts made by 
the sanitation district and Metropolitan Water District is 
extraordinarily important to California, as it is to other 
Western States, and probably States in the East, such as 
Georgia, that also has periodic droughts and problems.
    And so I want to just raise the issue that the programs 
that we are authorizing in this legislation must and should 
include recycling, as well as the capture of methane and gases 
from the sanitation facilities.
    So the other piece of this for southern California is that 
there is a place to put the water, the recycled water, and that 
is in the underground aquifers of southern California, which, 
taken together, have a larger capacity than the largest 
reservoir, Shasta.
    Mr. Ferrante, would you care to take a few moments to 
further comment?
    And also, if you would pick up the chairwoman's long-held 
view that title 16 of the Reclamation Act provides money for 
recycling?
    Mr. Ferrante. Yes, thank you for the opportunity to comment 
on this. I think you have correctly pointed out, with respect 
to drought, especially in southern California, and people are 
starting to use the terms ``mega-drought,'' and ``permanent 
drought'' for the way of looking at our current situation. That 
recycled water, it has got to be part of the core portfolio for 
the water systems here, probably throughout the southwest of 
California.
    And specifically, it can be used, as you mentioned, with 
groundwater replenishment in order to be able to--I use the 
term ``bank,'' or replenish those groundwater supplies during 
good years, when you have a little bit of excess, and then, 
when you have those years such as what we are potentially 
facing this year and in the next few years, where you are not 
going to get the allotments, especially for southern 
California, whether they be in the imported water--and I know 
some of our neighbor States are facing the issues with the 
Colorado River--when you don't get those allotments, then you 
can take that groundwater out, and hopefully make you 
resilient.
    In our case, I mentioned earlier, you mentioned the 
Metropolitan project we are working on. That could supply 10 
percent of the water need that Metropolitan usually provides. 
So that is a big part of it.
    Switching gears, you mentioned the methane----
    Mrs. Napolitano. I am sorry, the time is up. Would you wrap 
it up----
    Mr. Garamendi. Oh, thank you, Mr. Ferrante, thank you very 
much. I really look forward to working with you and with the 
chairwoman on the other piece of it, which is title 16, which 
does provide money for reclamation.
    My final point is that it was Richard Nixon that decided 
that the Federal Government had a role in cleaning up our 
sanitation systems.
    So with that, I yield back.
    Mrs. Napolitano. Thank you, Mr. Garamendi. I am asking in a 
bill to increase title 16 to $500 million. That is how serious 
I am about it.
    Mr. Westerman, you may proceed.
    Mr. Westerman. Thank you, Madam Chair, and thank you to the 
ranking member.
    And Madam Chair, I just want to say again thank you for--
what a privilege it was to work with you in the last Congress 
as ranking member on this subcommittee, and to be able to do 
the good work we did with WRDA and other issues, and I 
appreciate your continued efforts on this subcommittee.
    Madam Chair, if you remember, I have talked to you about a 
project going on in my district that we were going to try to go 
see, but COVID interrupted that. But we have got an agriculture 
water utility in my district that takes nutrient-laden water 
from the Arkansas River.
    They formed a crop irrigation district. And to participate 
in that, farmers stopped pumping water out of the Sparta 
aquifer, which is high-quality drinking water that serves six 
different States out of that aquifer, and they use the 
groundwater which--the crops actually act as a filter that 
cleans the water, takes the nutrients out, and releases clean 
water back into the Arkansas River, which eventually gets down 
to Representative Graves' district in the Mississippi River. 
And we know we have got issues with nutrient-laden water down 
there. So it is a real winner of a project.
    And I know, Mr. Colson, in your written testimony you 
talked about an Orange County, California, project that was 
conserving groundwater. And my question to you is would you 
agree that this type of innovative utility project that EPA 
states--should this type of project be funded through SRF 
funding, regardless of whether public or privately owned?
    Mr. Colson. Thank you for that question. It is important to 
note that many of these projects are case-specific to the 
locality to meet a specific need, and utilities at the local 
level are developing the business case for these projects. And 
SRFs need to be flexible to meet these local needs. And that is 
what we are really focused on.
    Mr. Westerman. Yes, so it seems like, since it is 
accomplishing the purpose of cleaning water and conserving 
groundwater, it would be a great project for SRF funding.
    And Mr. Colson, while I am talking to you, the methane you 
were talking about coming--or capturing that, how do you 
transport it?
    Mr. Colson. In that particular case, there was a natural 
gas pipeline that was already on the wastewater treatment plant 
property, and that pipeline went up through into downtown 
Raleigh. So there was a transportation mechanism already there 
that the utility was able to utilize. And of course, that 
really helped the business case for the utility to implement 
that type of project.
    Mr. Westerman. It was another instance of how a pipeline 
actually helps with the environment in safe and efficient 
transport of a biogas there.
    And back to the idea of SRF, I want to just open this up 
for any of the witnesses, and ask if you know if any private 
entities are eligible for funding under the Clean Water State 
Revolving Fund. In the case of addressing source pollution and 
integrated watershed management, actually, they are eligible 
for that funding. But what can Congress do to encourage more 
private-sector action to protect critically designated 
groundwater aquifers, and reduce nutrients like the project I 
was talking about, where they enter the Mississippi River 
Basin?
    And maybe also what about State-based nutrient trading 
programs? And I believe North Carolina has one of those.
    Mr. Colson. That is correct, North Carolina does have a 
nutrient trading program, and it is utilized by many of our 
municipalities to help protect our estuaries.
    Mr. Westerman. Would any other panelists like to address 
that?
    Well, I am running short on time, so I--actually, I was in 
a hearing this morning on the Natural Resources Committee with 
the Indigenous People of the United States Subcommittee. I 
heard a testimony there, a witness answered a question by Mr. 
Young. And actually, when it was my turn to ask questions, I 
went back and had the witness restate the answer, because it 
was just so shocking. But she stated that, up in Alaska, in 
this one particular area, that the utility connection fee is 
$350,000 to $700,000 per home. And in asking her to explain 
that in more detail, she said a lot of it is the regulatory 
process that has to be gone through to actually build these 
projects, and connect them, which--you know, I am a 
professional engineer, I know we have got other engineers on 
the Zoom today. That cost is almost unbelievable. But the 
witness stated that is the actual cost.
    Are there things we can do to relieve the regulatory 
burden, so that we can build out these much-needed water 
infrastructure projects, and do it with common sense and at a 
much lower cost?
    [Pause.]
    Mrs. Napolitano. Your time is up, Mr. Westerman.
    Mr. Westerman. Well, if anybody would like to submit an 
answer to the record, I would much appreciate that.
    And thank you, Madam Chair.
    Mrs. Napolitano. Thank you, sir.
    Mr. Malinowski, you may proceed.
    Mr. Malinowski. Thank you, Madam Chair, and thanks to the 
witnesses. Like many other parts of the country, my district in 
New Jersey has been affected in recent years by harmful algal 
blooms. We have seen them in a couple of lakes in Morris 
County, Lake Hopatcong, Budd Lake, a bunch of smaller ponds. We 
expect they are going to reemerge this summer.
    They have forced, in some cases, the temporary closure of 
lakes and ponds to recreation, to swimming, to boating, put an 
added strain on local economies that are dependent, 
particularly in the summer, on those activities. And of course, 
toxins from HABs can also harm drinking water treatment, also 
contaminate drinking water treatment facilities, as I am sure 
you are all aware.
    The most recent WRDA bill that was signed into law----
    Mrs. Napolitano. Has Mr. Mast returned?
    Mr. Malinowski [continuing]. Created a demonstration 
program to detect, prevent, treat, and eliminate these HABs 
associated with water resources development projects. And New 
Jersey was designated as a focus area for the program, which is 
good news for us.
    But there is a lot more work to be done. We know that both 
wastewater discharge and climate change are contributing 
factors, and we are working to address both of those in this 
committee.
    Ms. Hammer, I wanted to see if you might be willing to 
address this question, and let us know what are some of NRDC's 
recommendations to Congress on how best to address the problem. 
What strategies should be adopted at the State and local level 
to treat outbreaks?
    Are there any research gaps that still need to be closed?
    What more can we do?
    Ms. Hammer. Thanks for the question. So we know that 
nutrient pollution is the primary driver of harmful algal 
blooms, and that nutrients come from both agricultural sources, 
like animal and mineral fertilizers, urban runoff, sewer system 
discharges, wastewater treatment facility discharges.
    NRDC actually has a website dedicated to this issue that 
tracks how well States are monitoring algal blooms and reports 
that information to the public. So I would encourage anyone to 
check that out who is interested in how their State and local 
government are managing this issue.
    As you said, we also know that climate change makes algal 
blooms worse, between rising temperatures, more intense 
precipitation.
    In terms of solutions, a lot of things we are talking about 
today--green infrastructure can be a really important tool in 
reducing nutrient runoff from the urban environment. So can 
wetlands preservation, ensuring that wetlands are fully 
protected by the Clean Water Act, since wetlands can filter out 
the kinds of nutrients that cause algal blooms, as well as 
water conservation, making sure we are not withdrawing too much 
water from water bodies, because when they get stagnant, that 
is one condition in which algal blooms can occur.
    Congress can help with all of this by increasing funding 
for water infrastructure, especially green projects, so that 
communities can implement projects that reduce nutrient 
pollution.
    Mr. Malinowski. Great, thank you. So switching gears a bit, 
we all know that foreign adversaries of the United States use 
cyber operations to try to damage physical and digital 
infrastructure in our country. And earlier this year, as I know 
you are all aware, a water treatment plant in Oldsmar, Florida, 
was hacked. The intruders attempted to dramatically increase 
the amount of sodium hydroxide in the water treatment process. 
It was a near miss that could have proved catastrophic.
    A lot of experts have testified to this, former assistant 
director Chris Krebs, cybersecurity experts from the FBI and 
other agencies. Every State has been a target, to some degree. 
In New Jersey, our statewide IT system faces, actually, 
millions of attempted cyberattacks every single day, according 
to our State Office of Homeland Security and Preparedness.
    So I maybe pose this to some of the State and local 
representatives, and ask you all, how are you working to secure 
your systems against intrusions?
    Do you have the personnel and resources you need?
    Is there anything else that you would want to share with 
us, in terms of how the Federal Government can do more to help?
    Ms. Powell. Representative Malinowski, this is Kishia 
Powell, if I may.
    DC Water certainly looked at the incident in Florida, and 
did another assessment on our systems. We are continuously 
monitoring. We are fortunate enough to have cybersecurity 
personnel that are constantly monitoring our systems, which are 
critical systems, and our distribution system and wastewater 
treatment process. That also takes additional funding to 
maintain that infrastructure, and to make sure that we are 
resilient against any potential attacks.
    As the former commissioner of the city of Atlanta's 
Department of Watershed Management, I had to live through 
managing that system through the attack in early 2018 that the 
city of Atlanta experienced, so I would say that this is a very 
critical issue for all water and wastewater systems that 
certainly need to have the appropriate funding to make sure 
that we can not only hire the right people, but also have the 
right systems and security measures in place.
    Mrs. Napolitano. Mr. Malinowski, your time is up, sir.
    Mr. Malinowski. Thank you.
    Mrs. Napolitano. Thank you very much, Ms. Powell. We go on 
to Mr. Mast.
    You may proceed.
    Mr. Mast. Thank you, ma'am, Madam Chairwoman, I appreciate 
it.
    This has been spoken about at length. I want to just 
reiterate the need to update the Clean Water State Revolving 
Fund. It is so important for so many different States across 
the country. It has been spoken about in length, and I just 
want to reiterate my support for that, as well. I know we had a 
hearing back in February, I want to say, where we spoke quite a 
bit about this issue, as well.
    I want to speak a little bit about leadership for our 
country at this point. And as we talk about water management, 
and our Federal agencies, let's talk about this a little bit at 
30,000 feet. If I were to ask any of you, as our witnesses, to 
complete the sentence, could you complete it for me: Lead by . 
. .
    Go ahead.
    Mr. Ferrante. Lead by example.
    Mr. Mast. Lead by example. Anybody disagree with that?
    You think you would all complete that sentence in that way, 
``Lead by example''?
    And here is where I am going with this. As the Federal 
Government looks at water management, whether it is wastewater, 
or whether it is algal blooms, or anything else, we have these 
siloed Federal agencies like the U.S. Army Corps of Engineers, 
or the EPA, or others, and we will have the EPA make statements 
and determinations and conduct studies that our own Federal 
agencies won't adhere to. That is a major problem. That is not 
leading by example. That is an example of the left hand not 
talking to the right hand.
    And as I look at that as a situation, if we are going to 
have the EPA, and put all this these resources--and let the EPA 
go out there and say, ``This needs to happen in this way, we do 
not recommend you, State, that you do this, or you, person with 
a farm or a ranch, that you do this, or you, person with a 
business, that you do this,'' how in God's name do we allow 
other Federal agencies to do what one of the other Federal 
agencies is telling everybody else not to do?
    I don't really know why that is allowed to occur, but I 
would love to give--you are witnesses--a chance to sound off a 
little bit on that, as a statement, you know, I agree, I 
disagree, pound sand, whatever, you know. But if you would like 
to sound off on that, I would love to hear it, and have a 
little discussion on that.
    [Pause.]
    Mrs. Napolitano. Unmute, please.
    Mr. Neukrug. Thank you. Howard Neukrug from the Water 
Center at Penn and, you know, we are dealing with these issues 
everywhere, and you are absolutely right about the siloed 
activities that are going on at the agencies. And part of it is 
because the Clean Water Act and the Safe Drinking Water Act are 
siloed also, and they kind of created that kind of situation. 
Unfortunately, that siloing has gone down into the water 
utility.
    But when you look at this, when you really look at this, it 
is bigger than that. You are not just looking at a silo, the 
issue of the day [audio malfunction] but you are really looking 
at a community, you are trying to figure out what is best for 
this community. There is only so much money, and there are so 
many priorities, and they differ from block to block and from 
neighborhood to neighborhood.
    And I think the real secret here is how do we identify what 
the community needs, what their priorities are, and then how do 
we get the Federal Government agencies to assist those 
communities in what they need, whether it is a enforcement 
against an industry, or whether it is some funding, or whatever 
it may be. So it is a----
    Mr. Mast. I would love to pause you right there. I think 
you said something extremely important that has to be the goal 
of Congress: What does the community need? How are we of the 
people, by the people, for the people?
    And my time is running dry, but I think the important part 
of what you said there, one of the important parts of what you 
said there was--that I would read into in this way. No 
community needs the Federal Government to go out there and 
poison them.
    I don't know of one community across this country that 
says, yes, I need the Corps of Engineers or some other arm of 
the Federal Government to come in and mess up a part of my 
community.
    And with that I yield back, Madam Chairwoman.
    Mrs. Napolitano. Thank you, Mr. Mast, very much, for your 
testimony and your question.
    Mr. Carbajal, you may proceed.
    Mr. Carbajal. Thank you, Madam Chair.
    Mr. Ferrante, as part of America's Water Infrastructure Act 
of 2018, Congress established a Drinking Water System 
Infrastructure Resilience and Sustainability Program at EPA. 
This was based on legislation I worked on called the Water 
Infrastructure Resilience and Sustainability Act, also known as 
WIRSA. The program's purpose is to help small drinking water 
systems make their infrastructure resilient to natural hazards, 
including those associated with climate change and extreme 
weather.
    Do you believe it is important to also advance policies to 
ensure the Nation's wastewater infrastructure is similarly 
prepared to withstand the effects of climate change and extreme 
weather?
    And what sort of resilience and adaptation challenges are 
you facing at your utility?
    Mr. Ferrante. Thank you for that question, and thank you 
for your leadership on the issue. And to answer your question 
is, absolutely, wastewater treatment plants and utilities need 
to be included.
    We do have our own unique challenges when it comes to 
climate change, and we are seeing a number of impacts. I think 
some of the other speakers before talked about infiltration and 
inflow into sewer systems that occurs during rainfall events. 
And what we are seeing here, and even in southern California, 
we are seeing less rain, but when it rains, it rains very 
powerfully, very locally, and can inundate sewer systems.
    And we have had also, even though our overall flow is down, 
as I mentioned before, because of water conservation, we are 
seeing some of these big storms can really tax our whole 
system. And that is one reason why we have really had to look 
at our overall capacity, as well. So there is a number of 
issues there.
    And then, of course, we all know the number of people that 
live in coastal communities around not only in California, but 
around the country. And those areas are not only seeing, you 
know, potentially, the effects of sea level rise, but storm 
surges are becoming more and more significant. And when you now 
couple a flooding event, flooding a sewage pumping plant that 
is along the coast, now you have really created a bad problem 
and made it worse when you have mixed in, unfortunately, 
wastewater. So there are a number of activities.
    We have started looking and doing our own assessments at 
our treatment plants. We are going to try and do our complete 
system here in the next couple of years, in terms of what we 
have to do. But by all means, if there could be an incentive 
and funding for wastewater utilities to do that, especially the 
smaller ones that don't have the expertise in-house to do it, 
that would be very helpful because, obviously, now these 
systems are so integrated, too, when you talk about recycled 
water, that it is not just the wastewater, it could be 
something that is a new supply and a recycled water, and leads 
to drinking water. So they are linked----
    Mr. Carbajal. Thank you, Mr. Ferrante. I am trying to get 
in a second question.
    Ms. Hammer, I represent a coastal district in California, 
and we have seen our fair share of extreme weather events due 
to climate change. Apart from addressing the climate crisis, 
what steps should wastewater systems be taking, steps to 
prepare their infrastructure and operations, to withstand the 
effects of climate change and extreme weather?
    And two, can you discuss the importance of a standalone 
grant program for clean water resilience projects that you 
discussed in your testimony?
    Ms. Hammer. Thanks for the question. There is a lot that 
wastewater and stormwater utilities can be doing to build 
resilience to climate impact. You know, distributed green 
infrastructure throughout their service area is one way to 
reduce the amount of water that is entering the system, which 
can be incredibly helpful in combined sewer systems.
    Of course, that is not going to solve every problem that 
faces wastewater utilities. A lot of wastewater treatment 
plants, as you know, are located in low-lying and coastal 
areas, because that is where they need to discharge their 
effluent. And so those facilities are extremely vulnerable to 
sea level rise. There was a study recently that showed how many 
millions of Americans could lose wastewater treatment with even 
a modest amount of sea level rise. So those facilities will 
need to consider longer term hardening their facilities, or, 
ideally, relocating them to higher ground.
    In terms of a grant program, we strongly support the grant 
program that you have proposed that would enable utilities to 
take some of these measures. So thank you. Thank you for your 
support.
    Mr. Carbajal. Thank you very much. I ran out of time, I 
yield back.
    Mrs. Napolitano. Thank you, Mr. Carbajal, we very much 
appreciate it.
    Miss Gonzalez-Colon, you are next. You may proceed.
    Miss Gonzalez-Colon. Thank you, Madam Chair. First of all, 
thank you for holding these continued hearings that are so 
vital for health, safety, and the future economic recovery of 
our communities. And I think wastewater management is an 
essential part and a component in developing the housing 
industry without which a community cannot survive, much less 
grow.
    In that sense, extreme weather will impact wastewater 
infrastructure. Many treatment plants lie in flood risk areas 
and locations that will be at risk because of the sea level 
rise. And this, of course, requires that any infrastructure 
initiative consider there will be conditions in the future on 
how those natural disasters that are periodic may now 
intensify.
    In that sense, that is why, in our disaster relief bills in 
the past two Congresses, we included provisions to allow Build 
Back Better processes. And these must be part of any program, 
since by building to improve standards we can have an 
infrastructure that is more resilient and can handle emergency 
situations better.
    And again, resilient does not mean that infrastructure is 
going to be indestructible, it is that we may recover fast 
about those emergency situations.
    Just in the case of Puerto Rico, the main water utility, 
PRASA, in the aftermath of the disaster of 2017, the wastewater 
infrastructure suffered over $680 million in immediate damages 
under FEMA emergency categories. An additional $3.7 billion 
allocation for all water and wastewater operations has been 
announced by FEMA.
    Of course, securing those priorities of the funding for the 
wastewater sector, especially for economically disadvantaged 
areas, needs the attention of this committee on where the money 
is going to come from. We must consider those communities that 
do not have the cash or the resources for matching, or even in-
kind, in order to benefit from any infrastructure rebuilding 
initiative.
    I think it is important that this committee have the 
testimonies of representatives of EPA, and the Army Corps of 
Engineers, and other Federal agencies that could actually 
oversee important infrastructure. There is many, many funds 
that have been approved by FEMA, by the Stafford Act in many 
instances, not just in hurricanes, earthquakes, flooding areas 
across the Nation. How those Federal agencies are managing with 
the local communities and with the local governments in order 
to maximize the resources that have been approved, and not 
having the same mistakes by investments that are not being 
resilient.
    So in that sense, I think the expertise of people of the 
panel, I just can ask Mr. Colson, Ms. Powell, what will you say 
are the specific areas within the wastewater infrastructure 
that will increase Federal participation that will make the 
greatest impact?
    I know we may not have the money for all. Which do you 
understand will make the big difference?
    Ms. Powell. This is Kishia----
    Miss Gonzalez-Colon. Whoever on the panel--Ms. Powell, Mr. 
Ferrante----
    Ms. Powell. Yes, this is Kishia Powell. I agree with 
everything that you said, and thank you for the question. It is 
critically important that, first, we protect our wastewater 
treatment facilities. Blue Plains is the largest advanced 
wastewater treatment plant in the world, and we are taking 
measures to protect that facility with a flood wall. We are 
making that investment with support and grant funding from 
FEMA.
    It is also important that we protect the pump stations, and 
it is important that we invest in the sewers that convey flows 
to the treatment plant, and making sure that, where possible, 
we are providing additional capacity in our sewers. Much of the 
District's sewer system is a combined system, which happens to 
cover the most vulnerable communities in the District. And as I 
said, when we had a major flash flood event, more than 300 
homes were impacted by sewer backups and surface flooding.
    So it is important that we make the investments to improve 
our wastewater infrastructure so that we don't have continued 
impacts to vulnerable communities, which are most often 
communities of color, and those that can ill afford the costs 
of cleanup and restoration.
    Miss Gonzalez-Colon. Thank you, Ms. Powell.
    I know my time has expired, so I will submit the rest of my 
questions to the record. Thank you, I yield back.
    Mrs. Napolitano. Thank you, Miss Gonzalez-Colon, and we 
will proceed with Mr. Stanton, followed by Mr. LaMalfa.
    Mr. Stanton. Thank you very much, Madam Chair, for holding 
this important hearing about the need for innovative 
investments to ensure our wastewater infrastructure is 
resilient against the impacts of climate change.
    The Southwest is rapidly changing and growing, and nowhere 
is it more evident than in my State of Arizona. In 2019, 
Arizona ranked third in population growth, with many of our 
communities growing significantly faster than the national 
average.
    We are also facing extended drought and extreme heat, and 
last summer was Arizona's hottest on record. These facts make 
our water needs both serious and urgent. To sustainably welcome 
and provide for the millions of people who call our region 
home, we must invest in our water infrastructure and secure our 
water future. And those investments need to be partnerships, as 
well, partnerships at the local, State, and Federal level 
between urban, rural, and Tribal communities.
    As the former mayor of Phoenix, I know firsthand that local 
leaders must be innovative when it comes to addressing our 
infrastructure and planning for our water future. And frankly, 
we can't afford the alternative. We know that the future of our 
residents and our economy depends on how well we anticipate, 
plan, and respond to our water-related challenges and the 
continuing impacts of climate change.
    In Phoenix, we have long recognized the need to adapt to 
climate change, and this has only become more urgent in the 
last 20 years, as prolonged drought has taken a significant 
toll on the Colorado River, which supplies the city with nearly 
40 percent of its water. As mayor, we established the Colorado 
River Resiliency Fund to set aside capital dollars specifically 
for investment in resiliency efforts along the Colorado River. 
This fund has not only ensured the city has the water supplies 
necessary to meet its growing needs, but that water will be 
available in uncertain times of drought and climate change.
    Arizona has also led the way in the use of reclaimed water. 
The city of Phoenix reclaims wastewater and uses artificial 
wetlands to improve its quality after it leaves the plant. The 
Cities of Mesa and Chandler in my district, they partner with 
the Gila River Indian Community to reclaim wastewater and 
deliver it to the Tribe, where it is used for non-food-crop 
agriculture. For every 5 acre-feet delivered, Mesa and Chandler 
receive 4 acre-feet of Colorado River water that can be used to 
meet potable demands. The partnership has helped the Gila River 
Indian Community access additional water, and at the same time, 
Mesa and Chandler benefit by converting reclaimed water into a 
potable supply.
    These investments are necessary, but they are costly, 
especially for smaller communities that do not have the 
population base to support major investments at levels that are 
affordable. Local governments are doing their part, but now it 
is critical that, here in the Federal Government, we do our 
part to support and incentivize water reuse and recycling 
projects through robust investment in the Clean Water State 
Revolving Fund.
    My first question is for Mr. Ferrante. How important is 
water reuse and recycling to ensuring our infrastructure is 
resilient and sustainable, particularly as we continue to 
experience prolonged drought in the Southwest and the Colorado 
River Basin?
    Mr. Ferrante. Thank you for that question. And I think I 
have mentioned it before, but I will reiterate it. I think the 
water recycling is a must as we move forward with respect to 
being resilient to climate change and the drought.
    The last drought here a few years ago in southern 
California took the groundwater basins to near record-low 
levels. And that has significant impacts. Not only does it eat 
up whatever supply or buffer you had against a prolonged low 
period, but it increases pumping costs, makes pumping more 
difficult out of those groundwater basins, too. That affects a 
whole population, everybody across the board here.
    So water recycling has to be a core endeavor. All of these 
systems are intertwined, too. southern California, as you are 
well aware, depends on the Colorado River, as well, as well as 
the State aqueduct system here, too. And all the recycling that 
we can do here means this region needs less of that water, and 
allows more of the water to stay locally. So it is a must, not 
only for our area, but also for the benefit of the overall 
Southwest region.
    Mr. Stanton. Thank you so much. My time is up. I yield 
back.
    Mrs. Napolitano. Thank you, Mr. Stanton. And with that we 
will go to Mr. Katko, followed by Ms. Norton.
    Ms. Norton. Thank you, Madam Chair.
    Mrs. Napolitano. Mr. Katko is next. I am sorry, Ms. Norton, 
that was Mr. Stanton. Mr. Katko is next. Is Mr. Katko 
available?
    Mr. Katko. Yes, I am. Yes, I am. Thank you very much, Madam 
Chair, and thank you, all the witnesses, for joining us today.
    Given the focus of this discussion on improving the 
efficiency, adaptability, and resiliency of our water 
utilities, I would like to hear from the panel on how the 
deployment of smart water technologies can help achieve these 
goals.
    As we know, these tools can help utility operators rapidly 
identify inefficiencies, blockages, or potential water loss 
points across treatment collection and distribution systems. 
Additionally, expanding the deployment of innovative sensors 
can assist with the proactive identification of environmental 
hazards, as well as resiliency and risk mitigation efforts 
focused on long-term vulnerabilities.
    Finally, these increased efficiencies and decreased costs 
on the provider side translate to real savings and more 
affordable water for ratepayers.
    Lastly, I introduced the ARPA-H2O Act to expand Federal 
investments in innovative water technologies, and I look 
forward to working with the committee to continue advancing 
these priorities this year.
    Mr. Neukrug, what successful use cases for smart water 
technologies have you observed in your research?
    Mr. Neukrug. Well, thank you for that question. Certainly, 
we are looking at--and it is being installed all over the U.S. 
and the world right now--are automatic metering systems that 
give immediate response to homeowners to let them know if they 
have a leaky toilet, or there is too much water being used in 
the property. And you take that, and extend it out, as you 
indicated, to new sensors that can work in the distribution 
system to identify where leakage happens, and stop that pretty 
quickly.
    So, you know, just from that area of the distribution 
system, you have an incredible ability to reduce costs, reduce 
water loss, and improve the overall health of the water.
    You move further into the treatment plants, and you can 
also see that there is a lot of major activity happening with 
digitization of how you take all the different information you 
have, all the big data, what our utilities are collecting data 
on, on a minute-by-minute basis, and it is too much for anybody 
to be able to assess. You need some form of artificial 
intelligence to take this data, and put it down, and make it so 
that you can use this data properly, as things come up, and 
also to just have a record that things are going well.
    So those are a few examples of the smart water systems. I 
love the new--my favorite is these pictures that I have from--
particularly, from some of the Asian communities, where they 
are using floating solar cells, and using this, and they help 
protect the water supply because they prevent the evaporation 
of reservoirs, and water quality, and also producing the kind 
of electricity that we all need.
    Mr. Katko. Thank you very much.
    Mr. Colson, have you observed similar use cases in your 
work with the Council of Infrastructure Financing Authorities?
    Mr. Colson. I have not personally worked with smart 
sensors. However, I know a lot of our utilities are using big 
data and artificial intelligence to analyze their situation.
    I think, for a lot of our small systems, the challenge is 
conveying that information down to the local community, where a 
town manager is the town manager, but he is also the public 
works director. And that is a real challenge for them to 
understand the technology, but also take the risk of investing 
in that technology when there is uncertainty of the technology, 
and how long it will last.
    Mr. Katko. So what do we do, Mr. Colson, to try and bridge 
that gap, the educational knowledge gap on the local level?
    Because to me, that is critically important for--and you 
are exactly right, a lot of these people wear several different 
hats as part of being in a town, and they can't understand it 
to the depth and extent that folks like you and Mr. Neukrug and 
others can. So what do we do in that regard?
    Mr. Colson. I think that is why resource agencies are so 
important in water infrastructure management, and in meeting 
our water infrastructure needs. Agencies like Rural Water 
Association, our Environmental Finance Centers across the 
country, those are important aspects to helping the utilities 
and lifting them up so the utility itself can be resilient, so 
that the infrastructure they manage can be resilient.
    Mr. Katko. OK, thank you very much, gentlemen. I have many 
more questions, but my time is up, so I will yield back.
    And Mrs. Napolitano, as always, it is wonderful to see you, 
my friend.
    Mrs. Napolitano. Thank you, my friend, and thank you for 
your questions.
    I will now yield to Ms. Norton, followed by Mr. Lowenthal.
    Ms. Norton. Thank you, Madam Chair, for this very important 
hearing, and my first question is for Ms. Powell.
    Your testimony--and I am quoting you--``Climate change is 
all about water,'' it couldn't be more true. And again, I am 
quoting you, ``Water is life.'' So this is so important, and as 
is this hearing focused on climate change.
    In your testimony you mentioned that thermal energy in DC 
sewers is unique to the District, and yet is untapped, I guess, 
elsewhere. I wish you would elaborate on that. What are the 
advantages, what is the importance?
    Ms. Powell. Yes, ma'am, and thank you for the question, Ms. 
Norton.
    Thermal energy in DC Water sewers is not unique to the 
District, but unique to DC Water in the district. As the single 
largest energy consumer in the District of Columbia, we sit on 
a significant amount of green energy potential. We are 
currently doing combined heat and power generation at the Blue 
Plains Advanced Wastewater Treatment Plant. We have implemented 
a first phase of solar projects, which, in turn, helps to 
reduce, through the DC Solar for All program, energy burden on 
vulnerable households. And we are looking at additional phases 
of solar at Blue Plains, as well as our other facilities.
    And as part of our energy opportunities focus, which we 
reinvigorated at the start of the year, we are looking at many 
projects to utilize the thermal energy from our sewers and our 
wastewater treatment process. The headquarters building that I 
am sitting in right now is 100 percent supplied by thermal 
energy from the pump station that our headquarters is wrapped 
around, and we have identified more than 200--I believe 200--
megawatts of thermal energy that exists in our sewers, should 
we be able to harness that and potentially use that in other 
areas of the District.
    Ms. Norton. Well, what the District is doing is a terrific 
example for the rest of the country in this regard.
    I understand that ratepayers are currently paying 95 
percent of the costs associated with this energy. What are the 
most effective steps we and the Congress can take to reduce the 
burden on ordinary customers?
    Ms. Powell. I think the work that the committee is doing 
now, as I mentioned, the legislation that is being considered 
to provide close to $50 billion in funding for water and 
wastewater infrastructure, is a start. But I think we 
definitely need to make sure that there is more grant funding.
    We also need to make sure that there is a Federal low-
income water assistance program, because, even though DC's 
rates are moderately low, they are increasing, just as other 
utilities across the country. Every community has vulnerable 
households that still can't afford it. And we have to continue 
to make investments. Even though the investments that we are 
making in DC are cost-effective, and we are using any savings 
that are generated from our investments to reinvest in other 
critical infrastructure, we have to be mindful that it presents 
a burden on local ratepayers.
    Ms. Norton. Well, thank you for that response.
    Ms. Hammer, you have noted, I think, quite correctly, that 
frequent flooding and heavy precipitation events pose a threat 
to wastewater service. In your opinion, what are the ways that 
public water systems like our own, for example, can prepare for 
these extreme weather events?
    Ms. Hammer. Thanks for that question. And just, you know, 
anecdotally, we have seen so many extreme weather events just 
here in the DC area. I live in Alexandria, Virginia, and we 
have had three 100-year storms, I think, in the last year, 
which is causing a lot of wastewater infrastructure and 
stormwater infrastructure problems.
    Again, I would just emphasize the importance of deploying 
more distributed green infrastructure that can soak up the 
water before it hits the sewer system in the first place. It is 
incredibly cost effective, when you factor in the long-term 
operations and maintenance, compared to hard infrastructure. 
And it is also more scalable than hard infrastructure, which is 
really--once you build it, it is locked in, and it is not very 
adaptable to changing rainfall patterns.
    Ms. Norton. Thank you, Madam Chair. My time is virtually 
expired.
    Mrs. Napolitano. Thank you, Ms. Norton. And right now I 
should go back to Mr. LaMalfa, if he is available. Sorry, Mr. 
Lowenthal.
    Mr. LaMalfa?
    [Pause.]
    Mrs. Napolitano. Mr. LaMalfa?
    I guess he is not on. Mr. Lowenthal, you are next----
    Mr. Lowenthal. I am available, and it is good to see you, 
Madam Chair, and I want to thank you and all the witnesses for 
this very, very interesting hearing on wastewater, on building 
resiliency, and sustainable wastewater infrastructure.
    And I also want to thank especially Mr. Ferrante talking 
about the importance of the Clean Water State Revolving Fund 
for infrastructure, and also the tremendous need for water 
recycling. My district in southern California is about half-
and-half between L.A. County and Orange County. But I 
especially want to point out the leadership of Orange County in 
wastewater recycling. They have done a phenomenal job.
    But I am interested in the prevention side. We are talking 
about the infrastructure, but I would like to know whether you 
are aware of what is getting into your wastewater, what is 
getting into our entire water stream. And that is the global 
crisis of and the failure of our recycling systems. And that is 
the plastic pollution, which is a crisis throughout the world 
now, and throughout our Nation.
    You know that less than 8 percent of the products that we 
get are ever going into a recycling bin. And of that, only 3 
percent actually gets put into new products. So the vast 
majority of our plastics end up in incinerators, and out in the 
ocean, in our wastewater. And so I am interested, do you see 
this problem?
    And I have a bill. I work on the prevention side. How are 
we going to break free from plastic pollution, and how, instead 
of holding agencies like your agencies, and counties, and 
cities from doing recycling themselves, hold the producers 
accountable, in terms of extended producer responsibility 
projects? That is what I am working on, and I have a bill with 
Senator Merkley over in the Senate called the Break Free from 
Plastic Pollution Act.
    The problems are--is that the growth we--you know, Senator 
Merkley keeps pointing out we are ingesting, from our water 
system or our food, about a credit card's worth of plastic into 
our system a week, all of us. That is the average now, studies 
are saying. A broken recycling system, microfibers from wet 
wipes are going into our--they are not supposed to be flushed, 
but they end up in our waste system. Plastics are breaking down 
into microplastics. They are all going into our water system 
and our wastewater system.
    Let me just ask the panelists, are you aware of this 
problem, and is this an issue of concern for those dealing with 
wastewater?
    I am talking about the prevention of this because I don't 
think that you should be the ones that are responsible for 
cleaning it up, either. But I want to understand how you are 
dealing with the issue of plastic and plastic pollution that is 
getting into our waste stream.
    Mr. Ferrante. I appreciate the question, and I guess I will 
try and answer it first here, but yes, we are concerned about 
microplastic pollution.
    Our agency, as well as Orange County, is part of the 
Southern California Coastal Water Research Program, which 
conducts monitoring off the coast of southern California. It is 
called the Bight. And one of the assessments it has started 
doing is looking at plastic pollution that is in the ocean, in 
the sediments. And unfortunately, it is finding more and more 
of it getting into our oceans.
    So we are concerned about it, and we are developing methods 
to be able to monitor the microfibers that you discussed to see 
its fate through our treatment plants. For the most part, we 
have filtration as our tertiary--or towards the end of our 
plants, and that does a good job of removing almost all of the 
microplastics.
    But it is an issue of concern, and we do definitely support 
the producer responsibility that you are talking about, 
because, when you look at these issues across emerging 
contaminants and other issues, source control is, by far, the 
best and most efficient way to reduce pollution. By the time it 
comes to us, it comes in concentrations and mixed with other 
waste that make it very difficult to remove, whether it be 
microplastics or other things.
    So source control is--and source reduction--with a producer 
responsibility, is definitely the way to go, and I will let 
somebody else expand on that.
    Mrs. Napolitano. I am sorry, Mr. Lowenthal, you are out of 
time.
    Mr. Lowenthal. For now, I am out of time for now, but this 
issue is not going away.
    Mrs. Napolitano. You can put your questions in writing form 
for us, please.
    Mr. Lowenthal. Thank you.
    Mrs. Napolitano. And next, Mr. Huffman, you may proceed.
    Mr. Huffman. Thank you, Madam Chair. I hope you can hear me 
on my cell phone here, I had some technical difficulties.
    But this is a very important subject. I am glad you 
convened this hearing. And as we invest in wastewater 
infrastructure, I think it is important that we do that with an 
eye toward the 21st century, making sure we ``build back 
better.'' That needs to include the challenges of climate 
change. And we know that wastewater infrastructure has to be 
ready for sea level rise, as well as stronger, more frequent 
storms, flooding, and drought. Others have spoken to that.
    The bipartisan Water Quality Protection and Job Creation 
Act, which I am very proud to cosponsor, would help us. It 
would reauthorize the Clean Water State Revolving Fund, and it 
includes many provisions to mitigate and respond to climate 
change. So I would like to ask Ms. Hammer, if I could start 
there, about the success that we have seen with green and 
nature-based infrastructure projects in helping manage 
stormwater, trapping pollutants before they can reach 
ecosystems like the San Francisco Bay.
    And if you could, please, describe how these green and 
nature-based infrastructure projects support clean water, 
climate resilience, and how Congress can promote more of this.
    Ms. Hammer. Thanks for the question. Green infrastructure, 
of course, is kind of a catch-all term for a whole bunch of 
different practices, but they all work in more or less the same 
way, which is that they mimic nature by capturing rainwater 
where it falls, infiltrating into the ground, having it taken 
up by plants, or capturing it for reuse, which reduces the 
amount of runoff that is going into waterways, and recharges 
groundwater supplies, addressing a number of different climate 
impacts. And because so many of them use vegetation, they also 
store carbon and help reduce the carbon impacts of climate 
change, as well.
    So the green project reserve and the Clean Water State 
Revolving Fund, is--we have been talking about that a lot 
today, it is such an important source of funding. Despite the 
fact that it has made up a relatively small proportion of Clean 
Water SRF assistance to date, I think we can do a lot better 
using that program to incentivize those projects by making it 
permanent, and also increasing the amount of additional 
subsidization that is available for those and other projects.
    Mr. Huffman. Thank you for bringing up the green reserves. 
And I want to ask Mr. Neukrug about that, as well.
    More and more utilities are getting involved in renewable 
energy, producing enough to manage their own operations, 
sometimes even selling it, the excess, on the market. And in my 
district, in Healdsburg, I recently toured a photovoltaic 
project, where a 25-million-gallon wastewater pond now contains 
11,600 solar panels, not only producing enough clean energy for 
the city of Healdsburg--not just the wastewater plant, but the 
city--but also providing algae control, preventing algae from 
building up in that project.
    Can you speak a little bit to how this green reserve is an 
important way to support innovation in wastewater, like what we 
are doing in Healdsburg?
    Mr. Neukrug. Oh, it is so incredibly important. It is--you 
know, essentially, there is--we are prioritizing our 
environmental needs, because there is not enough money to do 
everything that we need to do. And having a green reserve is 
really incredibly important, because it is dealing with the 
innovation and the new types of systems that we want to put in 
place for the next 50, 100 years. This stuff has to last, we 
can't replace this every 10 years.
    And with the uncertainty with climate, you want to do 
things that are a little bit more decentralized perhaps, so 
that you are not putting all your eggs in one basket. And just 
really simple examples here is this--when you look at the 
wastewater plants, and you look at the outfalls, and you 
realize that all these plants are going to have to be moved or 
maybe pumps added that are going to have to run continuously so 
you can pump the wastewater, the effluent higher than the 
ocean.
    These are all serious concerns that are going to take a lot 
of money, and a lot of work together amongst everyone on this, 
everyone on this call, and many others in order for us to 
resolve that.
    Mr. Huffman. Yes. Thank you, Madam Chair, I yield back.
    Mrs. Napolitano. Thank you, Mr. Huffman, it is very nice of 
you to come on.
    Mr. Kahele, you are next. You may proceed.
    [Pause.]
    Mrs. Napolitano. Mr. Kahele?
    Mr. Kahele. Thank you, Chair, and I appreciate the 
opportunity to waive on to the committee hearing today on your 
agenda. I really appreciate that, and giving me this 
opportunity.
    I am here because there is a major issue in my district and 
in the State of Hawaii as it relates to water and clean water. 
And that is our cesspools, and our very disturbing state of our 
water treatment facilities throughout the State of Hawaii. I 
think Hawaii, in many cases, can be viewed as the best example 
in a developed nation which has one of the worst sewage 
disposal and contamination problems that exist that affect our 
freshwater supply, our streams, and our nearshore environments.
    And I appreciate the testimony of the testifiers today. It 
has a lot of great information here for me to take back to my 
district. In Hawaii, Chair, we have about 88,000 cesspools that 
still exist throughout the State. They discharge about 53 
million gallons daily of raw, untreated sewage into the 
groundwater that ends up in our freshwater supply, our streams, 
our nearshore marine environments. We have AOCs from the EPA 
throughout Hawaii. We violate the Safe Drinking Water Act, the 
EPA's requirement to, I guess, get rid of large-capacity 
cesspools since 2005 that have been in existence in Hawaii. And 
it is a dire situation that we have.
    So I am here to learn about what we can do in Hawaii to 
address this, and my question is to Ms. Hammer regarding your 
testimony. There is tremendous opportunity in this Congress to 
address America's infrastructure, including the needs of our 
wastewater.
    As I just described, Hawaii has great wastewater needs, and 
we lead the country in the number of cesspools that exist 
throughout the Hawaiian Islands. In addition, we have 
wastewater treatment facilities that have not been maintained, 
and it is facing a crisis.
    Can you talk a little bit about how, in Hawaii, we can 
address these problems, especially in rural communities like 
the Second Congressional District that do not have the ability 
to connect to sewer lines, or local geology like a shallow 
water table near coastal areas, like you mentioned earlier, 
make it difficult to upgrade?
    Ms. Hammer. Thank you for the question. Unfortunately, 
Hawaii is not the only place in this country where access to 
sanitation is a dire issue. We have also seen serious problems 
in Tribal communities in the Southwest, as well as communities 
in the Black Belt of Alabama.
    There are technical solutions that are being developed. I 
would refer you to the work of Catherine Flowers, who is a true 
champion on this issue.
    In terms of policy solutions, these are the kinds of 
problems that we see in rural areas, low-income areas that 
traditionally do not have the rate base to take out a 
traditional Clean Water SRF loan that they would then have to 
repay. It is very difficult for them for many reasons, which is 
one reason why it is so important to bring more additional 
subsidization and grants into the SRF program, so that we don't 
have a two-tier sanitation system in this country, where 
wealthy communities have functional infrastructure and small, 
rural, disadvantaged communities have cesspools that are 
failing.
    So that would be my primary recommendation, is to make sure 
that more grant funding is available.
    Mr. Kahele. Thank you, that is something I will try and 
push for in this Congress.
    With the remaining use of my time, Mr. Colson, my 
congressional district comprises eight of the main Hawaiian 
Islands, many, many small communities, former plantation 
communities. How can we make the Clean Water State Revolving 
Fund more flexible for small communities in my district?
    Mr. Colson. Thank you for that question. I think it is 
important to recognize the impact of Federal mandates on these 
small communities and in the SRFs to ensure that we can meet 
the needs of those small communities, and one of the aspects is 
technical assistance to ensure that they are able to, not just 
get the water infrastructure funded, but also to maintain and 
operate it, and to build the rates that they need to renew that 
infrastructure when it has reached its useful life.
    Mr. Kahele. Thank you, Chair.
    Mrs. Napolitano. Thank you, Mr. Kahele. That wraps up all 
the witness testimony.
    [Pause.]
    Mrs. Napolitano. I am sorry, I have a problem, but I wanted 
to comment on a few things.
    First of all, education of the public about what you are 
doing, and having them aware of how important it is that you 
are successful in getting funded, not only from the [inaudible] 
on things that you are talking about.
    I understand that today California may be in drought again. 
So the Governor is going to make a statement, I understand. The 
Bureau of Reclamation is saying the 24-month projection of the 
Colorado River is dire. So we are in need of recycled water 
continuing to grow and help our agencies.
    But I miss Earth Day. Mr. Ferrante; 2 years now we haven't 
had Earth Day, so I miss it.
    And then maybe there might be some help for Mr. Kahele from 
you, into what lessons you have learned, what you can do.
    But I really thank everybody.
    I ask unanimous consent that the record of today's hearing 
remain open until such a time as all our witnesses have 
provided answers to any questions that may have been submitted 
to them in writing.
    I also ask unanimous consent that the record remain open 
for 15 days for additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    And without objection, so ordered.
    I would like to thank all our witnesses again for your 
helpful and informative testimony today, and I want to thank 
staff for all their help.
    If no other Members have anything to add, the committee 
stands adjourned. Stay safe, everybody, and thank you very 
much.
    [Whereupon, at 1:24 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Napolitano and Ranking Member Rouzer, for holding 
this hearing, and thank you to our witnesses for being here.
    Communities continue to face shifting challenges and increasing 
costs related to wastewater infrastructure.
    To address this, they may look to incorporate water conservation 
and energy efficiency practices to reduce energy costs at wastewater 
treatment plants.
    We will also discuss the challenges communities face in responding 
to extreme weather events and how wastewater facilities can improve 
their resiliency to endure such events and maintain their critical 
operations.
    I understand these challenges well. In my home state of Missouri, 
we experienced devastating floods in 2019--dangers that continue to 
threaten many of the same areas.
    However, as we discuss policies to address these challenges, it is 
important to keep in mind that small and rural communities may face 
differing sets of circumstances and have difficulties implementing 
programs that work well in urban areas. So, flexibility in programs, 
permitting, and meeting regulatory requirements is important.
    I look forward to hearing more from our panel of experts here today 
about these issues and solutions that can address the unique needs of 
different communities.
    I yield back.

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Chairwoman Napolitano for holding today's hearing to 
continue our engagement in an in-depth exploration of the potential 
policies and practices that would allow our nation to increase the 
resiliency and sustainability of our wastewater utilities. Investing 
more substantially in our wastewater infrastructure system would also 
provide a vehicle for our nation to more easily meet the requirements 
of the Clean Water Act. I would like to thank our outstanding witnesses 
for testifying today, and my colleagues on the Water Resources and 
Environment Subcommittee for working to address the critical issues 
before us. Beyond a doubt, all Americans need to have access to clean 
water, and making substantive improvements to our nation's wastewater 
systems would benefit not only our nation's need for clean water but 
also provide tremendous environmental benefits to our planet overall.
    Certainly, the need to improve our wastewater treatment systems and 
stormwater infrastructure is clearly an urgent one. Indeed, as 
evidenced by the American Society of Civil Engineers 2021 Report Card 
for America's Infrastructure, the grade for wastewater treatment 
infrastructure has remained at a D+ for the last four years, while the 
new category of stormwater infrastructure has received a grade of D.
    Moreover, according to the most recent needs survey from the U.S. 
Environmental Protection Agency conducted nearly 10 years ago, 
communities nationwide have documented at least $271 billion of 
investment over the next 20 years to bring their systems to a state of 
good repair. However, although these figures and environmental 
evaluation appear discouraging, we know that we have an opportunity to 
make significant improvements to our wastewater systems, and thereby 
augment our energy efficiency. One item that I believe needs to be 
incorporated into a model for improving our wastewater systems is to 
adopt renewable energy technologies. These ``green'' technologies are 
indispensable to our nation's effort to increase efficiency while 
simultaneously decreasing energy costs and environmental footprint.
    In the Dallas-Ft. Worth area, local governments are making major 
investments in critical wastewater and stormwater infrastructure. Over 
the next two years the city of Dallas will invest approximately $270 
million on wastewater infrastructure, replacing miles of wastewater 
pipes and making tens of millions of dollars in upgrades to the city's 
two wastewater treatment plants. In addition, the city has embarked on 
an ambitious $34 million plan to extend water and wastewater 
infrastructure to unserved portions of the city, many of which are in 
my district. The unserved areas program will increase equity across 
Dallas' water and wastewater systems and provide service to all 
residents. And in addition to local efforts to fund this critical 
infrastructure, we need to ensure that federal dollars are being 
adequately invested as well.
    I want to again thank you, Madam Chair, for holding today's 
hearing. I am pleased that our subcommittee is working to increase 
funding for the Clean Water State Revolving Loan Fund and to 
reauthorize the WIFIA Loan Program. And I am looking forward to 
expanding even beyond those proposals and augmenting federal investment 
in this critical area to serve the water needs not only of my 
constituents, but of Americans across the United States.

                                 <F-dash>
    Statement of Patricia Sinicropi, Executive Director, WateReuse 
   Association, Submitted for the Record by Hon. Grace F. Napolitano
    Thank you for providing the opportunity to submit written testimony 
on Sustainable Wastewater Infrastructure: Measures to Promote 
Resiliency and Climate Adaptation and Mitigation. I submit this 
testimony today on behalf of the WateReuse Association and its members 
to highlight the importance of water reuse and recycling in building 
resiliency and strengthening America's infrastructure.
    WateReuse is a not-for-profit trade association for water 
utilities, businesses, industrial and commercial enterprises, non-
profit organizations, and research entities that advocate for water 
recycling. WateReuse and its state and regional sections represent 
nearly 250 water utilities serving over 60 million customers, and over 
200 businesses and organizations across the country. The WateReuse 
Association's mission is to engage its members in a movement for safe 
and sustainable water supplies, to promote acceptance and support of 
recycled water, and to advocate for policies and funding that increase 
water reuse.
    Water reuse, also known as water recycling, is the process of 
intentionally capturing wastewater, stormwater, saltwater or graywater 
and cleaning it as needed for a designated beneficial freshwater 
purpose, such as drinking, industrial processes, irrigation, 
groundwater replenishment, and watershed restoration. The fundamental 
principle of water reuse is using the right water for the right 
purpose, everywhere and all the time. By advancing water reuse, we 
protect and enhance the environment while helping communities build 
resilience to climate change.
    Across the country, water, wastewater, and stormwater managers have 
shown that water recycling is often a central feature in innovative, 
integrated approaches to solving water management challenges, including 
challenges brought on by climate change. In the West and South, the 
integration of water recycling has often been driven by water supply 
challenges and the need for drought-resilient supplies. Elsewhere in 
the country, in the Pacific Northwest, and in cities such as Chicago, 
Atlanta, and New York, water recycling has been used to help manage 
stormwater, address water quality challenges, and relieve overburdened 
combined sewer-stormwater management systems. Water reuse is also 
helping communities along our coasts manage sea level rise and 
saltwater intrusion by replenishing depleted coastal aquifers.
    Some important examples of how communities and businesses are 
turning to water reuse to ensure stronger and more resilient supplies 
include:
    <bullet>  By 2035, the City of Los Angeles expects to recycle 100% 
of its water supplies and reduce its reliance on costly imported water 
from the Colorado River.
    <bullet>  Truckee Meadows Water Authority in Reno is planning 13-
mile pipeline to provide 1.3 billion gallons of recycled water annually 
to the Tahoe-Reno Industrial Center, home to Tesla, Switch and Google, 
and ensure 20,000 jobs remain in Nevada.
    <bullet>  The Hampton Roads region of Virginia, home to the largest 
concentration of military and naval installations, plans to recycle 
100% of its effluent through an aquifer recovery system to prevent 
rising sea levels from threatening inundating the entire region.

    These are just some of the countless examples of how water 
recycling is becoming an essential ingredient in efforts to preserve 
American jobs, businesses and communities as the country adapts and 
builds resilience to fight climate change.
    In order to promote resiliency and climate adaptation and 
mitigation, WateReuse strongly urges Congress to substantially increase 
investments in each of the following programs in FY 2022, through both 
the annual appropriations process and through an infrastructure 
package:
    <bullet>  Pilot Program for Alternative Water Source Grants;
    <bullet>  Title XVI--WIIN Water Reclamation and Reuse Competitive 
Grants Program;
    <bullet>  Sewer Overflow and Stormwater Reuse Municipal Grants 
Program; and
    <bullet>  Clean Water State Revolving Fund Program.

    Investment in water reuse builds communities that are modern, 
sustainable and stable--ready for families to flourish and businesses 
to grow. We urge Congress to act swiftly to provide communities the 
tools and resources they need to modernize their infrastructure, build 
resilience, and protect the environment and public health.
    Thank you for considering our testimony. Please do not hesitate to 
reach out the WateReuse Association's Policy Director, Greg Fogel, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcacbc2cac8c1eddaccd9c8dfc8d8dec883c2dfca">[email&#160;protected]</a> with any questions.

                                 <F-dash>
 Letter of May 19, 2021, from Jeffrey Soth, Legislative and Political 
Director, International Union of Operating Engineers, Submitted for the 
                    Record by Hon. Peter A. DeFazio
                                                      May 19, 2021.
Hon. Peter DeFazio,
2134 Rayburn House Office Building,
Washington, DC 20515.
Hon. Sam Graves,
1135 Longworth House Office Building,
Washington, DC 20515.
Hon. Grace F. Napolitano,
1610 Longworth House Office Building,
Washington, DC 20515.
Hon. David Rouzer,
2333 Rayburn House Office Building,
Washington, DC 20515.
    Dear Chairs and Ranking Members,
    We were deeply disappointed to see the attack on Davis-Bacon 
prevailing wages launched by the representative of the Council of 
Infrastructure Financing Authorities at your recent subcommittee 
hearing on water infrastructure, ``Sustainable Wastewater 
Infrastructure: Measures to Promote Resiliency and Climate Adaptation 
and Mitigation.'' The International Union of Operating Engineers 
submits the following statement to correct the hearing record and 
respond to serious errors in testimony submitted by the representative 
of the Council of Infrastructure Financing Authorities (CIFA).
    The International Union of Operating Engineers (IUOE) represents 
400,000 working men and women in North America, thousands of whom build 
and maintain water, wastewater, and other critical infrastructure 
throughout the United States. Members of the IUOE perform millions of 
hours of work annually building wastewater systems financed by the 
Clean Water Act-State Revolving Fund program. Stationary engineers of 
the IUOE also maintain and operate wastewater systems in private and 
public settings across the nation. The IUOE is also a longstanding 
member of the nation's largest, oldest water-infrastructure advocacy 
coalition, the Water Infrastructure Network.
                              Introduction
    The Davis-Bacon Act celebrated its 90th anniversary in March, and, 
unfortunately, the attacks--like the one launched by CIFA on the law--
have taken much the same form in that long history. First, CIFA 
dismisses the impact of the law on blue-collar construction workers' 
livelihoods. Prevailing wage, they say, `` . . . is not an issue.'' 
Next, they argue that administrative compliance is so burdensome that 
the ends are hardly justified by the means. According to CIFA, ``The 
problem is the prescriptive paperwork and process required to 
demonstrate compliance . . . ''
    Contrary to CIFA's argument that payment of prevailing wages ``is 
not an issue,'' cheating on prevailing wages is rampant. In fiscal year 
2017, the United States Department of Labor assisted over 7,780 workers 
to obtain back wages for violations of federal prevailing wage laws, 
totaling over $29 million in recovered wages. In April, the Attorney 
General of Pennsylvania sued in the ``largest prevailing wage criminal 
case on record--under Pennsylvania prevailing wage law and across the 
United States under federal law.'' Moreover, all these violations were 
prosecuted in an environment where enforcement has been deprioritized. 
Between 1975 and 2004, the number of DOL investigators decreased by 
fourteen percent while the number of businesses covered by FLSA rose by 
more than 100%. And at the end of January 2021, the Wage and Hour 
Division's overall headcount was at 794 investigators, down from more 
than 1,000 employed during the Obama years. Clearly, prevailing wage is 
very much ``an issue.'' Please do not allow CIFA and other opponents of 
the Davis-Bacon Act to dismiss its importance to the livelihoods of 
construction workers and the quality of construction owned by the 
public.
    If prevailing wage laws increased labor and administrative costs 
without having any other effects, the costs would be passed through to 
governments in the form of higher total project costs. Yet the most 
thorough review of the literature on the subject concluded that the 
most ``comprehensive studies have found that the impact [of prevailing 
wage standards] is not statistically significant'' on total 
construction costs. (EPI_Report.pdf [actwv.org])
                 Administration of the Davis-Bacon Act
Awarding Agencies
    CIFA provides no evidence to support the position that compliance 
with prevailing wage laws is ``very prescriptive.'' Furthermore, the 
administrative requirements of the Act are critical to the prevention 
of fraud against government agencies and necessary to ensure that 
government contractors do not profit by failing to pay the minimum 
wage--the wage floor--to which construction workers are entitled. It is 
worth noting that the submission of certified payrolls through the 
Davis-Bacon Act serves as the only additional protection afforded 
taxpayers against kickbacks, misclassification, and unauthorized 
workers on public projects.
    The costs of complying with the Davis-Bacon Act are minimal for 
both awarding agencies and contractors. The ``administrative burden'' 
for an awarding agency associated with prevailing-wage compliance is 
negligible. The steps required of an agency are not a mystery. They are 
simple and straightforward. They are as follows:
    1.  Obtain wage rates (beta.SAM.gov/Wage Determinations)
    2.  Insert legal requirement and wage rates in contracts (requests 
for proposals, bid documents, and contracts)
    3.  Condition contracts on the acceptance of requirements
    4.  Collect certified payroll on payments to workers on a weekly 
basis
    5.  Keep certified payroll records for three years
Contractors
    Not only is the administration of prevailing wages straightforward 
and elementary for an awarding agency, compliance for contractors of 
the public agency cannot be fairly described as burdensome. In fact, 
collection of the data required for prevailing-wage compliance is 
required of all employers, without regard to whether they are a 
beneficiary of federal construction assistance and required to report 
on the Davis-Bacon Act. All employers must keep records about the hours 
their employees work each day, their rate of pay, the deductions from a 
worker's wages, payment date, and more. Virtually these same records 
are required for prevailing wage reports.
    Further, different efforts, most notably a DOL rulemaking in 2008, 
have streamlined the process for complying with the Davis-Bacon Act. 
For example, during the 2008 rulemaking, the Bush Administration 
reduced the amount of information contractors are required to submit. 
The DOL estimates that it might take clerical staff 55 minutes for a 
first-time filer to complete collection of the required information.
    That estimate includes time for reviewing the Department of Labor's 
instructions, searching existing data sources, gathering the data 
needed, and completing and reviewing the collection of information. 
Again, this estimate includes tasks that a payroll clerk would be 
required to perform for other obligations under federal law, most 
notably IRS and overtime requirements. The Bush Administration's 
Department of Labor found that commenters ``did not believe that the 
current process was a public burden or endangered worker privacy.''
          Analyses of Compliance and Total Construction Costs
    Two state-based studies shed light on the question of compliance 
costs, and they both provide evidence to support the contention that 
costs are negligible. In fact, in many cases the marginal 
administrative costs associated with prevailing wage compliance are 
more than offset by the economic benefits associated with the law.
    In 2015, the Wisconsin Legislative Fiscal Bureau estimated that the 
administrative costs associated with the state's prevailing wage law 
amounted to $358,000 and 4 full-time equivalent jobs (Horton, 2015). 
This amounts to an ``administrative burden'' of 15 cents per household 
in Wisconsin.\1\ However, between July 1, 2013 and June 30, 2015, the 
Division of Equal Rights staff resolved 299 construction wage 
complaints and recovered over $4.03 million in unpaid wages for 
workers--or $2 million per year, a return on investment of $5.63 per 
dollar spent on administrative costs (DWD, 2015).\2\ Furthermore, the 
nonpartisan budget office determined that, if Wisconsin repealed its 
prevailing wage law, the workload of staff conducting prevailing wage 
investigations and ensuring compliance would be ``absorbed to meet 
other required duties.''
---------------------------------------------------------------------------
    \1\ There are 2.36 million households in Wisconsin (Census, 2021). 
$358,000 divided by 2,358,156 households is 15 cents per household.
    \2\ $4.03 million in construction wages recovered over two years 
divided by $358,000 in administrative costs over two years equals $5.63 
in recovered wages per dollar spent administering the law.
---------------------------------------------------------------------------
    Furthermore, a 2013 fiscal and policy note from the Maryland 
Department of Legislative Services found that the prevailing wage 
caseload in Maryland could be handled ``with existing enforcement 
resources.'' The Maryland Department of Labor, Licensing, and 
Regulation did not need to hire additional staff to administer 
prevailing wage standards on school construction projects, even when 
the volume of projects increased (MD DLS. 2013). This suggests that 
prevailing wage standards do not impose a significant administrative 
cost burden beyond the usual enforcement and compliance requirements 
associated with state and local government.
    If CIFA's argument was accurate, then the regulatory burdens and 
paperwork requirements associated with Davis-Bacon would discourage 
contractors from bidding on public construction projects. However, of 
the 18 peer-reviewed academic studies on prevailing wage laws since 
2000, 15 find that they have no effect on the total costs of 
traditional public works construction projects, such as roads, schools, 
municipal buildings, and clean water and sewer projects (Stepick & 
Manzo, 2021).
    In addition, there have been four peer-reviewed studies since 2012 
that empirically examine the effect of prevailing wage standards on the 
overall level of bid competition. All four of these studies, which 
collectively evaluate data on more than 2,000 bid proposals, find that 
prevailing wage standards do not reduce the number of bidders on public 
construction projects (Stepick & Manzo, 2021). In fact, ``the cost-
reducing effect of increased bid competition is stronger on projects 
covered by the prevailing wage policy'' (Onsarigo et al., 2020).
                               Conclusion
    The Davis-Bacon Act continues to play a key role in the lives and 
livelihoods of America's construction workers. Representative Fiorello 
LaGuardia (R-NY), on the House floor in 1931 as the body passed the 
Davis-Bacon Act, said, `` . . . all that the bill does . . . is to 
protect the Government as well as the workers, in carrying out the 
policy of paying decent wages on Government contracts.''
    In conclusion, the administrative costs to comply with the Davis-
Bacon Act are minimal, required by other workplace laws, and have 
actually been reduced since the advent of electronic recordkeeping. 
Further, these reporting requirements are central to the law, 
safeguarding the wages and benefits of construction workers and 
protecting the public from corruption and fraud.
    Please do not hesitate to reach out to the International Union of 
Operating Engineers should you need technical assistance on the 
nation's 90-year labor standard for federally assisted construction, 
the Davis-Bacon Act.
    Thank you for your consideration.
        Sincerely,
                                              Jeffrey Soth,
        Legislative and Political Director, International Union of 
                                               Operating Engineers.

                                 <F-dash>
Letter of May 20, 2021, from Sean McGarvey, President, North America's 
   Building Trades Unions, Submitted for the Record by Hon. Peter A. 
                                DeFazio
                                                      May 20, 2021.
Hon. Peter DeFazio,
Chairman,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC 20515.
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, Washington, DC 20515.
    Dear Chairman DeFazio and Ranking Member Graves:
    During the April 21st Subcommittee on Water Resources and the 
Environment hearing, ``Sustainable Wastewater Infrastructure: Measures 
to Promote Resiliency and Climate Adaptation and Mitigation,'' 
testimony submitted to the Subcommittee levied several attacks against 
the integrity of the Davis-Bacon Act, displaying a clear 
misunderstanding of the intent of a law that enjoys clear, broad, 
bipartisan support among the Members of the Transportation and 
Infrastructure Committee, as well as the full House. On behalf of the 
over 3 million skilled craft professionals that comprise North 
America's Building Trades Unions (NABTU), I write to strongly reject 
the claims unfortunately placed before the Subcommittee, which amounted 
to nothing more than baseless attacks on a framework designed for the 
protection of construction workers and their families.
    As you know, the Copeland Act, 40 U.S.C. Sec. 3145, helps enforce 
the Davis-Bacon Act by requiring contractors on covered projects to 
submit weekly certified payroll reports (CPR) to the government to 
ensure compliance with prevailing wage requirements. Such reporting and 
monitoring on the part of the contracting agencies is critical because 
the Davis-Bacon Act does not give construction workers the right to sue 
in court to recover unpaid wages. Any erosion of this mechanism is an 
erosion of the wages and benefits of blue-collar workers in the 
construction industry. For this reason, the Committee must reject the 
recommendation of the Council on Infrastructure Financing Authority 
(CIFA) to eliminate such vital safeguards.
    In the testimony submitted to the Subcommittee, a CIFA 
representative urged members to do away with federal reporting 
requirements on projects assisted with State Revolving Loan funds 
because Davis-Bacon compliance ``is not an issue.'' This claim 
describes a world where every single contractor plays by the rules. We 
unfortunately know this is not true, no matter how strong our desire 
for it to be true is.
    Data from the U.S. Department of Labor's Wage and Hour Division 
(WHD) shows that construction is a ``high-violation'' industry. GAO-21-
13 at 17 (Dec. 2020). The misclassification of workers as independent 
contractors and craft misclassification on federally assisted 
construction projects is rampant. In fact, five days after the 
testimony, WHD recovered $500,851 in back wages and benefits for sixty-
eight workers who were short-changed by subcontractors on federally 
assisted construction projects. Not long after that, a group of 
construction workers performing work on the U.S. Department of 
Education Building won a settlement award of $250,000 that included 
back pay and damages. Two days before the hearing, WHD recovered 
$91,116 in back wages and benefits for seventy-nine workers who were 
paid less than what they were legally required to be paid under 
prevailing wage laws. These examples, in just the second half of April 
2021, are but three of countless examples our members can point to 
where the payment of prevailing wages was indeed ``an issue.''
    The CIFA representative also argued that the process of preparing 
and submitting certified payroll reports is overly burdensome, and that 
the burden is even greater for contractors who operate in states with 
state prevailing wage laws. Considering the advances in technology 
since the enactment of the Copeland Act in 1934, not only is the 
submission of CPRs critical, but it is a rather simple and 
straightforward process typically managed through payroll software. And 
the data collected in CPRs is not much different than the data 
responsible contractors already collect for their daily logs. It is 
important to note here that the 27 state prevailing wage laws currently 
in effect vary a great deal with respect to scope of coverage and, 
contrary to CIFA's suggestion, such laws will not automatically apply 
to federally assisted projects. For example, Maryland and Colorado's 
state prevailing wage laws do not apply to contracts for construction 
that receive federal funding or that are otherwise covered by the 
Davis-Bacon Act. See, e.g., Colo. Rev. Stat. Sec.  24-92-201 et seq.; 
MD Code State Fin. & Proc. Sec.  17-202(b)(2).
    The Copeland Act's reporting requirements work as a deterrent 
against dishonest contractors because CPRs can serve as the basis for 
federal prosecution. Section 3145(b) of the Act provides that 
falsification of a certified payroll may amount to a criminal violation 
under 18 U.S.C. Sec. 1001, that can result in a fine, up to 5 years in 
prison, or both. The falsification of payrolls can also be grounds for 
a lawsuit under the False Claims Act, 31 U.S.C. Sec.  3730. 
Accordingly, reporting requirements protect construction workers on 
federal and federally assisted projects, as well as the taxpayer from 
instances of fraud and abuse.
    While the hearing did address many important questions, our members 
simply cannot allow misleading claims and attacks against a 
foundational standard to go unanswered. A strong, bipartisan majority 
of the Committee understand the importance of the Davis-Bacon Act to 
construction workers across the nation. As you move forward in crafting 
a bold, broad, and robust infrastructure package, I look forward to 
working with you and other strong supporters of Davis-Bacon on the 
Committee to ensure the consistent application of prevailing wage 
standards.
        Sincerely,
                                             Sean McGarvey,
                 President, North America's Building Trades Unions.


                                Appendix

                              ----------                              


 Questions from Hon. David Rouzer to Deirdre Finn, Executive Director, 
            Council of Infrastructure Financing Authorities

    Question 1. Rebecca Hammer, in her written testimony for the 
hearing, testified that ``The Council of Infrastructure Financing 
Authorities' SRF Project Pipeline identifies over $47 billion in 
specific clean water infrastructure projects across the country that 
could be commenced within the next two to three years if funding is 
provided.'' Please explain how CIFA came up with that number.
    Answer. CIFA has identified an estimated $47 billion in potential 
clean water infrastructure projects along the continuum of project 
development, from defining the need to design and engineering to 
groundbreaking. Not all of the projects are ready to ``commence'' or 
proceed to construction within the next two to three years.
    In anticipation of potential stimulus funding in the aftermath of 
the coronavirus pandemic, CIFA developed the S.A.F.E. Water 
Infrastructure Action Plan, an advocacy initiative to Save, Accelerate, 
Fill and Expedite water infrastructure projects through the Clean Water 
and Drinking Water SRF Project Pipelines. Below is an excerpt from the 
Action Plan explaining the development and scope of the SRF Project 
Pipelines.
    ``SRFs used a variety of tools to develop their S.A.F.E. SRF 
Project Pipeline, including current year plans and project lists, 
multi-year plans and project lists (up to five years), a survey of 
utilities for new projects, increased funding for current projects, and 
the addition of other known projects, such as projects that applied but 
didn't receive funding, projects on planning lists, and projects in 
utilities' capital improvement plans.
    The SRF Project Pipeline has some ``shovel-ready'' projects but 
doesn't focus exclusively on projects that are ready for construction. 
Because the coronavirus may cause periodic, localized economic 
shutdowns over the next several years, the S.A.F.E. Water 
Infrastructure Action Plan focuses on projects along the entire 
spectrum of water infrastructure, from concept to construction. 
Allowing funding to be invested over the next two to three years will 
provide potential borrowers with the confidence to increase investment 
in water infrastructure, even during the uncertain times that lie 
ahead.''

    Question 2. Rebecca Hammer, in her written testimony for the 
hearing, testified that ``For its first two decades, the [Clean Water 
State Revolving Fund (CWSRF)] did not fund many green infrastructure 
projects.'' Why is that?
    Answer. The U.S. Environmental Protection Agency (EPA) didn't start 
reporting data on green projects in the National Information Management 
System (NIMS) until the federal mandate for the Green Project Reserve 
was established in 2009. Before then, it's likely that green projects, 
such as water and energy efficiency projects, were classified as grey 
infrastructure.
    Additionally, the U.S. Environmental Protection Agency (EPA) 
required SRFs to develop a business case to make the case for 
eligibility of some potential green projects. As a result, eligibility 
for the Green Project Reserve has evolved since 2009 and some projects 
eligible today may not have been captured in early reporting.
    To determine a more accurate accounting of SRF funding for green 
projects, nearly 24,000 loan agreements executed prior to 2009 would 
have to be reviewed and potentially reclassified. Given changes in 
eligibility for the Green Project Reserve over the last decade, loans 
executed since 2009 may also need to be reviewed to ensure all green 
projects are captured.
    However, CIFA believes it is more important to focus on the last 
decade rather than the first two decades, particularly more recent 
trends which indicate significant and sustained growth in funding for 
green projects.
    According to the Clean Water Benefits Reporting System (CBR) as 
reported in National Information Management System (NIMS), SRFs 
invested $1.61 billion in green projects in 2020, up from $66 million 
in 2009 when EPA first started measuring investment for green projects. 
In total, SRFs have funded more than $8.6 billion in green projects 
since 2009.
    Growth in some project categories is especially significant. Before 
2009, the SRFs funded 100 water reuse projects; since 2009, SRFs funded 
250 water reuse projects, an increase of 250%. Of the 301 loans closed 
for stormwater projects since 2017, 141 or 47% were green stormwater 
projects, accounting for 43% of funding for stormwater during the same 
timeframe.
    CIFA believes funding for green projects will continue to grow 
based on continued education about the benefits of green projects and 
the evolving priorities of states and communities.

    Question 3. Rebecca Hammer, in her written testimony for the 
hearing, said ``Green infrastructure has received less CWSRF investment 
than other Green Project Reserve (GPR) categories, despite the fact 
that green stormwater projects have been found to have `the most 
secondary benefits' of all GPR project types.'' Please explain why this 
is the case.
    Answer. According to NIMS, SRFs closed more loans for green 
infrastructure projects than for energy or water efficiency projects in 
2020 (33 green infrastructure projects, 29 energy efficiency projects 
and 29 water efficiency projects). That same year, SRFs provided more 
than $1.61 billion for green projects, including 32% for energy 
conservation, 30% for environmentally innovative projects, 26% for 
green infrastructure, and 10% for water efficiency.
    Decisions about investment in water infrastructure are impacted by 
multiple factors, including the responsible party, financial 
eligibility, and cost of operations and maintenance as well as primary 
and secondary environmental benefits. Generally, the determining 
factors for green infrastructure projects are more complex than for 
energy and water efficiency and environmentally innovative projects.
    Responsible party. Water and energy efficiency projects are 
typically infrastructure improvement projects for wastewater or reuse 
treatment facilities and conveyance systems, all of which are managed 
by a utility.
    Conversely, green infrastructure projects are more likely to be 
built throughout a community and various units of local government may 
be responsible for managing the infrastructure. Roads departments are 
more likely to be responsible for installing permeable pavements and 
bioswales (vegetative ditches used to channel and filter stormwater). 
Facilities departments are more likely to be responsible for installing 
green roofs and cisterns in publicly owned buildings, such as libraries 
and courthouses, which offer limited opportunity. Parks departments are 
more likely to be responsible for building rain gardens in publicly 
owned open spaces and recreation areas.
    Financial eligibility. To qualify for an SRF loan, a borrower must 
identify a dedicated source of revenue to repay the loan. Wastewater, 
water reuse and stormwater utilities have a revenue stream of user fees 
to repay SRF loans.
    Conversely, identifying a dedicated source of revenue for green 
infrastructure projects can be more challenging, particularly in 
communities without a stormwater utility. In those communities, green 
infrastructure projects must often compete with other community 
priorities and projects for local funding.
    The cost of operations and maintenance. Water and energy efficiency 
projects can reduce the cost of operations, which provides a financial 
incentive for infrastructure investment. Often, energy conservation 
projects pay for themselves, which allows utilities to maintain 
affordable user rates. Water reuse projects can also meet growing 
demand, reducing the demands on potable water which can also help to 
maintain affordable rates.
    Conversely, green infrastructure projects, which require routine 
maintenance to maintain their effectiveness, can actually increase the 
cost of operations and maintenance. As noted by Kevin Robert Perry, 
witness representing The American Society of Landscape Architects, 
``it's really the maintenance end where you see a lot of communities 
very nervous about implementing green infrastructure at the wide 
scale.''
    Congress should consider a broader measure of investment in green 
projects, including investments by private sector entities which are 
not eligible for funding under the Clean Water SRF.

    Question 4. Rebecca Hammer, in her written testimony for the 
hearing, said that ``states often fail to meet the [Green Project 
Reserve (GPR)] requirement.'' Please explain why this is the case.
    Answer. Since 2009, Congress has provided $21.3 billion in federal 
funding to the Clean Water SRF. During the same timeframe, SRFs have 
funded $8.6 billion in green projects, 40% of total federal funding.
    Meeting the requirement for the Green Project Reserve is based 
solely on the number of eligible loans closed within each fiscal year. 
This restrictive, short-term measure captures a snapshot in time but 
doesn't provide a complete and comprehensive representation of SRFs 
funding of green projects.
    Alternatively, if compliance was based on cumulative funding of 
green projects since the Green Project Reserve was established, all 
states exceed the requirement, many by more than double. (See state-by-
state chart in question 10.) Measuring compliance over multiple years 
would also incentivize large, transformational green projects that take 
time to develop and years to construct.
    The ability to close loans for eligible green projects can vary 
significantly from year-to-year based on a variety of factors, many of 
which are outside the control of the SRFs. For example, three SRFs, 
mentioned in the written testimony, didn't meet their Green Project 
Reserve for various, valid reasons.
    <bullet>  Despite a record number of applications, the Oregon SRF 
didn't close any loans on eligible applications because the green 
projects weren't ready to proceed to construction within the fiscal 
year. The expectation is that these projects will move forward in 
future years.
    <bullet>  The Florida SRF received both their 2019 and 2020 
capitalization grants in fiscal year 2020, which doubled the federal 
mandate within one fiscal year. According to their Annual Report, 
``Because the 2019 capitalization grant was received in FY 2020, the 
requirements for the 2019 grant were to be met in FY 2020. Because 
sufficient projects to meet the green requirement were not submitted 
during the fiscal year, this requirement was not met. Additional green 
projects will be solicited in FY 2021 and we anticipate this shortfall 
will be made up in FY 2021.''
    <bullet>  According to the Missouri SRF Annual Report, ``The two 
projects that were identified as GPR on the 2019 IUP did not close due 
to project delays. Once these projects close, the GPR requirements for 
FFY 2018, 2019, 2020 capitalization grants will be met. With FFY 2021 
IUP, the Department will increase utilization of the Green Project 
Reserve by offering Water Quality Incentive Grants for green 
infrastructure.''

    Question 5. Rebecca Hammer, in her written testimony for the 
hearing, said that ``Congress should require [the Environmental 
Protection Agency (EPA)] to adopt regulations implementing the 
provision of the Water Resources Reform and Development Act (WRRDA) of 
2014 directing CWSRF recipients to maximize water and energy 
conservation in all projects.'' What would be the effects of such a 
requirement?
    Answer. According to a survey of SRFs, the cumulative impact of 
federal requirements is the biggest impediment to increasing investment 
in water infrastructure. More prescriptive regulation will only 
exacerbate the current inefficiency and ineffectiveness of one-size-
fits-all federal mandates.
    For example, the current Water and Energy Conservation 
Certification, enacted in 2014, requires all SRF loan recipients to 
evaluate the cost to build, maintain and replace the project and select 
the ``project or activity that maximizes the potential for efficient 
water use, reuse, recapture, and conservation, and energy 
conservation.'' While well-intended, this certification is simply not 
applicable to many projects funded by the Clean Water SRFs.
    <bullet>  Water conservation, which is intended to reduce 
consumption of drinking water, is largely impractical for clean water 
infrastructure whose primary purpose is to collect and clean wastewater 
and stormwater runoff.
    <bullet>  Energy conservation is impossible to achieve in many 
clean water projects, such as replacing pipes, restoring wetlands, and 
rebuilding sewer systems that use gravity, not man-made power.
    <bullet>  Conversely, many communities pursue clean water projects 
with the singular purpose of water reuse and energy conservation. 
Requiring a water and energy efficiency certification is required but 
unwarranted for these projects, which are specifically designed to 
achieve, and even exceed, the fundamental goal of the federal mandate.

    Developing prescriptive regulation for one-size-fits-all federal 
mandates will increase the cost of water infrastructure, especially for 
small, rural and disadvantaged communities which are the vast majority 
of borrowers of the Clean Water SRFs.

    Question 6. While resiliency and sustainability practices and 
technologies may benefit some communities, it is essential these 
initiatives do not take a ``one-size fits all'' mandated approach. Some 
communities, especially small and rural communities, may not have the 
means or the need to utilize these practices in their communities. What 
can be done to ensure that small and rural communities are provided 
flexibility in implementing resiliency and sustainability practices and 
technologies, as appropriate, in their communities?
    Answer. Recognizing the needs, challenges and limitations of small 
communities is essential to developing a realistic, relevant and 
sustainable plan to build resiliency, including environmental, 
professional and financial resiliency.
    The vast majority of Clean Water SRF borrowers are small, rural and 
disadvantaged communities whose priority is providing basic, affordable 
wastewater and stormwater services. In 2020, Clean Water SRFs closed 
1,601 subsidized loans; nearly two-thirds of those loans (1,056 or 66%) 
went to communities with a population of 10,000 or fewer and more than 
half of those loans (862 or 54%) went to communities with fewer than 
3,500 people.
    One-size-fits-all federal mandates set unrealistic expectations for 
these small communities. The vast majority of projects in small 
communities are pipe replacement and minor rehabilitation projects, 
most of which offer extremely limited opportunities for increasing 
water and energy efficiency. Many of these small communities don't have 
full-time professional staff to manage their utility, let alone adopt 
the federal procurement process to hire an engineering firm or 
implement a complex, long-term environmental resiliency and fiscal 
sustainability plan.
    Clean Water SRFs provide significant support to small borrowers, 
from pre-planning through loan close-out. Relief from one-size-fits-all 
mandates would allow SRFs to customize support for small communities to 
foster resiliency, including environmental, professional and financial 
resiliency.

    Question 7. Are more water infrastructure projects being built 
today under the CWSRF program that may never have been able to be built 
if the program was established as a Federal grant program instead of a 
revolving loan program? Please explain.
    Answer. The Clean Water State Revolving Funds are a national model 
for infrastructure investment. Federal funding is used to capitalize 
the loan programs, creating a permanent, recurring, resilient source of 
revenue for water infrastructure projects.
    Grants are one-time; loans are forever. While federal funding for 
grants is used only once, federal funding for loans is used over-and-
over again, providing a protected and sustainable source of funding for 
future water infrastructure projects in perpetuity.
    Early capitalization grants for the Clean Water SRFs have been 
recycled at least once and used to build projects that may never have 
been built if federal funds were used for one-time grants. Since the 
program was created, Congress has provided $47 billion in federal funds 
to capitalize the Clean Water SRFs. Today, nearly $60 billion of state 
and federal funding remains revolving in the program--$13 billion more 
than three decades of federal funding.

    Question 8. Only some states leverage their existing state 
revolving fund (SRF) programs. How can Congress incentivize states to 
better leverage Federal SRF funds and invest more state dollars in 
water infrastructure?
    Answer. It's important to note that decisions to leverage the SRFs 
may be made by the Governor, the Legislature or other state office or 
official, not the SRFs.
    Eliminating the requirement to provide state match for federally 
mandated additional subsidy may incentivize leveraging. Currently, SRFs 
that leverage must borrow funds to match federal funding that they are 
then required to provide as grants and grant-equivalents. Because loan 
repayments are used to repay bonds, requiring state match for mandated 
additional subsidy is a disincentive for leveraging.
    Eliminating federal mandates on state funds may incentivize greater 
contributions of state funds, including through leveraging. Currently, 
these federal mandates apply to projects funded exclusively with state 
funds, increasing the cost of water infrastructure projects:
    <bullet>  Davis Bacon, which requires mechanics and laborers to be 
paid the federal prevailing wage and has very prescriptive compliance 
requirements.
    <bullet>  American Iron and Steel, which requires projects funded 
by the SRFs to use iron and steel from U.S. manufacturers.
    <bullet>  Water and Energy Efficiency Certification, which requires 
all borrowers to certify that they evaluated the cost to build, 
maintain and replace the project and selected the ``project or activity 
that maximizes the potential for efficient water use, reuse, recapture, 
and conservation, and energy conservation.''
    <bullet>  Fiscal Sustainability Plan, which requires borrowers who 
are building treatment works to certify that they have a financial plan 
to maintain assets funded by the Clean Water SRF loan.

    Question 9. In what ways have Federal mandates, particularly on SRF 
loan recipients, and continued federalization of the CWSRF had the 
unintended consequence of diminishing the program's ability to 
efficiently and effectively respond to the needs of local communities, 
complicating the program, and dissuading greater investment in water 
infrastructure? What improvements would help local communities respond 
more efficiently and effectively?
    Answer. Federal mandates increase the administrative cost of water 
infrastructure for all communities, requiring many small borrowers to 
increase their loan amounts to ensure adequate funding for compliance.
    In many cases, federal mandates are duplicative of state law. For 
example, the federal mandate for Davis Bacon, which requires SRF 
borrowers to pay the federal prevailing wages to mechanics and 
laborers, is duplicative of state prevailing wage laws in 26 states and 
the District of Columbia. Paying the federal wage is not the problem 
because many contractors must pay more than the federally mandated 
wages to attract skilled workers, particularly in communities with 
robust economies and tight job markets. The primary issue is the very 
prescriptive paperwork and processes to demonstrate compliance with 
Davis Bacon. In states with state prevailing wage laws, compliance is 
double the work without any known benefit to workers.
    In other instances, federal mandates conflict with state law. For 
example, the Massachusetts Clean Water SRF no longer funds engineering 
services with federal funds because of the federal mandate requiring 
the use of the federal procurement process for these services. Instead, 
the Massachusetts SRF issues two loans--one funded by state money for 
engineering and one funded by federal funds for construction. In other 
states, borrowers simply don't pursue funding for engineering from the 
Clean Water SRF because of the federal mandate for procurement of 
engineering services.
    Increased federalization of the Clean Water SRFs also erodes the 
creative problem-solving needed to address today's complex water 
challenges. The Clean Water SRFs became one of the most effective 
programs for infrastructure investment because states could customize 
their programs to meet the needs and priorities of their communities. 
One-size-fits-all mandates diminish the flexibility and adaptability 
that made the Clean Water SRFs so effective.
    Additionally, more SRF staff must be dedicated to ensuring 
compliance with federal mandates, leaving fewer resources to support 
the development of new water infrastructure projects.

    Question 10. Do small and medium communities have the professional 
staff to comply with the myriad of Federal SRF mandates? What can be 
done about this?
    Answer. Small communities with a population of fewer than 10,000 
often don't have a full-time professional staff to manage capital 
projects. Often, these communities must hire staff or contract with 
consultants to ensure compliance with the increase in federal mandates, 
adding to the administrative cost of water infrastructure on 
communities that can least afford it.
    Communities with populations of 10,000 to 100,000 are more likely 
to have professional staff to manage a capital project. However, 
smaller communities within this range can also struggle with attracting 
and retaining professional staff, including directors, operators, 
accountants and customer service staff.
    Restoring flexibility within the Clean Water SRFs to determine loan 
requirements, instead of one-size-fits-all federal mandates, will 
ensure small and medium communities are considering the financial and 
environmental factors that are most appropriate for their water 
infrastructure projects.

    Question 11. You noted in your written testimony that some SRFs 
have expressed concern about their ability to meet the 20 percent state 
match requirement if funding is increased five-fold within one year. 
Can you explain why this match requirement could be a problem?
    Answer. Clean Water SRFs provide state match in a variety of ways. 
Depending on a state's economic recovery from the coronavirus pandemic, 
states that rely on annual appropriations may have a challenge matching 
significant increases in appropriations. Mandated additional subsidy 
may also pose a challenge for SRFs that use bond proceeds for state 
match, because loan repayments are needed to repay bonds.
    States, such as California, have issued short-term debt, which must 
be repaid with interest earnings from loans, to generate state match. 
Given the extremely low interest rate environment experienced in recent 
years, loan prepayments, combined with a generous policy of additional 
subsidy, interest earnings have been impacted. California has also 
issued loans with a local match component to generate state match. 
Unfortunately, also due to the very low interest rate environment, 
borrowers have not been willing to participate in the local match 
portion of the SRF program.

    Question 12. You noted in your written testimony that other SRFs 
have expressed concerns about the ability to fund the best projects, if 
timelines remain the same or are shortened, as they were with the 
American Recovery and Reinvestment Act of 2009. Please explain.
    Answer. The American Recovery and Reinvestment Act of 2009 (ARRA) 
required SRFs to close loans on ``shovel ready'' construction projects 
within 18 months or lose funding.
    Typically, SRFs have two years to apply for the annual 
capitalization grant and five years to spend the funding. Under ARRA, 
the use-it-or-lose-it condition, combined with a shortened timeframe, 
created a rush to close loans that favored larger infrastructure 
projects. The restriction to fund only ``shovel-ready'' projects also 
displaced other projects throughout the SRF Project Pipeline, allowing 
some projects to ``jump the line'' for funding. The combination of 
these federal mandates, while well-intentioned, upended the SRFs' 
proven process for determining priorities for funding water 
infrastructure projects.

    Question 13. You noted in your written testimony that the Federal 
mandate requiring SRF loan applicants to demonstrate compliance with 
Federal prevailing wage laws is very prescriptive, and creates a 
significant compliance and paperwork burden, without providing any 
additional financial benefit for workers. Would you explain how 
allowing compliance with equivalent state laws in lieu of Federal 
compliance procedures could alleviate state burdens while maintaining 
fair wages for workers?
    Answer. Under federal law, borrowers of the Clean Water SRFs, 
including loans fully funded by state monies, are required to pay the 
federal prevailing wage to mechanics and laborers for the job 
classification in the county of the construction project, known most 
commonly as Davis Bacon. The SRFs, borrowers, contractors and 
subcontractors must perform prescriptive paperwork and processes to 
demonstrate compliance with the federal mandate. Borrowers, contractors 
and subcontractors in 26 states and the District of Columbia must also 
demonstrate compliance with state prevailing wage laws, in addition to 
federal law.
    Paying the federal wage rate is not the primary issue. For the vast 
majority of projects, contractors and subcontractors must pay workers 
more than the federal prevailing wage rate to attract skilled workers, 
particularly in communities with robust economies and competitive job 
markets. The most common complaint is the very prescriptive federal 
procedures and paperwork required by the U.S. Department of Labor (DOL) 
to demonstrate compliance with Davis Bacon.
    Below are a few examples from EPA's 2017 Guide for SRF Compliance 
with Davis Bacon:
    <bullet>  Loan recipients must collect weekly payroll reports from 
contractors and subcontractors.
    <bullet>  Loan recipients must review evidence of fringe benefit 
contributions claimed by contractors and subcontractors.
    <bullet>  Loan recipients must interview construction workers to 
confirm the correct wages were paid.
    <bullet>  If a wage for a particular job in a particular county 
isn't published, contractors must request a wage determination from 
DOL, a process called conformance, which can take up to 30 days.
    <bullet>  Contractors may be disqualified for having an inaccurate 
federal prevailing wage, even if the wage changed during the bid 
period.
    <bullet>  SRFs must conduct inspections and spot-check payroll 
reports collected by loan recipients.

    CIFA has three specific recommendations to reduce paperwork and 
process while maintaining prevailing wages for workers.
    <bullet>  The DOL could adopt state prevailing wages for heavy 
construction (majority of water projects), which they routinely do for 
highway construction.
    <bullet>  The DOL could consider compliance with state prevailing 
wage laws as demonstration of compliance with Davis Bacon, eliminating 
the duplication of paperwork and process.
    <bullet>  EPA could allow States to develop compliance procedures 
to demonstrate compliance with Davis Bacon, just like States have done 
for environmental compliance since the programs were established. 
States develop the State Environmental Review Process (SERP) to comply 
with National Environmental Policy Act (NEPA).

    Question 14. The use of green infrastructure is becoming much more 
accepted on a widespread basis today as compared with five or ten years 
ago. Is there really a need for a ``green'' set-aside mandate with the 
Clean Water SRF today?
    Answer. Funding for green projects will continue to grow, with or 
without the federal mandate, because these projects are state and local 
priorities.
    As noted previously, 40% of federal funding since 2009 has been 
spent on green projects eligible under the Green Project Reserve. As 
evidence that a mandate isn't necessary, the Drinking Water SRF, which 
doesn't have a mandate, used 14% of their federal funds since 2009 on 
eligible green projects.

                                  Green Project Reserve for the Clean Water SRF
----------------------------------------------------------------------------------------------------------------
                                                                  Federal Funding     Spending on Green
                             State                                   since 2008            Projects          %
----------------------------------------------------------------------------------------------------------------
Alabama.......................................................        $ 235,958,500         $ 43,808,913     19%
Alaska........................................................        $ 126,121,800         $ 26,861,443     21%
Arizona.......................................................        $ 142,447,100         $ 40,476,351     28%
Arkansas......................................................        $ 137,939,900        $ 198,723,531    144%
California....................................................      $ 1,509,112,307      $ 2,051,670,442    136%
Colorado......................................................        $ 169,344,400         $ 46,288,996     27%
Connecticut...................................................        $ 258,521,800         $ 35,649,893     14%
Delaware......................................................        $ 103,252,400        $ 100,514,706     97%
Florida.......................................................        $ 715,349,493        $ 236,163,068     33%
Georgia.......................................................        $ 374,964,216        $ 311,458,609     83%
Hawaii........................................................        $ 163,088,800         $ 67,743,334     42%
Idaho.........................................................        $ 103,252,400        $ 131,875,350    128%
Illinois......................................................        $ 954,463,933        $ 314,966,571     33%
Indiana.......................................................        $ 508,606,048        $ 621,510,310    122%
Iowa..........................................................        $ 294,674,200        $ 130,180,072     44%
Kansas........................................................        $ 190,453,500         $ 85,701,073     45%
Kentucky......................................................        $ 268,585,200         $ 62,622,640     23%
Louisiana.....................................................        $ 239,430,500         $ 36,684,426     15%
Maine.........................................................        $ 163,319,600         $ 80,690,046     49%
Maryland......................................................        $ 510,421,657        $ 216,489,252     42%
Massachusetts.................................................        $ 716,522,029        $ 140,677,580     20%
Michigan......................................................        $ 907,431,252        $ 233,160,195     26%
Minnesota.....................................................        $ 398,426,165        $ 149,335,778     37%
Mississippi...................................................        $ 186,500,093         $ 19,981,710     11%
Missouri......................................................        $ 603,702,512        $ 236,607,038     39%
Montana.......................................................        $ 103,252,400         $ 27,376,031     27%
Nebraska......................................................        $ 107,626,700         $ 52,857,503     49%
Nevada........................................................        $ 103,252,400         $ 44,900,863     43%
New Hampshire.................................................        $ 217,636,900         $ 69,498,053     32%
New Jersey....................................................      $ 1,053,501,973        $ 141,788,838     13%
New Mexico....................................................        $ 111,076,700         $ 42,979,820     39%
New York......................................................      $ 2,753,037,314        $ 397,612,493     14%
North Carolina................................................        $ 352,199,248        $ 148,484,429     42%
North Dakota..................................................        $ 103,926,700         $ 85,773,132     83%
Ohio..........................................................      $ 1,226,374,893        $ 295,019,116     24%
Oklahoma......................................................        $ 170,457,300         $ 74,155,749     44%
Oregon........................................................        $ 238,382,700         $ 43,945,073     18%
Pennsylvania..................................................        $ 835,963,728        $ 158,030,647     19%
Rhode Island..................................................        $ 141,607,900         $ 30,651,118     22%
South Carolina................................................        $ 212,081,670         $ 42,909,865     20%
South Dakota..................................................        $ 103,252,400         $ 12,723,217     12%
Tennessee.....................................................        $ 306,571,400        $ 119,457,472     39%
Texas.........................................................        $ 923,051,700        $ 325,840,020     35%
Utah..........................................................        $ 110,905,500         $ 22,452,523     20%
Vermont.......................................................        $ 106,526,700         $ 38,792,107     36%
Virginia......................................................        $ 431,900,531        $ 192,568,905     45%
Washington....................................................        $ 367,033,331        $ 115,470,269     31%
West Virginia.................................................        $ 329,262,879         $ 45,098,026     14%
Wisconsin.....................................................        $ 570,537,777        $ 387,221,250     68%
Wyoming.......................................................        $ 103,252,400         $ 19,030,389     18%
Puerto Rico...................................................        $ 284,720,041         $ 51,553,042     18%
                                                               -------------------------------------------------
                                                                   $ 21,349,282,990      $ 8,606,031,277     40%
----------------------------------------------------------------------------------------------------------------

Questions from Hon. Peter A. DeFazio to Rebecca Hammer, Deputy Director 
       of Federal Water Policy, Natural Resources Defense Council

    Question 1. During the hearing, we heard testimony that wastewater 
utilities may benefit from a legislative change to the existing 
National Pollutant Discharge Elimination System (NPDES) permitting 
framework. Currently, all Clean Water Act NPDES permits, including 
permits for wastewater utilities, are authorized for up to five-years 
in duration. The goal of five-year permits is to ensure both that Clean 
Water Act permits are appropriately tailored to address local water 
quality impairments, and to ensure the incorporation of state of the 
art pollution control techniques and discharge standards. This ensures 
that permittees are held to the highest standard possible for reducing 
the discharge of pollutants that may impair our nation's waters and 
endanger human and environmental health.
    Question 1.a. Do you agree that NPDES permits should be extended 
from five year up to ten years for all municipal wastewater utilities?
    Answer. No. Municipal wastewater utilities discharge an enormous 
amount of water pollution. More than 16,000 publicly owned wastewater 
treatment plants in the United States discharge 34 billion gallons of 
wastewater every day. Weakening Clean Water Act requirements for these 
dischargers would have significant consequences, allowing them to 
operate for a decade or more under pollution control standards that 
have long since become outdated. Such a change could put public health 
and environmental safety at risk.
    The five-year limit on NPDES permits is an essential part of the 
Act's design that should not be altered. A key premise of the statute 
is that, as environmental science and technology advance over time, the 
nation will make steady progress on reducing water pollution. The Act 
requires EPA and the states to gather new information and develop new 
pollution control plans on a regular basis. For example, EPA must 
revisit the national technology-based standards applicable to specific 
categories of discharges and classes of pollutants every 1 to 5 years; 
EPA must periodically publish new information about pollution 
reductions attainable through wastewater treatment; states must review 
and consider modification of their water quality standards at least 
once every 3 years; states must assess water quality in all their 
waterways and develop lists of impaired water bodies not meeting water 
quality standards every 2 years; and states must develop pollution 
reduction targets (Total Maximum Daily Loads) for impaired waterways on 
an ongoing basis, based on the results of their biannual water quality 
assessments.
    Each of these recurring obligations affects the terms of 
dischargers' pollution control permits. The Clean Water Act requires 
each NPDES permit to include technology-based effluent limitations, 
based on up-to-date pollution control methods, and water quality-based 
effluent limitations, designed to ensure compliance with local water 
quality standards. The five-year permit term was specifically chosen by 
the framers of the Act to ensure that permits reflect the most current 
information about control technologies and receiving water conditions.
    The Act's legislative history reflects the centrality of the five-
year limit on permit terms as a linchpin of this scheme.\1\ In 1985, 
when Congress rejected a proposed amendment to extend the term limit 
for certain NPDES permits to ten years, Senator Lautenberg emphasized 
that ``the 5-year permit term plays an important role in improving 
water quality,'' and ``a 10-year permit provision could result in less 
stringent pollution control of toxic pollutants.'' \2\
---------------------------------------------------------------------------
    \1\ ``In order to be absolutely certain that these [pollution] 
control techniques represent the latest state of the art, they will be 
reviewed and upgraded every 5 years.'' 117 Cong. Rec. 38797 (Nov. 2, 
1971).
    \2\ 131 Cong. Rec. S8080-04 (June 13, 1985).
---------------------------------------------------------------------------
    Proponents of this change have claimed that ten-year permits would 
not lead to adverse environmental consequences because they could be 
modified to include new requirements if necessary during the lengthened 
permit term. However, permit modifications are only allowed under 
certain circumstances and are discretionary on the part of the 
permitting authority.\3\ As a result, a permit would not necessarily 
have to be updated in the middle of the permit term even if significant 
changes occurred in the receiving water or new information came to 
light about the impact of the discharge. There is no fail-safe 
mechanism in current law to protect waterways from the harmful impacts 
of ten-year permits.
---------------------------------------------------------------------------
    \3\ EPA regulations state that a ``permit may be modified, revoked 
and reissued, or terminated for cause.'' 40 C.F.R. Sec.  122.41(f) 
(emphasis added). The use of the word ``may,'' rather than ``shall,'' 
means that reopening and modifying a permit is discretionary, not 
mandatory. Another section of the NPDES rules confirms this, stating 
that the permitting authority ``may modify or revoke and reissue the 
permit'' if it determines that cause exists. 40 C.F.R. Sec.  122.62 
(emphasis added). Courts have consistently confirmed this reading of 
the statute and regulations: ``The language of both CWA section 402 and 
40 C.F.R. Sec.  122.62 make it clear that the EPA [or other permitting 
authority] is not required to modify any NPDES permit.'' Texas Mun. 
Power Agency v. EPA, 836 F.2d 1482, 1486 (5th Cir. 1988).
---------------------------------------------------------------------------
    Not only would this proposed change have a damaging effect on water 
quality, it would also shut the public out of the permitting process 
for long stretches of time. Members of the public deserve to have a say 
regarding how much pollution is dumped into waterways that they live 
near, use recreationally, or depend on for drinking water. It is only 
when NPDES permits are issued or renewed that the public has the 
opportunity to weigh in on the terms and limitations applying to 
pollution dischargers, or to seek judicial review of those permit terms 
if they are not legally sufficient. Doubling the length of permit terms 
would cut these opportunities for public input in half.

    Question 1.b. Will increasing the time length of permits make it 
easier for wastewater utilities to meet the goals of the Clean Water 
Act?
    Question 1.c. Are you aware of any correlation between wastewater 
utility construction schedules and NPDES permit lengths that would 
justify extending permits terms from five-years up to 10 years?
    Answer to b. and c. Organizations representing regulated 
municipalities have claimed that extending NPDES permit terms is 
necessary because project construction timelines for clean water 
infrastructure can extend beyond five years. This has always been the 
case, and the framers of the Clean Water Act were aware when they 
drafted the statute that permit terms would not always align with 
infrastructure project timetables. They decided nonetheless that permit 
limits must be updated every five years. With water quality worsening 
across the country, the need for frequent review of permit conditions 
is no less now than it was in the 1970s when the Clean Water Act was 
enacted.
    The organizations advocating for this change in the law have 
provided no specific examples of infrastructure projects that have been 
prevented or abandoned because of the current five-year permit term. 
Rather, this rationale seeks to take advantage of Congress's desire to 
promote infrastructure investment in order to roll back pollution 
dischargers' regulatory requirements.
    Even if the regulated community's concerns are taken at face value, 
existing mechanisms already exist to address those concerns. The EPA's 
Environmental Appeals Board has ruled that NPDES permits may include 
compliance schedules that extend beyond the five-year term of the 
permit if allowable under state law.\4\ This option provides a means to 
account for the reality of construction timelines while also ensuring 
that the permit itself will be updated on a regular basis.
---------------------------------------------------------------------------
    \4\ 13 E.A.D. 714 (2008). See also EPA, Memo from James Hanlon, EPA 
Office of Wastewater Management, to Alexis Strauss, EPA Region 9, 
``Compliance Schedules for Water Quality Based Effluent Limitations in 
NPDES Permits'' (May 10, 2007) (``Any compliance schedule that extends 
past the expiration date of a permit must include the final effluent 
limitations in the permit in order to ensure enforceability of the 
compliance schedule as required by CWA section 502(17) and 40 C.F.R. 
Sec.  122.2 (definition of schedule of compliance).'').
---------------------------------------------------------------------------
    Supporters of this proposal also emphasize the administrative costs 
associated with seeking a permit renewal every five years. While the 
permit renewal process may be time-consuming in some states, the 
environmental and public health benefits of frequently reviewing 
pollution discharge standards more than justify the administrative 
expense. Cost concerns should not be addressed by weakening safeguards, 
but rather by providing increased resources. The expenses that 
utilities incur renewing their permits every five years could be offset 
by increases in federal water infrastructure funding for 
municipalities, such as the increased authorizations proposed in H.R. 
1915. Moreover, Congress could make the permit reissuance process 
faster and more efficient by providing more resources to state 
permitting agencies.

    Question 1.d. Last Congress, the Committee also received 
information related to certain states allowing existing NPDES permits, 
including industrial and major NPDES permits, to be ``administratively 
extended'' beyond their statutory limit of five years.
    Question 1.d.i.  In your view, are administratively extended 
permits consistent with either the goals or the legal requirements of 
the Clean Water Act?
    Answer. NPDES permits that are administratively extended past their 
expiration dates are a rampant problem. Often referred to as ``zombie 
permits,'' administratively extended permits frustrate the intent of 
the Clean Water Act to ensure that permits are regularly updated on a 
five-year basis to reflect changing conditions. The effect of extended 
permits is functionally the same as the potential effect of 
establishing ten-year permits: dischargers operating under outdated 
standards that in many cases are known to be inadequate to protect 
public health and the environment. Under these lax requirements, 
dischargers utilize inferior pollution control technology and escape 
the stricter pollutant limits that would be triggered if their permits 
were renewed. Moreover, extended permits deprive members of the public 
of their statutory right to voice concerns about insufficient controls 
on pollution entering local waterways.
    According to EPA, approximately 15,000 facilities were covered by 
expired permits at the end of FY2017, the last time the agency 
published nationwide permit status data.\5\ A quarter of individually 
permitted major facilities were operating under expired permits.\6\ In 
some parts of the country, more permits are expired than current, and 
many such permits have been expired for multiple permit cycles. These 
include permits for heavily polluting facilities like coal-burning 
power plants.
---------------------------------------------------------------------------
    \5\ EPA, Permit Status Report for Non-Tribal Major Individual, 
Minor Individual, and Non-Stormwater General Permit Covered 
Facilities--End-of-Year FY2017, https://www.epa.gov/sites/production/
files/2017-12/documents/final_fy17_eoy_non-tribal_backlog_report_card-
sum.pdf.
    \6\ EPA, Permit Status Report for Non-Tribal Individual Major 
Permits--End-of-Year FY2017, https://www.epa.gov/sites/production/
files/2018-01/documents/final_fy17_eoy_non-
tribal_backlog_report_card.pdf.
---------------------------------------------------------------------------
    EPA has concluded that administratively extended permits do ``not 
contain terms and conditions based on the most recent standards, in 
effect delaying prospective environmental improvements to the nation's 
waters and possibly continuing deleterious effects'' where conditions 
have changed.\7\ The agency took steps toward addressing this problem 
in a proposed 2016 rule which would have designated certain expired 
permits as proposed permits and allowed EPA to take appropriate action 
on them, but following the administration change in 2017, the agency 
unfortunately dropped the proposal.
---------------------------------------------------------------------------
    \7\ EPA, Fact Sheet: NPDES Permit Backlog Reduction (2016), https:/
/www3.epa.gov/npdes/pubs/factsht.pdf.
---------------------------------------------------------------------------
    Congress should consider enacting legislation to curb lengthy 
administrative extensions of NPDES permits. Providing additional 
resources to state agencies could help them clear up their permit 
backlogs. Additionally, Congress should adopt new statutory 
requirements--or direct EPA to develop new requirements by rule--that 
would ensure EPA regional offices and state permitting agencies take 
action on all expiring and/or expired NPDES permits in a timely 
fashion.

    Question 1.d.ii.  How does extending municipal wastewater utility 
permits to ten years potentially affect your concerns with 
administratively extended permits?
    Answer. The pervasive problem of extended permits exacerbates the 
potential negative effects of ten-year permits. In states that already 
routinely fail to renew their permits on time, there is no reason to 
believe that ten-year permits would not also be administratively 
extended alongside other kinds of permits. If a ten-year permit is 
extended following its expiration date, the discharger could end up 
operating for more than a decade without updated pollution control 
requirements--potentially 15 to 20 years or more.
    This concern is another important reason why the Clean Water Act 
should not be amended to allow the issuance of ten-year permits for any 
category of discharger.

    Question 2. Is there anything else you would like to add or 
elaborate from your testimony or the discussion during the hearing?
    Answer. My written testimony stated that the Council of 
Infrastructure Financing Authorities' SRF Project Pipeline identifies 
over $47 billion in specific clean water infrastructure projects across 
the country that could be commenced within the next two to three years 
if funding is provided. However, CIFA's Project Pipeline includes some 
potential projects that extend beyond the two-to-three-year timeframe. 
In CIFA's own words, the tools states used to compile the pipeline 
included ``current year plans and project lists, multi-year plans and 
project lists (up to five years), a survey of utilities for new 
projects, increased funding for current projects, and the addition of 
other known projects, such as projects that applied but didn't receive 
funding, projects on planning lists, and projects in utilities' capital 
improvement plans.'' \8\
---------------------------------------------------------------------------
    \8\ Council of Infrastructure Funding Authorities, S.A.F.E. Water 
Infrastructure Action Plan and SRF Project Pipeline (2020), available 
at https://www.cifanet.org/economic-stimulus.
---------------------------------------------------------------------------

                                 [all]
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
